     April 30, 2005




Information Technology
Management

Report on Standard Finance System Controls
Placed in Operation and Tests of Operating
Effectiveness for the Period October 1, 2004
through March 31, 2005 (D-2005-059)




                   Department of Defense
               Office of the Inspector General

                                      Constitution of
                                     the United States

       A Regular Statement of Account of thei Receipts and Expenditures of all public
       Money shall be published from time to time.
                                                                Article I, Section 9
Table of Contents

Foreword                                                                              i

Section I
      Independent Service Auditors’ Report                                            1

Section II
      Information Provided by DFAS and DISA                                           9

            Overview of Operations                                                    9

            Relevant Aspects of the Control Environment, Risk Assessments, and
            Monitoring                                                               11

               Control Environment                                                   11
               Risk Assessments                                                      16
               Monitoring                                                            17

            Information and Communication                                            19

            Control Objectives and Related Control Activities                        29

            User Organization Control Considerations                                 30

Section III
      Control Objectives, Control Activities, and Tests of Operating Effectiveness   33

            Scope Limitations                                                        33

            Control Deficiencies                                                     33

            Control Objectives, Control Activities, and Tests of Operating
            Effectiveness                                                            34

               General Computer Controls
                  Security Program (SP)                                              34
                  Access Control (AC)
                       Logical Security                                              46
                       Physical Security                                             60
                       Computer Operations                                           63
                  Change Control (CC)                                                67
                  System Software (SS)                                               78
                  Service Continuity (SC)
                       Backup and Recovery                                           83
                    Physical Computer Asset Protection    85

             Application Controls
                Authorization (AN)                         87
                Completeness (CP)                          97
                Accuracy (AY)                             101
                Integrity (IN)                            109


Section IV
     Supplemental Information Provided by DFAS and DISA   125

        Continuity of Operations Planning                 125


Acronyms and Abbreviations                                127

Report Distribution                                       129
                                          FOREWORD

This report is intended for the use of DFAS and DISA management, its user organizations, and
the independent auditors of its user organizations. Department of Defense personnel who
manage and use the Standard Finance System (STANFINS) will also find this report of interest
as it contains information about STANFINS general and application controls.

The IG DoD is implementing a long-range strategy to conduct audits of DoD financial
statements. The Chief Financial Officer’s Act of 1990 (P.L. 101-576), as amended, mandates that
agencies prepare and conduct audits of financial statements. The reliability of information in
STANFINS directly impacts DoD’s ability to produce reliable, and ultimately auditable,
financial statements; which is key to achieving the goals of the Chief Financial Officer’s Act.

STANFINS is a general fund accounting system developed to support day-to-day operations of
U.S. Army and National Guard installations world-wide, as well as the Defense Commissary
Agency. Other DoD agencies receive trial balance data from STANFINS for use in preparing
their financial statements. STANFINS provides support for fund and obligation control, budget
execution and expenditure accounting, reimbursable accounting, miscellaneous accounting
(disbursements and collections), general ledger control, and financial reporting. In FY 2003,
STANFINS processed more than $300 billion of general fund transactions.

This audit assessed controls over the STANFINS processing of the $300 billion of transactions at
DFAS and DISA. This report provides an opinion on the fairness of presentation, the adequacy
of design, and the operating effectiveness of key controls that are relevant to audits of user
organization financial statements. As a result, this audit precludes the need for multiple audits of
STANFINS controls previously performed by user organizations to plan or conduct financial
statement and performance audits. This audit will also provide, in a separate audit report,
recommendations to management for correction of identified control deficiencies. Effective
internal control is critical to achieving reliable information for all management reporting and
decision making purposes.

A selection process is underway to replace STANFINS with the General Fund Enterprise
Business System (GFEBS). However, based on the status of the GFEBS procurement effort, it is
not likely that GFEBS will replace STANFINS until after FY 2007. This audit will assist in
ensuring that STANFINS provides reliable information to management in the interim and, when
GFEBS does come on line, ensuring that only valid data is migrated to the new system.




                                                 i
Section I: Independent Service Auditors’ Report




                       1
2
•   Reviews to confirm that STANFINS transaction processing or master file updates were successfully
    completed, and that source documents were correctly entered into the STANFINS Terminal
    Application Processing System (TAPS).
Additionally, the STANFINS General Fund and Inquiry (AVK087) report, relied on by users to identify
accounting issues such as Negative Unliquidated Obligations (NULOs) and problem disbursements,
reported accounting issues only when automated edit checks first identified and reported the error. Issues
were not reported on subsequent reports regardless of whether corrective actions were taken. This
condition increased the risk that issues not addressed on the day of first reporting would not be addressed
and would ultimately result in misstatements of financial information.
In our opinion, the accompanying description of the aforementioned controls presents fairly, in all
material respects, the relevant aspects of DFAS and DISA controls that had been placed in operation as of
March 31, 2005. Also, in our opinion, except for the deficiencies referred to in the preceding paragraph,
the controls, as described, are suitably designed to provide reasonable assurance that the specified control
objectives would be achieved if the described controls were complied with satisfactorily.
Key logical security controls were ineffectively operating and, in some cases, not implemented during a
part or all of the examination period. Specifically:
•   During testing, DFAS field sites were unable to generate STANFINS and TAPS user access lists
    directly from the security system, which prevented effective STANFINS logical access
    administration. Also, controls related to the authorization of logical access to the STANFINS
    application and General Support System (GSS) were inconsistently applied. Specifically, user access
    forms, including management authorization for user access, were inconsistently documented. User
    access recertifications were inconsistently performed across DISA and DFAS locations and, as a
    result, duplicate accounts, inactive accounts, accounts belonging to separated employees, and
    accounts with excessive access were identified across all STANFINS Army Standard Information
    Management System (ASIMS) domains.
•   Technical control configurations restricting access to the STANFINS application and GSS did not
    comply with DoD requirements. Specifically, minimum password length, complexity requirements,
    and reuse restrictions and automated checking to verify the authority of users to submit batch jobs
    contained configured settings that did not comply with DISA policy. Remote access to the DISA
    Defense Enterprise Computing Center (DECC) mainframe located in St. Louis, Missouri, via telnet
    was not restricted or secured with encryption.
•   Audit logging, monitoring, and follow-up were conducted inconsistently and were undocumented for
    three months of the six-month examination period. Specifically, audit logs were not created for the
    use of sensitive system utilities on the STANFINS domains secured by Computer Associates (CA)
    Access Control Facility 2 (ACF2) security software. Logs that detail activities of remote user
    sessions were not maintained or reviewed. Also, DISA had not segregated monitoring and security
    administration responsibilities for ACF2 and CA-Top Secret security software.
These control deficiencies had the potential to affect the achievement of application control objectives
related to authorization and integrity, as well as the logical security control objective.
Additionally, authorizing officials inconsistently signed access forms that granted entrance privileges to
the computer room housing the STANFINS mainframe. Individuals were identified who had unnecessary
access to the computer room housing the STANFINS mainframe.
Documentation of testing, authorization, and communication of STANFINS application changes was
inconsistently generated and maintained. Additionally, there was no automated application change
management/version control software in place to maintain a history of changes to STANFINS. These



                                                     4
control deficiencies had the potential to affect the achievement of integrity and application change control
objectives.
DISA had not developed procedures to manage system software changes. The procedures should have
specified the personnel responsible for changes, methods to describe system software problems, and
means of testing changes. In addition, the procedures should have provided for impact analyses, change
approvals, implementation and verification procedures, and documentation requirements. System
software change documentation did not always include detailed information about the change, to include
testing results or impact analyses. These control deficiencies had the potential to affect the achievement
of the computer operations and integrity control objectives, as well as the system software control
objective.
As discussed in the accompanying control descriptions, key computer operations controls were
ineffectively operating and, in some cases, not implemented during a part or all of the examination period.
Specifically:
•   At DECC St Louis, Missouri, user access to Control-M (a mainframe job scheduling utility) was
    excessive based on segregation of duties principles.
•   One DFAS site responsible for production administration had not documented production scheduling
    procedures. The site lacked procedures for scheduling and monitoring production jobs and handling
    job failures.
•   Two of three DFAS sites responsible for production administration did not have documented
    procedures for job schedule changes.
In addition to the procedures we considered necessary to render our opinion as expressed in the previous
paragraph, we applied tests to specific controls, listed in section III, to obtain evidence about their
effectiveness in meeting control objectives, described in section III, during the period from
October 1, 2004 to March 31, 2005. The specific controls and the nature, timing, extent, and results of
the tests are listed in section III. This information has been provided to user organizations of DFAS and
DISA and to their auditors to be taken into consideration, along with information about the internal
control of user organizations, when making assessments of control risk for user organizations. In our
opinion, except for the deficiencies listed in the preceding paragraphs, the controls that were tested, as
described in section III, were operating with sufficient effectiveness to provide reasonable, but not
absolute, assurance that the control objectives specified in section III were achieved during the period
from October 1, 2004 to March 31, 2005; however, the scope of our engagement did not include tests to
determine whether control objectives not listed in section III were achieved; accordingly, we express no
opinion on the achievement of control objectives not listed in section III.
The relative effectiveness and significance of specific controls at DFAS and DISA and their effect on
assessments of control risk at user organizations are dependent on their interaction with the controls and
other factors present at individual user organizations. We performed no procedures to evaluate the
effectiveness of controls at individual user organizations.
The description of controls at DFAS and DISA is as of March 31, 2005, and the information about tests of
the operating effectiveness of specific controls covers the period from October 1, 2004 to
March 31, 2005. Any projection of such information to the future is subject to the risk that, because of
change, the description may no longer portray the controls in existence. The potential effectiveness of
specific controls at DFAS and DISA is subject to inherent limitations and, accordingly, errors or fraud
may occur and not be detected. Furthermore, the projection of any conclusions, based on our findings, to
future periods is subject to the risk that changes made to the system or controls, or the failure to make
needed changes to the system or controls, may alter the validity of such conclusions.




                                                     5
Section II: Information Provided by DFAS and DISA




                        7
8
II. Information Provided by DFAS and DISA
A. OVERVIEW OF OPERATIONS

Department of Defense

The Department of Defense (DoD) is the cabinet-level agency responsible for establishing and
administering defense initiatives and strategy for the United States. DoD employs approximately two
million military and civilian individuals and has an annual revenue/operating budget of $371 billion.

The DoD organization structure is arranged such that the Joint Chiefs of Staff, DoD OIG, Office of the
Secretary of Defense, and each of the military branches report to the Secretary of Defense and Under
Secretary of Defense.

Defense Finance and Accounting Service

The DFAS mission is to provide responsive, professional finance and accounting services for the DoD.
The Director of DFAS reports to the Under Secretary of Defense Comptroller/Chief Financial Officer
(USD(C)/CFO). DFAS is organized underneath the Office of the Secretary of Defense and is responsible
for the proper accounting of resources within DoD. DFAS is organized such that the Director and Deputy
Director of DFAS oversee operations carried out as depicted below:

                                                          Director/
                                                       Deputy Director


                           Military &                                                          CFO/
         Client                               Commercial Pay         Accounting                               Chief Information
                          Civilian Pay                                                       Corporate
       Executives                                Services             Services                                Officer
                           Services                                                          Resources



                    AMO/DAE                               Plans &                 Internal               General
                                         Policy                                                                           Chief of Staff
                                                        Requirements              Review                 Counsel


                                                  .



                                                               STANFINS Program                 Technical Services
                                                               Management Office                  Organization




                                                                    FIELD SITES
           CFO – Chief Financial Officer
           AMO – Acquisition Management Organization
           DAE – DFAS Acquisition Executive
                                                                                                  USER BASE




Within the Accounting Systems Directorate, Installation and Tactical Support Accounting Systems
Organization, the Program Management Office (PMO) helps to ensure continued operation of
STANFINS in accordance with DoD security and operational requirements. The Technical Services
Organization (TSO) is responsible for elements of the technical administration of STANFINS and
provides multi-tier system support in coordination with other organizations. The TSO carries out its

                                                                    9
responsibilities for many aspects of system support in coordination with the Centralized Directorate for
Information Management (CDOIM), as well as decentralized DOIM organizations servicing other DFAS
sites. CDOIM and DOIM groups are responsible for the overall management and continuance of the
STANFINS computer processing operations. See the Information Systems section (in the Information
and Communication section) for a detailed description of PMO, TSO, CDOIM, and DOIM organizational
roles relative to the administration and operation of STANFINS.

Defense Information Systems Agency

DISA is a combat support agency responsible for planning, engineering, acquiring, fielding, and
supporting global net-centric (systems with operations distributed across a network) solutions to serve the
needs of the President, Vice President, the Secretary of Defense, and other DoD Components, under all
conditions of peace and war.

DISA performs the following in support of the administration of STANFINS underlying information
technology architecture:

•   Installation and maintenance of system software, including operating systems, communication
    networks, and file control software;
•   Installation and maintenance of the ASIMS database management software, as well as CA’s Data
    Query (a Commercial Off-the-Shelf (COTS) software package);
•   Administration of system parameter settings available within the ASIMS software, which provides
    logical access control;
•   Restriction of physical access to computer facilities and application programs/data files housed in the
    facility;
•   Backup and contingency planning, including maintenance of off-site processing capabilities and
    rotational off-site storage of critical files; and
•   Logical segregation of major applications from other systems resident on the domain hardware and
    from unauthorized external users.

By providing services and fulfilling responsibilities outlined above, DFAS and DISA represent service
organizations/service organization components that act in concert to provide finance and accounting
services supported by information systems and technology to specific DoD user organizations:

•   Army Posts, Camps and Stations (e.g., Fort Riley, Fort Belvoir)
•   Air Force (Security Assistance – DFAS-Denver)
•   Defense Commissary Agency (DeCA) – Worldwide
•   Other Defense Agencies (e.g., Defense Advanced Research Projects Agency (DARPA) and DoDEA)
•   DFAS field sites (e.g., Pearl Harbor, HI; San Antonio, TX; Indianapolis, IN; Orlando, FL; Rome, NY;
    Lawton, OK; Seaside, CA)

DISA’s relationship with DFAS is, itself, a service organization/user organization relationship. DISA
provides platform hosting and systems and hardware support services to DFAS, a user/administrator of
the STANFINS application resident on the DISA-operated platform; however, for the purposes of the
Statement on Auditing Standards (SAS) 70 examination (the results of which are reported herein), DISA
and DFAS are viewed as a combined service organization delivering information systems technology-
enabled finance and accounting support services, which are in part realized through the STANFINS
application and GSS, to a series of user organizations.




                                                    10
B. RELEVANT ASPECTS OF THE CONTROL ENVIRONMENT, RISK
   ASSESSMENTS, AND MONITORING

Control Environment

Defense Finance and Accounting Service

The structure of the organizations supporting STANFINS provides the overall framework for planning,
directing, and controlling operations. Operations and business functions are segregated into tasks and/or
staffs according to job responsibilities. This framework allows STANFINS users to clearly define the
lines of authority for reporting and communication purposes, and allows employees to focus on the
business functions of their respective divisions.

Administrative and user groups are organized by function to maintain an appropriate segregation of
duties, which promotes checks and balances for key steps in all sensitive functions and meets applicable
legal and regulatory requirements. Segregation of duties covers, wherever possible, both employees and
supervisors. In general, different individuals perform key steps in completing all major types of financial
transactions. These steps include budgeting, preparation of proposals or requisitions, authorization of
transactions, certification of funds availability, obligation of funds, recordation of obligations,
certification of disbursements (or schedules of disbursements issued by the Treasury Department),
disbursement of funds, and financial reporting.

TSO-Indianapolis manages the STANFINS Information Technology (IT) security program, which is
focused on assuring that STANFINS’ infrastructure and critical assets are appropriately safeguarded. The
Program/System Manager provides overall leadership and helps coordinate policies, procedures, and
activities with IT services. The program is administered based on a fundamental philosophy of risk
management, whereby IT risks are identified, understood, assessed, and mitigated appropriately. This
planned approach allows the Information Systems Security Manager (ISSM) to implement appropriate
protective measures and helps ensure the privacy, availability, integrity, and security of IT resources (See
the Risk Assessments section for more information regarding this process).

STANFINS senior IT staff, acting under the direction of the ISSM develop and implement Army-wide IT
security, oversee certification and accreditation of the STANFINS mission essential systems, establish
and implement the STANFINS-wide Incidence Response Program, to include investigating reported IT
security incidents, and their appropriate disposition.

Defense Information Systems Agency

Operations

Operations has the responsibility of providing Computing Services core services and meeting customer
expectations through professional, consistent operations services and standard implementation of proven
industry best practices. The Computing Services Operations Division (CSOD) is responsible for
continual refinement and analysis of operations performance metrics and practices to identify and
implement opportunities for improvement in the execution of core operations services and maintaining
the integrity of the security posture of the operations environment. The implementation of a strong
customer-focused environment and highly responsive post-deployment support services maintains and
supports Computing Services customer relationships. Centralized management of all operating locations
helps to ensure that customers receive the same predictable high quality services regardless of processing
location.



                                                    11
Computing Services Operations Division Headquarters

DISA Computing Services Operations is organized in three layers: Policy/Plans at the Headquarters,
centralized operations at Headquarter, and the direct operations functions at field operating locations. The
overall organization is depicted in the following chart.




                         SMCs/
                                                                Chief, Operations                               Deputy Chief
                        DECCs/PE                                    Division

                                            HQ Field Liaison




                            SMC                                                                          SMC
         Operations                                                             SSO                                    Network Operations
                            OKC                    SSO                                                   Mont
        Mgmt Branch                                                          Montgomery                                   Branch Chief
                                               Mechanicsburg
                             CCC
                           Oklahoma                                                                   CCC
                                                                                                   Montgomery
       Customer Svc                                            Central Staging
                                                                                                                           Section Chief
       Mgmt Program


                             Policy
                            Planning                                                    Special Programs
                            Section                                                         Section




                 Mechanicsburg         Chambersburg            Denver        Oklahoma       Montgomery      Nat’l Capital Region




SMC = Systems Management Center
DECC= Defense Enterprise Computing Center
CCC = Central Communications Center
SSO = Systems Support Office
PE = Processing Elements




At the CSOD Headquarters-level, the Chief Operations Officer reports directly to the Principal Director
for DISA Computing Services. The Chief of Operations has overall responsibility for issuing operations
standards, policies, plans, standard business processes, and standard operations procedures.
Accomplishing the objectives of the core CSOD function requires extensive interaction with all other
organizational headquarters elements, senior level customer representatives, and other DISA elements.

Network Operations Branch

Current Operations is an Headquarters-level function providing a centralized enterprise monitoring
function to provide an enhanced situational awareness posture of the entire Computing Services
operations environment for senior level management. This function supports the corporate incident
reporting process that provides details of high impact, high visibility, or high interest incidents throughout
the operational environment, as well as providing a liaison function with other key elements of DISA to

                                                                        12
help ensure that DISA elements and DISA CSD maintain mutual awareness of incidents that cross
organizational boundaries.

Special Programs Section – Application Support and Security

The Applications Support team serves as Operations representatives on new business proposal teams.
They consult with customers to identify and specify system requirements, define systems scope and
objectives, and prepare estimates of the operational resources that will be required for sustainment.
Responsibilities include monitoring, analyzing, and reporting performance metrics, outages, and trends
for the production systems associated with assigned functional support areas.

The Security Team provides Information Assurance guidance and enforces policy. They also provide
centralized clearance processing for CSOD personnel security as matrixed support from the Field Security
Office (FSO).

Operations Management Branch

The Operations Management Branch is attached to the Chief of Operations at the Headquarters level.
This organization is responsible for policies, procedures, standards, and management oversight for the
CSOD configuration management process. The Policy/Planning Branch is responsible for the centralized
change management process within Computing Services and manages the enterprise Configuration
Control Board.

The Operations Management Branch includes centralized technical and program support functions
impacting standardization and optimization of the operating site production environments. Denver,
Colorado and Mechanicsburg, Pennsylvania currently support CMS, Capacity Management, and Multiple
Virtual Storage (MVS) Capacity functions. Specific functions include: capacity management for all
platforms, performance management, asset management, inventory management, facilities management,
assured computing, quality management, and customer service management.

Central Staging

The Central Staging Site is also a part of this branch and will perform centralized receipt and staging of
enterprise assets. The Central Staging Site is responsible for inventory control and asset management for
all new Computing Services assets.

Centralized Operations

Operations functions providing support services that impact all platforms and customers are organized as
centralized operations functions at the Headquarters level. The centralized functional organizations are
the System Support Offices and the Production Branch of CSOD.

System Support Office (SSO)

Mechanicsburg and Montgomery support the SSO functions. SSO Mechanicsburg provides executive
software standards for OS/390 platforms, chairs the Executive Software Change Control Board, and
maintains a software library of all OS/390 products and patches. SSO Mechanicsburg also provides
consultation and technical support for special projects impacting the OS/390 environment and a help desk
function that acts as a liaison for operating locations needing technical assistance from vendors whose
products the DISA CSD Central Maintenance contract supports. SSO Montgomery provides similar
executive software support functions for the Unisys and Open Systems environments and maintains a


                                                    13
library of software for these platforms. The SSO supported Software Factory provides an online
mechanism for the software release process. SSO Montgomery also provides a release process for
distribution of physical media.

Central Communications Centers (CCCs)

The CCCs are located at two of the Systems Management Centers (SMCs). The CCCs provide
geographically diverse coverage to support the technical network infrastructure operations functions.

Systems Management Centers/Defense Enterprise Computing Centers (SMC/DECCs)

Production Operations incorporates the field operations functions directly supporting customer
requirements. Four SMC locations and four production sites support Production Operations. The SMC
locations include production operations as well as the technical support and standardized customer
support functions for the enterprise. The four production sites provide facilities and touch labor, but one
of the SMC locations remotely provides technical support and customer support functions for systems
residing at these production sites.

SMC operating facilities are located at four production operations sites. Two SMCs support OS/390
processing, two support UNISYS processing, and all four sites support server workload. Each SMC
provides both production processing and technical support for the applicable operating system platforms.
Two SMCs also have a Central Communications Center providing technical network management for all
production sites. Each SMC provides customer support services focused on specific customer groups.
The primary customer support groups are the Navy, Marine Corps, Air Force, Army, DFAS, Defense
Logistics Agency (DLA), and Military Health Services (MHS).




                                                     14
Core operations and customer support functions are organized in two branches within each SMC: SMC
Operations and SMC Technical Support. The relationship of these organizational elements is illustrated
below.




                           Systems Management Center (SMC)


                     SMC Operations                   SMC Technical Support


                      Customer-Focused
                      Operations Support Team
                         Customer Focused
                         Operations
                           Customer Support Team
                                      Focused
                             Operations Support Team

                                             Technical Support Cells



SMC Operations

Consistent with industry practice, the DISA CSD Operations Support Team (OST) concept provides a
customer-oriented service structure to implement high performance help desks. Under this concept, a
customer-focused team is constructed to provide all the service and knowledge elements that pertain to
that customer’s post-deployment support. These services include the traditional Tier 1 help desk support,
traditional basic console/operations support for the customer’s applications, basic system monitoring for
the customer’s platforms and applications, and other key skills required to be responsive to that customer.

The availability of a higher set of knowledge and skills co-located in the OST improves First Call
Resolution (FCR). Incorporation of the basic applications support, scheduling, and operations functions
for the customer also promote an intimate knowledge of that customer’s environment, priorities, and an
immediate knowledge of current status. Incorporation of monitoring functions using Enterprise Systems
Management (ESM) standard system monitoring components oriented toward the OST customer
completes a situational awareness for that customer that ensures a high quality professional response at
the first call. Only issues that require system level access or that are new unique problems will have to be
referred to the technical support group.

Customer-oriented OSTs provide a single phone number and a consistent team of individuals to assist the
customer base. This results in the development of a relationship of trust and loyalty with the customer
and an in-depth understanding of customer missions, concerns, and operations cycles. Often, agent
monitoring systems will be able to take action proactively because of this level of customer knowledge.
The development of a close relationship with the customer, and the dedication of a team to that customer,
promotes an implementation of Total Contact Management that supports SMC operations objectives.

With the OST focus on a particular customer, trends in types of calls will become apparent.
Knowledgeable agents experienced with a particular customer base will be able to identify candidate


                                                    15
categories for further analysis, either perform the analysis or refer to the proper technician, and help
define permanent fixes to eliminate categories of calls. Through their relationship with the customer, the
OST can perform customer education over time to help eliminate other categories of routine calls. They
can also support online self-help by providing knowledge suitable for the customer to access directly to
answer common questions. These activities will eventually result in call prevention for routine issues or
informational inquiries. As agents filter out routine calls, they will be devoted to resolving increasingly
complex questions for their customers.

Risk Assessments

Defense Finance and Accounting Service

Management representatives of the PMO and TSO, collectively known as “STANFINS management,”
identify and evaluate relevant risks associated with operations and systems. STANFINS management is
aware of the numerous internal and external risks associated with STANFINS operations and takes
appropriate action to eliminate or mitigate the risk exposure. STANFINS management meets
continuously to discuss division operations. Management addresses risk identification, analysis, and
resolution planning and implementation. Risks identified through external audits and other evaluations,
including the Department of Defense Information Technology Security Certification and Accreditation
Process (DITSCAP) (described in the Monitoring section), are also included in the risk assessment
process.

STANFINS Management follows the Mission Assurance Category (MAC) III controls assessment
guidelines and Confidentiality Controls as documented in DoD Instruction 8500.2, Information Assurance
Implementation, when performing risk assessment activities. STANFINS Management performed the
most recent risk assessment in November 2003, which is documented in Appendices P and Q of the
STANFINS System Security Authorization Agreement (SSAA). The Information Assurance division of
STANFINS Management performed this MAC III-based assessment. The MAC III assessment evaluates
existing policies and procedures, and provides a summary of areas of potential risk that relate to
STANFINS.

Defense Information Systems Agency

Risk Assessments have been developed for each enclave/site within Computing Services that identifies
the risk, probability of the risk occurring, and impact if the risk does occur; identifies countermeasures
implemented to reduce the risk; and identifies the residual risk, potential risk, and countermeasures
required to address the potential risk. These risk assessment documents are updated a minimum of every
18 months.

Sites are capable of performing self-assessment Security Readiness Reviews (SRR) that validate
compliance with Security Technical Implementation Guides (STIGs) and can perform self-assessment
vulnerability scans.

Field Security Operations conducts annual independent reviews for STIG compliance and vulnerability
scans.




                                                    16
Monitoring

Defense Finance and Accounting Service

DFAS, TSO, and DISA management and supervisors perform continuous monitoring of the performance
of internal controls as a part of their normal operations. They use reconciliation, comparisons, and
exception reporting, along with normal supervisory activities to achieve internal control monitoring.
Management evaluates findings from external audits and management reviews, develops corrective
actions or responses, and takes action to resolve the findings. They report the status of the resolution of
the material findings and weakness to DFAS-IN STANFINS Systems Office on a regular basis and action
is taken as necessary. In addition, the DITSCAP Certification and Accreditation (C&A) requirements
include the periodic monitoring of STANFINS-related internal controls.

DoD Instruction 5200.40, Department of Defense Information Technology Security Certification and
Accreditation Process, December 20, 1997, establishes a standard Department-wide process, set of
activities, general tasks, and management structure to certify and accredit information systems that will
maintain the information assurance and security posture of the defense information infrastructure
throughout the lifecycle of each system. The certification process is a comprehensive evaluation of the
technical and non-technical security features of an information system and other safeguards to establish
the extent to which a particular design and implementation meets specified security requirements and
covers physical, personnel administrative, information, information systems, and communications
security. The accreditation process is a formal declaration by the designated approving authority that an
information system is approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk. STANFINS has been certified and accredited by the DFAS
Designated Authority in December, 2003.

Defense Information Systems Agency

The CSOD Current Operations staff provides centralized event monitoring in support of the CSD senior
management. Standard monitoring tools provide near real-time data on the status of all production
operations environment components including applications, platforms, and networks. Enterprise Systems
Management (ESM) provides presentation tools that allow monitoring of consolidated information by
customer, application, network segment, or by any other appropriate business category designation. The
Operations Monitoring function maintains a continuous surveillance of high-level indicators of the health
of the key elements of the CSOD operations environments. Alerts and alarms provide an early warning of
potential customer impact and enhanced situational posture awareness for the Chief of Operations and
senior CSD staff.

Information Assurance (IA) Security staff is specifically charged with providing information security
support and solutions for intrusion monitoring and detection, incident reporting, and trend analysis in
support of customer requirements. The IA staff participates in the planning, installation, operations, and
maintenance of Information Security technologies, systems, procedures, plans, and services associated
with each customer’s Area of Responsibility. The day-to-day operations for security provided by IA
include, but are not limited to, the following core functions:

•   Network Intrusion Detection Monitoring
•   Level I data analysis – Correlation of activity with sensor data and initial log review
•   AOR Incident/Event Trending
•   Event, Incident, and Mission impact determination/escalation/prioritization
•   Coordination of Incident & Event Feedback to customer
•   Penetration Tests/IA Exercises/IA Reviews,


                                                     17
In accordance with DISA Instruction 630-230-31, Enclave Security, March 30, 2001, IA technology has
been implemented throughout the DISA Assured Computing Environment in order to provide a reliable,
available, and secure network. Other IA tools, processes, and functions may be implemented as deemed
necessary to defend the network, enclave boundaries, local computing environments, and supporting
infrastructure against all threats.




                                                 18
C. INFORMATION AND COMMUNICATION

Information Systems

Application Overview

STANFINS is a general fund accounting system developed to support the day-to-day operations of the
U.S. Army, as well as other select DoD operational components. STANFINS provides for the input and
master file update of transactions related to funding and budget execution, expenditures, “reimbursables,”
disbursements and collections with no impact on funds allotted to installations, and general ledger updates
for the purposes of complete and accurate financial reporting. STANFINS shares the hardware and
telecommunications resources of ASIMS, and 65 DECC-St. Louis databases currently field the system.

The Director, Finance and Accounting, Office of the Assistant Secretary of the Army for Financial
Management (OASA (FM)) and the U.S. Army Information Systems Software Development Center–
Washington developed STANFINS through a joint effort. STANFINS design has been predicated on the
OASA (FM) requirement to help ensure that the Department of the Army accounting systems comply
with the Budget and Accounting Procedures Act of 1950.

Specifically, STANFINS provides the following:

•   Full disclosure of the financial results of all activities
•   Adequate information required for all management purposes
•   Effective control over and accountability for all funds and other assets
•   Reliable data to serve all budgetary purposes
•   Means for integrating Army financial data with related data in the accounts of the Treasury
    Department.

STANFINS is a legacy system operating in a “maintenance mode” (i.e., only emergency changes are
applied to the application production environment). Although in maintenance mode, STANFINS systems
offices and field sites are consolidating databases to realize savings and migrate new customers to
STANFINS such as the National Guard and the Installation Management Agency (IMA). A selection
process is currently underway to replace STANFINS and many other systems supporting Army customers
with a new Enterprise Resource Planning software package: the General Fund Enterprise Business
System.

General Support System

STANFINS production programs (also known as “jobs”) exist on a Complimentary Metal Oxide
Semiconductor (CMOS) AMDAHL 2054 mainframe running IBM’s OS/390 Release 2.10 mainframe
operating system. Each Logical Partition (LPAR) contains a series of site/installation databases that are
configured to a one database to one site/installation ratio. The mainframe is responsible for storing all
STANFINS data with interactive capability for local and remote end-users. The mainframe uses
removable media for data storage. IBM compatible personal computers with terminal emulation software
clients are used to input data not entered through automated interfaces with other systems. All end-user
connectivity transmit clear text non-encrypted data using the ELAN and the Sensitive but non-classified
Internet Protocol Router Network (NIPRNET), a telephone/telecommunication media-based network
managed by DISA. The mainframe connects to the network communication devices that comprise the
gateways to the NIPRNET and ELAN via IBM Open Systems Adapter integrated adapter hardware and
software.



                                                    19
STANFINS programs are written in Common Business Oriented Language 74 and comprise
approximately 1.8 million lines of code that are designed to run on IBM/MVS/XA processing
environments. The TAPS and Customer Information Control System (CICS) provide for and facilitate
online user interaction with the application. CICS is an online, interactive, mainframe program used to
access various applications. CICS permits entry and update of information on a screen, the movement
between screens, and the printing of documents. The TAPS utility is used during sign-on and sign-off
procedures to the ASIMS Network and for the manual input of accounting data into STANFINS. COTS
software provides Data Query capability. BMC Software’s Control-M utility provides production
scheduling and management. CA DATACOM/database is the backend database management system that
contains STANFINS standing and transaction data.

Each STANFINS-related LPAR resident on the CMOS7 mainframe contains a series of site/installation
databases that are currently configured at a one database to one site/installation relationship. There are 65
databases established on six production LPARs. Three of these databases, which are classified, are
outside of the scope of this review. The six production LPARs, along with one development LPAR, are
identified as follows:

  Domain Code           Domain Name          Applicable DFAS Field            Installation Databases
                                                      sites
 MSK-ASIMS-S                St. Louis        • San Antonio, TX            •     Fitzsimons
                                             • Lawton, OK                 •     Ft. Carson
                                             • Directorate for            •     Ft. Hood
                                                 Network Operations       •     Ft. Sam-Houston
                                                 (DNO), Indianapolis,     •     National Guard Bureau
                                                 IN                             (NGB) Oklahoma
                                             •   Rome, NY                 •     Ft. Leavenworth
                                             •   Orlando, FL              •     Ft. Polk
                                                                          •     Ft. Riley
                                                                          •     Ft. Sill
                                                                          •     Ft. Buchanan
 MSL-ASIMS-E                  East           •   Columbus, OH             •     Europe DeCA
                                             •   DNO, Indianapolis, IN    •     Columbus DeCA
                                             •   Centralized Disbursing   •     Disbursing
                                             •   Rome, NY                 •     Secretary of the Army
                                             •   Orlando, FL                    Financial Operations
                                             •   Military Pay                   (SAFINOPS)
                                                 (MILPAY)                 •     Ft. Campbell
                                             •   Lexington, KY            •     Carlisle Barracks
                                             •   Lawton, OK               •     Ft. Dix
                                             •   DEPT97                   •     Ft. Drum
                                                                          •     DFAS-IN Harrison
                                                                          •     Centralized Pay (CEN
                                                                                PAY)
                                                                          •     NGB Pennsylvania
                                                                          •     United States Army
                                                                                Intelligence and
                                                                                Security Command
                                                                                (INSCOM)
                                                                          •     Ft. Knox
                                                                          •     U.S. Army Special


                                                     20
 Domain Code     Domain Name       Applicable DFAS Field           Installation Databases
                                            sites
                                                                  Operations Command
                                                                  (USASOC)
                                                               • Ft. Meade
                                                               • Defense Travel System
                                                                  (DTS)
                                                               • Ft. Leonard Wood
                                                               • DFAS
MSM-ASIMS-W          West          •   Pearl Harbor, HI        • Alaska/Hawaii
                                   •   Seaside, CA             • Ft. Huachuca
                                   •   DNO, Indianapolis, IN   • Ft. Bliss
                                   •   Rome, NY                • NGB-Indiana
                                                               • Ft. Irwin
                                                               • NGB-California
                                                               • Ft. Lewis
                                                               • Reserves
MSQ-ASIMS-Ch     Chambersburg      •   DNO, Indianapolis, IN   • Military District of
                                   •   San Antonio, TX            Washington (MDW)
                                   •   Rome, NY                • Foreign Military Sales
                                   •   Seaside, CA                (FMS)
                                   •   Lawton, OK              • Ft. Eustis
                                   •   Norfolk, VA             • Europe-Medical
                                   •   DFAS-Denver                Command (MEDCOM)
                                                               • Europe-Kaiserslautern,
                                                                  Germany (KTOWN)
                                                               • Defense Lang Institute
                                                               • West Point
                                                               • Walter Reed
                                                               • Ft. Detrick
                                                               • Ft. Belvoir
                                                               • Inst. Mgmt Agency-
                                                                  Outside of the
                                                                  Continental United
                                                                  States (OCONUS)
                                                               • Ft. Devins
                                                               • Ft. Lee
MSW-JAK        JAK (Japan-Korea)   •  Yakota, Japan            • Japan
                                   •  Seoul, Korea             • Korea
MQC-ASIMS-T9        Supports       N/A                         N/A
                   STANFINS
                  Development
MQD-ASIMS-H    Huntsville          •   Rome, NY                •     Ft. Bragg
                                   •   Lawton, OK              •     Installation
                                   •   DNO, Indianapolis, IN         Management Agency
                                   •   Orlando, FL                   (IMA) East
                                   •   Lexington, KY           •     IMA West
                                                               •     Ft. Gordon
                                                               •     NGB Alabama
                                                               •     Ft. Jackson


                                          21
    Domain Code          Domain Name           Applicable DFAS Field             Installation Databases
                                                        sites
                                                                             •     Ft. McPherson
                                                                             •     Ft. Rucker
                                                                             •     Ft. Stewart
                                                                             •     Kuwait
                                                                             •     United States Military
                                                                                   Training Mission
                                                                                   (USMTM)-Saudi




Information Security

STANFINS is an unclassified Army-wide standard accounting system. The technical implementation of
information security has been applied to STANFINS at various levels of the GSS (i.e., workstations,
servers, hosts, operating systems, network/communication devices, etc.) and application architecture. In
accordance with DoD Directive 8500.1 and DoD Instruction 8500.2, the MAC for this system has been
determined to be MAC III. The confidentiality level of the system is Sensitive. All data processed by
STANFINS is sensitive but unclassified data. The loss, misuse, or unauthorized access to or modification
of this information could adversely affect the national interest or the privacy to which individuals are
entitled under section 552a of Title 5, United States Code (The Privacy Act).

Users access STANFINS at IBM-compatible workstations that contain terminal emulation software
enabling them to connect to the STANFINS-resident mainframe via their local area network (LAN) server
gateway and the NIPRNET government communications network. Physical access controls to DFAS
sites and desktop operating system security are applied to restrict access to authorized individuals at the
local workstation level. The application of least-privilege and need-to-know information security
principles, utilization of user ID and password security, configuration of operating system/server security
settings in accordance with DoD security implementation guidelines, and implementation of physical
access controls to communications devices and lines provide network-level security that restricts access to
ELAN and NIPRNET resources (including STANFINS access points) to authorized individuals.

Users connect to the mainframe and their STANFINS application/databases instance by accessing and
being validated by Computer Associate’s Access Control Facility 2 (ACF2) and CA-Top Secret Security1
mainframe security software product. ACF2 and Top Secret are programs that enable security control and
facilitate security administration in compatible mainframe environments. Physical access controls
implemented at the DECC-St. Louis augment the application of the technical controls described in this
paragraph.

Application Functionality

STANFINS is a general ledger containing all financial transactions for the customers it serves, largely
Army installations. Financial data includes, but is not limited to, military and civilian pay transactions,
cash accountability, vendor and commercial pay, travel pay, and funding. STANFINS records
obligations, funds authorization, disbursements, accruals/expenditures, billings and collections, and
reimbursables. Of special note, STANFINS was not intended to provide commitment accounting,


1CA-Top Secret Security mainframe security software package is used to restrict access to the Japan and Korea
Logical Partitions (LPARs). The remaining LPARs are secured using ACF2.

                                                       22
budgetary accounting, or funds control. STANFINS records what has transacted but does not
automatically control what has transacted.

Inputs to STANFINS

STANFINS accepts data in one of two ways.

1. Manual entry via TAPS. TAPS provides real-time online edits for data values. A warning appears if
   a data element or combination of data elements is incorrect. For example, if an Account Processing
   Code (APC) is not valid, a warning message will appear; however, users have the ability to bypass the
   warning and continue processing the transactions. Because STANFINS is a batch system, the APC
   code may not yet have been posted to the master file. So, it is a timing issue. If the user fails to enter
   the APC in the APC master, the transaction will fail and appear on a daily prelim report. A
   supervisor or “reconciler” obtains the Daily Preliminary Balance (AVK018) report and reconciles
   failed transactions. The “reconciler” is a different person than the input person.
2. Automated interface/file load2. STANFINS receives files in one of three formats: qam (80 character
   from field site), nam (80 character from Installation), or DeCA (200 character). Currently, not all
   interface files into STANFINS are fully automated. Field site users have the ability to pull down a
   file, modify it, and then load it into STANFINS. Generally, a PC-based Microsoft Access database
   performs this offline function for the purpose of putting it into the correct format; however, as in any
   manual process, there is a risk that the data is modified rather than just reformatted.

Activities within STANFINS

Accounting transactions must be recorded and reported in the accounting period (month) in which they
occur. The system automatically generates the General Ledger effect for each detail transaction based on
the Type Action code of the transaction and other applicable direct or indirect input data including the
APC, Element of Resource (EOR), Standard Document Number, and FY. The effect of these
relationships is captured as a G/L Proforma Code, which defines the General Ledger account effects.

Outputs from STANFINS

STANFINS outputs can be categorized as follows:

(1) Reports/Queries. STANFINS produces a variety of reports and queries using the Online Report
    Viewer (OLRV), including exception reports, management reports, and financial reports. The system
    produces these reports on a daily, weekly, monthly, and/or as-required basis to provide information
    that is current and available when needed. Report files can also be sent to the CORP File Transfer
    Protocol (FTP) servers for use in DARS.
(2) Interface Files. STANFINS sends interface files to three places:
    • Operational Data Store (ODS);
    • CORP1 or CORP2 – FTP servers in Information Services Organization (ISO) and TSO
        respectively. CORP1 is for other field sites. CORP2 is for the DNO; or
    • Installations’ servers.

Various systems and/or users use the outgoing interface files for various purposes. Examples include
using the obligation information to determine if a disbursement can be made, matching the obligation to
the funded amount, and providing updated master file tables.


2   May have manual intervention.

                                                     23
Interfacing Systems

The following table documents systems that directly interface with STANFINS, as well as the nature of
the interface and other relevant information:



                                               CAPS-W                      HQARS




             ATLAS                                                                                  OLRV




                                           Master Files              112, 218,
                                                                    DELMAR, GL
                                                                                                                  TAPS
                     Transaction History                                           Reports
                                                                                   Transactions
                                                                                   Master Files                      CICS


                       Obligations                                                                 Master Files
IFS
                      Cost Transfers
                                                        STANFINS                                   Transactions


                                                                                     SARRS Interfund




                                                                                                                         ODS
                                 Obligations

      DEBX                                                    Funding
                                                             Obligations


                                                    Master Files
                                                    Transactions



                                                                                             ISB
                         DARS*



                                                              DBCAS




*DARS and ATLAS are not “systems” per se but PC-based utilities that send and/or receive data from
STANFINS for various purposes.




                                                            24
 Interfacing System       Receive    Send to    Nature of                    Notes
                           from     STANFINS    Interface
                         STANFINS
     TAPS/CICS                                 Location-     Front-end tool that facilitates/provides
                                               to-location   capabilities to manually input
                                               copy          accounting data into STANFINS.
                                               within the
                                               same
                                               mainframe
Accounting Transaction                         FTP           A queriable PC-based historical
Ledger Archival System                                       database tracking all transactions
      (ATLAS)                                                (funding, obligations, accruals, and
                                                             disbursements) entering STANFINS
                                                             via historical master files.
Computerized Accounts                          FTP           System uses the Account Processing
Payable System (CAPS)                                        Code Master file AXWAVK from
                                                             STANFINS to provide accounting
                                                             classification data used to make
                                                             payments to vendors.
Databased Accounting                           FTP           PC-based system receiving
Reconciliation System                                        STANFINS historical master data
      (DARS)                                                 files for research and possible mass
                                                             correction of transactions previously
                                                             entered into STANFINS. The files
                                                             used by DARS are received and sent.
                                                             Process is usually initiated in each of
                                                             the Systems Offices of the field site
                                                             from DECC-St. Louis.
Databased Commitment                           FTP           PC-based Commitment Accounting
     Accounting                                              System creating commitments, thus
   System (dbCAS)                                            creating candidate obligation
                                                             transactions used by STANFINS.
                                                             During the STANFINS daily batch
                                                             cycles, output files are created and
                                                             sent to each of the dbCAS field site
                                                             offices for distribution throughout
                                                             their network. STANFINS passes the
                                                             confirmation of the obligation entered
                                                             into STANFINS (successful
                                                             processing), and when the
                                                             disbursement information is processed
                                                             into STANFINS, the disbursement
                                                             information is then passed to dbCAS
                                                             to complete the cycle. Process is
                                                             usually initiated in each of the
                                                             Systems Offices of the field site from
                                                             DECC-St. Louis.
Customer Automation                            FTP           EDI transaction facilitation system;
         and                                                 obligation acknowledgements are sent
 Report Environment                                          to STANFINS or DEBX, purchase
      (DEBX)                                                 card obligations received by DEBX
                                                             are sent to STANFINS. DECC-
                                                             Ogden, Utah runs DEBX, which
                                                             receives X-12 standard UDF files and


                                               25
  Interfacing System       Receive    Send to    Nature of                   Notes
                            from     STANFINS    Interface
                          STANFINS
                                                             creates user specific system UDF for
                                                             batch input into STANFINS. The
                                                             files are in clear text STANFINS
                                                             specific formats for processing
                                                             obligations, accruals, and
                                                             disbursement. These files are sent to
                                                             DECC-St. Louis, Chambersburg,
                                                             Rock Island (East or West),
                                                             Huntsville, and the Far East.
  Headquarters Army                             FTP          System receives Status, Expenditure,
  Reporting System                                           and General Ledger report data form
                                                             STANFINS during the month-end and
                                                             year-end processing.
  Integrated Facilities                         FTP          System provides STANFINS cost
   System-Modified                                           distribution (obligation, accrual, and
                                                             disbursement) data for the facility
                                                             engineers at each post, camp, and
                                                             station worldwide.
  Installation Supply                           FTP          ISB passes logistic financial
         Buffer                                              transactions including obligations,
         (ISB)                                               accruals, disbursements, and interfund
                                                             bills. U.S. Army Wide CONUS,
                                                             OCONUS Installation (36 databases),
                                                             DFAS-IN field sites (Rome, Orlando,
                                                             DNO, Lexington, Lawton, Seaside,
                                                             Europe), Norfolk, Pacific, Japan, San
                                                             Antonio, and U.S. Army Reserve use
                                                             ISB.
Operational Data Store                          FTP          Sends STANFINS Obligations,
                                                             Accruals, Payables, Accounts
                                                             Receivable, Expenses, and
                                                             Disbursements, and in turn receives
                                                             transactional historical data. ODS is a
                                                             major conduit for external interfacing
                                                             systems, including SRD1, CAPS,
                                                             DCD/DCW, DDRS, MOCAS, DJMS,
                                                             DCPS, FAS, TAMMIS, AFMIS,
                                                             ACIIPS, IATS, and others. Data is
                                                             transmitted on a daily basis both as a
                                                             sending system and a receiving
                                                             system.
On-Line Report Viewing                          FTP          Commercial Off-the-Shelf, Report
                                                             Dot Web provides users reports
                                                             modeled after STANFINS reports.




                                                26
STANFINS Support Organizations

The PMO, headquartered at DFAS-Indianapolis, is primarily responsible for the overall operation of
STANFINS. In addition to this responsibility, the PMO helps to ensure the development and
implementation of policies related to STANFINS and corresponding accounting operations; the
administration and operation of the system in accordance with DoD security and operational
requirements, as well as decision making regarding the strategic direction of future system operations,
including anticipated fixes and enhancements, if any; and consideration of eventual STANFINS
replacement alternatives. The PMO is also responsible for the implementation of the STANFINS C&A
process in accordance with DITSCAP, DoD’s governing policy and detailed instructions for carrying out
C&As.

The TSO, headquartered in DFAS-Indianapolis, is responsible for elements of the technical
administration of STANFINS and provides multi-tier system support in coordination with other
organizations (see paragraph below).

The TSO develops and performs unit and function testing changes to the STANFINS production
environment and is responsible for the administration of STANFINS’ database configuration and
maintenance. TSO is responsible for CICS and TAPS administration and maintenance. Additionally,
TSO is responsible for elements of security administration for the STANFINS mainframe resources,
including the STANFINS application itself. The TSO carries out its responsibilities for security
administration in coordination with the DISA Systems Management Center at the DECC-St. Louis. The
TSO carries out its responsibilities for many aspects of system support in coordination with the CDOIM,
as well as decentralized DOIM organizations servicing other DFAS sites.

The CDOIM is also located at DFAS-Indianapolis. CDOIM is responsible for the overall management
and continuance of the STANFINS batch production cycles, including maintenance of the production job
schedule, Job Control Language maintenance, operations monitoring, and the resolution of unintended
deviations from the STANFINS production job schedule. CDOIM employs the Control-M scheduling
utility to maintain Daily, Weekly, Monthly, or Annual production runs as required. CDOIM is also
responsible for providing testing support to the PMO and TSO for STANFINS changes. CDOIM is
composed of primary, backup, and alternate analysts, and is also responsible for process scheduling.

Additionally, four decentralized DOIM organizations support the following DFAS field sites: Colorado,
Korea, Hawaii, and Japan.

The decentralized DOIM organizations are responsible for the management and continuance of the
STANFINS batch production cycles related to the sites that they support.

STANFINS User Organizations

STANFINS is deployed worldwide at DFAS and customer locations, including selected Defense
Agencies, DFAS field sites (including Hawaii, San Antonio, Indianapolis, Orlando, Rome, Lawton,
Seaside, Denver, and Japan), Army Posts, Camps and Stations (i.e., Fort Riley, Fort Belvoir, Fort Leonard
Wood), DeCA, DARPA, and Security Assistance. Additionally, STANFINS supports the accounting
activities of other DoD agencies. In all, approximately 36,000 users access STANFINS data.




                                                   27
Communication

Defense Finance and Accounting Service

Pertinent control information is critical to maintain an effective internal control system. Information is
identified, captured, and communicated in a form and timetable that enables personnel to carry out their
responsibilities in an efficient and effective manner. Management reviews reports containing operational,
strategic and financial information that make it possible to monitor and control the organization.

Effective communication also occurs in a broader sense throughout the organization. Management
stresses the importance of control responsibilities to personnel. Management accomplishes this through
supervision and various communication methods (e-mail, period status meetings, postings, etc.).
Personnel understand their duties and roles in the internal control system, as well as how their individual
activities relate to the work of others. Management is receptive to employee suggestions on ways to
enhance productivity, quality, or other improvements to the current products and services offered by the
DFAS/DISA organization.

Defense Information Systems Agency

Computing Services Operations Headquarters develops policies establishing performance standards,
operating procedures, operational metrics and reporting, standard capacity and performance reporting,
quality assurance and quality control, disaster recovery, strategic planning, and other practices required to
guide execution of operations services to meet DISA CSD objectives and customer expectations.

The Central Communications Centers (CCC) are configured with the capability to back up the other CCC
and support full network infrastructure operations. The CCC can remotely manage the CSD network
infrastructure via a secure out-of-band management network. CCC management responsibilities include
the support of routing, switching, Domain Name Services (DNS), Wide Area Networks (WAN) interfaces
to DISA Network Services, and network security device operations. The CCC also provides the
appropriate event correlation for network and security environments within the data centers and serves as
the SMC escalation organization to Wide Area Network management centers Regional Network
Operations Service Center (RNOSC) as well as Service/Agency base level management centers.

The CSOD Network Operations is responsible for the up-channel reporting of operations incidents.
Categories of incidents have been identified as high impact, high visibility, or high interest requiring
detailed reporting to a defined chain of senior management. Specific information requirements have been
defined for the incident reports to help ensure completeness, accuracy, and understandability. Standard
trouble tickets that provide the basic information must be cleansed to ensure that these informational
requirements are met and consolidated into the defined incident reporting format. Centralization of this
function from field elements assures consistency and responsiveness to senior management needs.




                                                     28
D. CONTROL OBJECTIVES AND RELATED CONTROL ACTIVITIES

DFAS and DISA control objectives and related controls are included in section III of this report, “Control
Objectives, Control Activities, and Tests of Operating Effectiveness,” to eliminate the redundancy that
would result from listing them in this section and repeating them in section III. Although the control
objectives and related controls are included in section III, they are, nevertheless, integral parts of DFAS
and DISA control descriptions.




                                                    29
E. USER ORGANIZATION CONTROL CONSIDERATIONS

The control activities at DFAS and DISA related to STANFINS were designed with the assumption that
certain controls would be placed in operation at user organizations. The application of such controls by
user organizations is necessary to achieve certain control objectives identified in this report. This section
describes some of the controls that should be in operation at user organizations to complement the
controls at DFAS and DISA. The following user organization control considerations are not a
comprehensive list of all controls that user organizations should employ.

User organizations should have policies and procedures in place to provide reasonable assurance that:

•   Hard copy documents (e.g., purchase orders, training orders, and miscellaneous obligation
    documents) are authorized, accurate, and complete before the user submits them to STANFINS for
    input and automated processing.

•   Authorized individuals input data into STANFINS, enter it accurately and completely, and seek
    approval from appropriate personnel for transactions that are input.

•   Erroneous data are corrected and resubmitted in a timely manner.

•   The appropriate users review output for completeness and accuracy.

•   STANFINS computer terminals, communication lines, and data outputs are protected from
    unauthorized access.

•   Passwords needed to access STANFINS through computer terminals are protected against
    unauthorized disclosure and misuse.

•   STANFINS’ Terminal Area Security Officers (TASO) are notified in a timely manner when
    employees leave or transfer, supporting TASO ability to cancel system access authority for those
    individuals.

In addition, some DFAS customers submit data into STANFINS and review and correct their own
transactions. In such circumstances, controls should be placed in operation to provide reasonable
assurance that only authorized source documents are input; errors are identified timely, reviewed, and
corrected; and the correction of errors is appropriately authorized.




                                                     30
Section III: Control Objectives, Control Activities, and Tests of
                    Operating Effectiveness




                               31
32
III. Control Objectives, Control Activities, and Tests of Operating
     Effectiveness

A. SCOPE LIMITATIONS

The Office of the Inspector General, Department of Defense, specified the control objectives documented
in this section. As described in the prior section (section II), STANFINS interfaces with many systems.
The controls and tests described in this section of the report are limited to those computer systems,
operations, and processes directly related to STANFINS. Controls related to the source and destination
systems associated with the STANFINS interfaces are specifically excluded from this review. We did not
perform procedures to evaluate the effectiveness of the input, processing, and output controls in these
interfacing systems, although we did perform procedures to evaluate STANFINS interface input and
output controls. We did not conduct penetration testing on STANFINS because this FISCAM procedure
was performed under the Audit of the Defense Computing Services, Project Number D2004-D000FC-
0191. The fieldwork identified no deficiencies. The Defense Computing Services report will be issued in
June 2005.

B. CONTROL DEFICIENCIES

Test procedures disclosed operating effectiveness deficiencies in certain control activities. Where the
audit team was able to identify and test additional controls that allowed the control objective to be
achieved, we documented such compensating controls and/or circumstances, as well as the description of
the operating effectiveness deficiency, in the following matrix. In addition, the audit team identified
certain compliance exceptions with DoD IA standards and/or other Federal legislation, criteria, standards,
or regulations. Where such exceptions related to the suitability of design and/or operating effectiveness
of key controls placed in operation to achieve control objectives, we documented the controls and/or
circumstances. In a separate DFAS and DISA management report, the audit team identified compliance
exceptions not related to the suitability of design and/or operating effectiveness of key controls intended
to achieve control objectives. We have not included these exceptions herein because they do not
adversely impact the achievement of the control objectives included in this Service Auditors’ Report.




                                                    33
C. CONTROL OBJECTIVES, CONTROL ACTIVITIES, AND TESTS OF OPERATING EFFECTIVENESS

Security Program (SP)

Controls provide reasonable assurance that a security program is established.

Control Description                                              Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
Control Activity:
SP-1 Risks are periodically assessed.
DISA
DISA DECC completed its Risk Analysis in January 2004.           •   Inspected risk assessment policies and the     •   No exceptions noted.
The primary objective of the Risk Analysis was to quantify the       most recent DECC risk assessment to
level of risk associated with the operating systems. The DISA        determine whether it was independently
DECC Risk Analysis is comprised of five parts: threat types,         performed in compliance with National
the probability of threat occurring, the potential risks to be       Institute of Standards and Technology (NIST)
realized if the threat occurs, the cost of the threat, and           800-30 standards.
countermeasures. Risk assessments are conducted when a
major change occurs or once every three years.
DFAS
The STANFINS SSAA includes the risk assessment policies          •   Inspected risk assessment policies and the     •   No exceptions noted.
and the most recent high-level risk assessment conducted in          most recent STANFINS risk assessment to
November 2003, based on MAC III controls.                            determine whether it was independently
The IA division of TSO performed the MAC III-based risk              performed in compliance with NIST 800-30
assessment. The MAC III assessment evaluates existing                standards.
policies and procedures, and provides a summary of areas of
potential risk that relate to STANFINS and safeguards that can
be applied to reduce those risks and vulnerabilities.
Control Activity:
SP-2.1 A security plan is documented and approved.
DISA
DISA DECC documents a security plans that provide basic          •   Inspected the DISA DECC security plan to       •   No exceptions noted.
security guidance for the protection of DECC-St. Louis               determine whether the security plan was
processing resources. DISA Instruction 630-230-19 provides           approved and complied with Office of
guidance for the development of security plans for DISA major        Management and Budget (OMB) Bulletin 90-
applications (MA) and GSS. The DECC Director endorses the            08 and A-130, as well as NIST 800-18.
Executive Summary of the plan.
DFAS
The SSAA Information System Security Policy and Plan             •   Inspected the STANFINS security plan to        •   Exception noted, the description is
sections contain a short description of STANFINS and its             determine whether the STANFINS security            outdated showing multiple DECCs



                                                                              34
Control Description                                                   Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
systems architecture that summarizes the security objectives for          plan was approved and complied with OMB             supporting STANFINS. The interface
confidentiality, integrity, authenticity, availability,                   Bulletin 90-08 and A-130, NIST 800-18.              diagram depicts many direct interfaces to
accountability, and economic feasibility of integrated security                                                               STANFINS. Most of the interfaces are to
mechanisms. The policy and plan also addresses control                                                                        ODS. Also, there is system software that
requirements for discretionary access for certain personnel,                                                                  is not described (Control-M, ACF2,
auditing, service continuity, and personnel screening.                                                                        VASS and ROSCOE).
Control Activity:
SP-2.2 The plan is kept current.
DISA
The DISA DECC security plan is current.                               •   Inspected the DISA DECC security plan to         •   The most recent DISA DECC security
                                                                          determine whether the plan was current.              plan is dated January 10, 2004. No
                                                                                                                               exceptions noted.
DFAS
The SSAA Authority to Operate (ATO), which in part                    •   Inspected the STANFINS security plan to          •   The ATO is signed and dated December
represents the approval of the security plan as current, is signed        determine whether the plan was current.              12, 2003. However, subsequent changes
by the Director, Information and Technology, a designated                                                                      to the STANFINS infrastructure have
approval authority, and is current. It is the responsibility of the                                                            made the System Description in Appendix
STANFINS Program Manager to initiate the STANFINS                                                                              E of the SSAA – Information System
recertification and reaccreditation at least every three years.                                                                Security Policy outdated. Specifically,
                                                                                                                               description is outdated showing
                                                                                                                               multiple DECCs supporting
                                                                                                                               STANFINS.
Control Activity:
SP-3.1 A security management structure has been established.
DISA
The DISA Computing Services Security Handbook defines the •               Inquired of Security Branch Chief and            •   No exceptions noted.
responsibilities of the Directors, DISA Security Officer, DISA            inspected an organizational chart to determine
Designated Approval Authority, DISA Certification Authority,              whether a person was appointed with specific
Commander of DISA Computing Services, Chief of the Field                  responsibility for security.
Security Officer, DISA Computing Services Security Manager
(SM), DISA Computing Services Information Systems Security
Officer (ISSO), Network Security Officer (NSO), and TASO.

The DISA DECC security plan also outlined the                         •   Inquired of Security Branch Chief and            •   No exceptions noted.
responsibilities of the appointed DISA DECC SM, ISSM,                     inspected an organizational chart to determine
NSO, and Information Systems Security Officers.                           whether the security appointee was
                                                                          subordinate to STANFINS management or a
DISA DECC appoints a primary security official, the ISSM/IA               major user.


                                                                                   35
Control Description                                          Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Manager (IAM)/NSO.                                                                                               •   No exceptions noted.
                                                             •   Inspected the DISA DECC Security Plan to
                                                                 determine whether it outlined security
                                                                 responsibilities as described in the Control
                                                                 Description.
DFAS
The responsibilities of the ISSM at the PMO/TSO, ISSO, and   •   Inquired of the ISSO/TASO and inspected an      •   No exceptions noted.
TASOs at DFAS sites are established and documented.              organizational chart to determine whether a
                                                                 person was appointed with specific
                                                                 responsibility for security.

                                                             •   Inquired of the ISSO/TASO and inspected an      •   At DFAS San Antonio, DFAS Pacific,
                                                                 organizational chart to determine whether the       DFAS Seaside, DFAS Denver and DFAS
                                                                 security appointee was subordinate to               Indianapolis, the TASO/security
                                                                 STANFINS management or a major user.                appointee was subordinate to STANFINS
                                                                                                                     management.
                                                             •   Inquired of the ISSO to assess whether owners   •   No exceptions noted.
                                                                 and users of the system were aware of the
                                                                 security structure.




                                                                          36
Control Description                                              Tests of Operating Effectiveness                      Results of Tests of Operating Effectiveness
Control Activity:
SP-3.2 Information security responsibilities are clearly assigned.
DISA
DISA DECC appoints a primary security official, the               •   Inquired of Security Branch Chief and            •   No exceptions noted.
ISSM/IAM/NSO. Additionally, generic job descriptions for IT           inspected the DISA DECC Security Plan to
Specialists in the Security Division and Operations Security          determine whether security responsibilities
Branch document baseline responsibilities for different               and expected behaviors were clearly defined
positions and include an outline of security responsibilities and     and documented.
prohibited activities.

DISA DECC position appointment letters include the position      •    Inspected the position descriptions for key IT   •   No exceptions noted.
descriptions for Security Division personnel who work directly        positions relevant to STANFINS to determine
with the STANFINS application. Position appointment letters           whether security responsibilities were clearly
are used when additional responsibilities are assigned to DECC        assigned.
personnel. The appointment letter details the employees’ new
roles and duties and the timeframe for which the position will
be held.
DFAS
DFAS sites have organizational charts, job descriptions, and     •    Inquired of ISSO and inspected                   •   At DFAS Rome, job descriptions did not
standard operating procedures that outline security                   documentation, including standard operating          address specific job duties and/or
responsibilities for IT personnel.                                    procedures and position descriptions for key         prohibited activities.
                                                                      IT personnel, to determine whether security
                                                                      responsibilities and expected behaviors were
                                                                      clearly defined, assigned, and documented.




                                                                               37
Control Description                                               Tests of Operating Effectiveness                      Results of Tests of Operating Effectiveness
Control Activity:
SP-3.3 Owners and users are aware of security policies.
DISA
DISA DECC follows the guidelines prescribed in DISA               •   Inquired of Security Branch Chief as to the       •   No exceptions noted.
Instruction 630-230-19 and the DISA Computing Services                procedure to make data owners and system
Handbook for providing training to DISA DECC staff.                   users aware of their security responsibilities.

DISA DECC personnel must take security awareness training,        •   Inspected the training materials to determine     •   DISA DECC-St. Louis employees had not
workplace violence training, and anti-terrorism training before       the topics covered. For all employees,                received annual security awareness
gaining access to any system.                                         inspected training documentation that                 training since October 12, 2003.
                                                                      supported attendance of security awareness
                                                                      training.
Security awareness posters throughout the DECC facility
                                                                  •   Observed the posters throughout the DECC          •   No exceptions noted
illustrate various security related topics (i.e., viruses,
                                                                      facilities to verify that security topics were
freeware/shareware, unique passwords, etc.).
                                                                      communicated.

                                                                  •   For IT employees who work with STANFINS,          •   No exceptions noted
DISA DECC employees must sign a non-disclosure agreement              inspected confidentiality/security agreements
form, which represents an acknowledgement of employees’               to determine if they were signed.
understanding and acceptance of confidential information
disclosure restrictions and requirements.




                                                                                38
Control Description                                              Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
DFAS
DFAS sites coordinate new users’ security awareness training     •   Inquired of ISSO/TASO as to the procedure to     •   Four out of ten DFAS field sites (DFAS
designed to provide an overview of the security structure at         make data owners and system users aware of           Pacific, DFAS Japan, DFAS Denver and
DFAS and other important topics relevant to security. Existing       their security responsibilities. Inspected the       DFAS San Antonio) had no training plans
employees must take an annual refresher security awareness           Information Assurance Training and                   in place. Two out of ten DFAS field sites
training to keep abreast of security related topics.                 Certification Plan to determine guidelines for       (DFAS Orlando and DFAS Columbus)
                                                                     training.                                            did not track attendance.
DFAS sites send monthly security highlights via e-mail to keep
employees abreast of security related topics.                                                                         •   There was no DFAS-wide IT Technical
                                                                                                                          Training policy that outlined ongoing
Each new employee fills out attendance listings as evidence                                                               training requirements for personnel in IT-
that they have completed the security awareness training.                                                                 related positions. As a result, it was left
                                                                                                                          to each DFAS field site to determine the
                                                                                                                          level of training required for IT-related
                                                                                                                          positions, and attendance was not tracked
                                                                                                                          at every site.

                                                                 •   Inspected the training materials to determine    •   No exceptions noted.
                                                                     whether topics covered addressed security
                                                                     awareness training requirements.

                                                                 •   Inquired of PMO, TSO, and DFAS field site        •   Four out of the ten DFAS field sites had
                                                                     management and inspected security awareness          issues with security awareness training
                                                                     training attendance listings and other tools         attendance:
                                                                     used to track course completion to determine         • DFAS Columbus did not centrally
                                                                     whether employees were receiving security                 track who had attended training.
                                                                     awareness training.
                                                                                                                          • DFAS Rome did not centrally track
                                                                                                                               who had attended said training;
                                                                                                                               training was overdue for 22 of 26 new
                                                                                                                               hires.
                                                                                                                          • At DFAS San Antonio, eight out of
                                                                                                                               33 current user access forms did not
                                                                                                                               have a training certificate of
                                                                                                                               completion on file.
                                                                                                                          • At DFAS Seaside, 13 out of 31
                                                                                                                               current user access forms did not
                                                                                                                               complete their annual security
                                                                                                                               awareness training.



                                                                              39
Control Description                                             Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
SP-3.4 An incident response capability has been implemented.
DISA
The Regional Computer Emergency Response Team has               • Inquired of the Network Security                  •   No exceptions noted.
documented incident response procedures (Security Directive         Administrator and the Information Assurance
#00-1) and uses the DISA Computing Services Handbook for            Officer and inspected incident response
guidance on handling incidents (virus, malicious code, etc.),       policies and procedures to determine whether
reporting structure (local and regional), and prioritization of     the incident response capability was
incidents. An Information Assurance Categories listing              documented as required by NIST 800-61.
provides classification guidance for individuals to report
information security incidents. DISA DECC-Mechanicsburg         • Inspected the Information Assurance               •   No exceptions noted.
has a help desk available for customers to call, e-mail, or         Categories listing to determine whether
otherwise communicate incidents.                                    classification guidance for individuals to
                                                                    report information security incidents was
                                                                    documented.

                                                                •   Observed the DISA DECC help desk function       •   No exceptions noted.
                                                                    to note whether an appropriate help desk
                                                                    function was in place within DISA DECC-
                                                                    Mechanicsburg and DISA DECC-St. Louis.
DFAS
The STANFINS incident response policy is detailed in the         • Inquired of the ISSM and TSO personnel and       •   The incident response plan did not include
SSAA. The incident response plan describes procedures to           inspected incident response policies and             awareness training for individuals with
mitigate security threats to the STANFINS system, types of         procedures in the SSAA to determine whether          access to the system that addresses how to
reportable incidents, and specifies designated staff members       the incident response capability had                 use the system’s incident response
responsible for each type of potential incident. Network           characteristics required by NIST 800-61.             capability.
security violations and internal control weaknesses are reported
to the ISSO and password compromises are reported to the
TASO. The plan outlines a specified, centralized reporting
procedure for reportable security incidents.
Control Activity:
SP-4.1 Hiring, transfer, termination, and performance policies address security.
DISA
The DISA Computing Services Security Handbook prescribes         • Inquired of Security Branch Chief to note        •   No exceptions noted.
guidelines addressing personnel security controls and addresses    whether hiring, transfer, termination policies
position sensitivity designations, documenting and updating        addressed security.
designations, investigation and reinvestigation requirements,
and adjudication and clearance procedures. The DISA              • Inquired of Security Branch Chief to note the    •   No exceptions noted.



                                                                             40
Control Description                                                Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
Computing Services Handbook also addresses the termination             background investigation process for new and
process for all DISA DECC employees.                                   current employees. Inspected Computing
                                                                       Services Handbook to determine whether it
                                                                       addressed these processes.

                                                                   •   Inspected all IT staff personnel records to      •   DISA DECC-St. Louis had three out of
                                                                       determine whether authorized personnel               eight employees that had separated from
                                                                       contacted references, performed background           the facility without exit records on file,
                                                                       checks, and filed appropriate documentation          therefore allowing users to potentially
                                                                       on separated employees.                              retain access to sensitive areas within the
                                                                                                                            computing center.
                                                                   •   For IT employees who work with STANFINS,
                                                                       inspected confidentiality/security agreements    •   DISA DECC-St. Louis did not possess
                                                                       to determine if they were signed.                    signed confidentiality/ security
                                                                                                                            agreements for three of 15 employees.
DFAS
Human Resources follows policies and procedures prescribed         •   Inquired of ISSO and Recruitment Chief to        •   No exceptions noted.
by the Office of Personnel Management (OPM), and uses DoD              note whether hiring, transfer, and termination
guidelines and DFAS regulations as supplementary sources for           policies and procedures addressed security.
hiring, performance of background checks, transfer, and                Inspected the OPM guidance that Human
termination of employees.                                              Resources follows to determine whether
                                                                       procedures addressed OPM policies and
All new employees must undergo DFAS New Employee                       procedures.
Orientation and complete required security related on-boarding
tasks, including a security and safety briefing and Personal       •   Inspected materials used for New Employee        •   No exceptions noted.
Identification Number (PIN) identification for Common Access           Orientation and Out-Processing to determine
Cards (CACs). Authorized personnel conduct and document                whether security content was included.
background investigations.
                                                                   •   Inquired of ISSO and Recruitment Chief to        •   Positions at DFAS-Rome are SF-85P
Employees must undergo an “Out-Processing” clearance
                                                                       determine the background investigation               Non-Critical Sensitive and new hires did
procedure if terminated or transferred from DFAS sites. A
                                                                       process for new and current employees.               not sign a security or confidentiality
form is completed identifying application access privileges that
                                                                       Inspected IT personnel records to determine          agreement. DFAS-Denver did not
need to be deleted. Also, the ISSO must sign and complete a
                                                                       whether references were contacted and                maintain information supporting the level
security access worksheet. This worksheet details the type of
                                                                       background checks performed and/or                   of background investigation for any of the
access the employee was granted, date system access was
                                                                       confidentiality agreements were complete.            15 accounting and IT personnel.
approved, security initials, and date terminated.

                                                                   •   For recently terminated employees, inspected     •   DFAS San Antonio did not maintain



                                                                                41
Control Description                                                Tests of Operating Effectiveness                      Results of Tests of Operating Effectiveness
                                                                       the corresponding Out-Processing documents           signed Out-Processing documents for all
                                                                       to determine whether they were completed.            separated employees.

Control Activity:
SP-4.2 Employees have adequate training and expertise.
DISA
DISA DECC has implemented “Certification Program for               •   Inquired of the Security Branch Chief and         •   No exceptions noted.
System Administrators” and “Information Systems Service                inspected the DISA Computing Services
Providers.” The program, dated August 2002, and the DISA               Handbook to determine whether a program
Computing Services Handbook, outline several different                 was in place to provide adequate training to IT
certification courses that system administrators should take           personnel.
depending on their designated level.
                                                                   •   For IT employees, inspected training records      •   DISA DECC-St. Louis had one IT
IT personnel are allowed to take technical training classes            to determine courses taken.                           employee that did not receive any IT
outside of DISA DECC programs as long as the training                                                                        technical training since entering the
program is within budget and is justifiable based on job                                                                     position (ACF2 Administrator) in
responsibility/position requirements.                                                                                        December 2003.
Personnel maintain training documentation in individual
                                                                                                                         •   DISA DECC-St. Louis had not provided
personnel files.
                                                                                                                             employees annual security awareness
                                                                                                                             training since October 12, 2003.
DFAS
DFAS uses DoD directive 8500.1 and Instruction 8500.2 –            •   Inquired of Assistant Network Security            •   Of the ten DFAS field sites, DFAS-
“Information Assurance Training, Certification, and Workforce          Officer, the ISSM, and PMO and TSO                    Pacific, DFAS-Japan, DFAS-Denver and
Management” for training direction. This guidance describes            personnel to determine the structure of the           DFAS-San Antonio did not have training
training requirements for system administrators, as well as            training program in place. Inspected DoD              plans in place. Of the ten DFAS field
Program Managers, ISSMs, ISSOs, and TASOs, and addresses               directive 8500.1, 8500.2, and the IT Technical        sites tested, DFAS-Orlando and DFAS-
the information assurance training requirements for end-users.         Training Program to determine whether a               Columbus did not track training
                                                                       program was in place to provide adequate              attendance.
Personnel maintain training documentation in individual                training to IT personnel.
personnel files, supporting both technical training and security                                                         •   There was no DFAS-wide IT Technical
awareness training.                                                                                                          Training policy that outlined ongoing
                                                                                                                             training requirements for personnel in IT-
                                                                                                                             related positions. As a result, each DFAS
                                                                                                                             field site determined the level of training
                                                                                                                             required for IT-related positions, and
                                                                                                                             attendance was not tracked at every site.




                                                                                42
Control Description                                           Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
                                                                                                                   • Of the ten DFAS field sites, DFAS San
                                                                                                                      Antonio did not have an annual technical
                                                                                                                      IT training program in place for system
                                                                                                                      administrators.

                                                              •   Inspected job descriptions for IT personnel      •   No exceptions noted.
                                                                  and compared it with their educational
                                                                  backgrounds and experiences to determine
                                                                  adequacy.

                                                              •   For IT personnel, inspected technical training   •   Of the ten DFAS field sites (DFAS-
                                                                  records to determine completion of courses.          Pacific) a TASO had not taken training
                                                                                                                       for two years and another TASO had not
                                                                                                                       taken training for three years.

                                                                                                                   •   Of the ten sites visited, DFAS-San
                                                                                                                       Antonio, DFAS-Orlando and DFAS-
                                                                                                                       Columbus did not track completion of IT
                                                                                                                       technical training.
Control Activity:
SP-5.1 Management periodically assesses the appropriateness of security policies and compliance with them
DISA
DISA’s FSO performs SRRs as a part of its IA review and        • Inquired of Security Branch Chief to note the     •   No exceptions noted.
certification and accreditation process once every two years.    methods used to assess compliance with
The SRR is an evaluation against DoD STIGs and DoD               security policy.
guidance and policies. Recertification must occur if there are
any major upgrades, changes, or breaches. Also, DISA DECC- • Inspected the DISA DECC-St. Louis                     •   No exceptions noted.
St. Louis performs similar tests (using the same evaluation      mainframe and network platform STIGs to
criteria) on a more frequent basis to monitor compliance.        determine whether security configuration
                                                                 requirements were documented.
Additionally, DISA’s FSO conducts annual penetration testing.
DISA DECC-St. Louis conducts penetration testing
                                                               • Inspected the network and mainframe platform      •   No exceptions noted.
approximately every two months, or more frequently if
                                                                 SRRs to determine whether management
necessary, to ensure that DECC systems information assurance
                                                                 assessed compliance with security policies.
capabilities continue to provide adequate assurance against
constantly evolving threats.
DFAS
The PMO prepares a STANFINS-specific Federal Managers’        •   Inquired of the ISSM, PMO and TSO staffs to      •   No exceptions noted.


                                                                           43
Control Description                                             Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
Financial Integrity Act (FMFIA) report once a year. DFAS            determine whether they developed processes
Arlington, Virginia prepares a Federal Information Security         to assess the appropriateness of security
Management Act report for all DFAS information systems,             policies.
including STANFINS.
                                                                •   Inspected the STANFINS self-assessment of      •   STANFINS was included in the SSAA
The SSAA, the FMFIA Report of 2004, and the Threat and              controls located in the SSAA to verify that        self-assessment scope. However, the
Vulnerabilities Assessment 2003 document the most recent            STANFINS was included in the scope.                SSAA did not meet all the requirements
self-assessments of STANFINS controls.                                                                                 of DITSCAP and DoD Instruction 8500.2.
                                                                                                                       Specifically,
STANFINS must be re-accredited every three years or sooner                                                             • Section 3, “System Architectural
if the overall security posture of the systems significantly                                                               Description,” page 17, did not meet
changes.                                                                                                                   the requirements for a current and
                                                                                                                           comprehensive baseline inventory of
                                                                                                                           all software.
                                                                                                                       • Appendix K, “Incident Response Plan,
                                                                                                                           did not adequately address several
                                                                                                                           requirements related to security
                                                                                                                           awareness of the Incident Response
                                                                                                                           Plan.

                                                                •   Inspected the most recent FMFIA reports to     •   No exceptions noted.
                                                                    determine whether the PMO completed an
                                                                    FMFIA report related to STANFINS.

                                                                •   Inspected the signed Authority to Operate to
                                                                    determine whether a C&A was completed in       •   No exceptions noted.
                                                                    the past three years.
Control Activity:
SP-5.2 Management ensures that corrective actions are effectively implemented.
DISA
DISA DECC maintains a Plan of Action and Milestones           • Inquired of Security Branch Chief as to the        •   No exceptions noted.
(POAM) that tracks all issues identified through SRR reviews      process for recording corrective actions that
including specific weaknesses, resources needed to implement      need to be implemented.
corrective actions, progress in addressing weaknesses, and
scheduled completion basis. It is the responsibility of the   • Inspected the POAM to determine whether            •   No exceptions noted.
DISA DECC primary security official to send a status to DISA      review findings and associated corrective
FSO to update their progress on the POAM issues.                  actions were documented.




                                                                             44
Control Description                                           Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Additionally, summary level results of the most recent SRRs   • Inspected summary level results of the most       • No exceptions noted.
are tracked through resolution in the Vulnerability               recent SRRs in VMS for the ASIMS domains
Management System (VMS).                                          and DECC network to determine whether
                                                                  SRRs were tracked.
DFAS
A matrix is used to follow up on the FMFIA Report. The        •   Inspected the FMFIA Report matrix to            •   No exceptions noted.
matrix identifies potential weaknesses. A testing matrix          determine whether review findings and
identifies control standards, evaluation methodology, and         associated corrective actions were documented
evaluation results for management controls.




                                                                           45
Access Control (AC) – Logical Security

Controls provide reasonable assurance that logical access to the STANFINS application, as well as the underlying operating systems and network
resources, are restricted to properly authorized individuals.

Control Description                                             Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
AC-1.1 Resource classifications and related criteria have been established.
DFAS
DFAS has documented and communicated Service-wide and             • Inquired of TSO and PMO management and          •   No exceptions noted.
STANFINS-related policies, procedures, and guidance                 inspected the application security plans to
addressing resource classification and associated security          determine whether a specific level of control
requirements as a part of the STANFINS SSAA. The SSAA               (classification) was assigned to systems and
identifies STANFINS as a MAC III system and documents the           resources based on the degree of the need to
resources required to preserve the confidentiality, reliability,    preserve confidentiality, reliability, and
and availability of STANFINS data. Additionally, the SSAA           availability..
contains an evaluation of existing policies and procedures,
vulnerabilities, and weaknesses and data flows. It also
provides a summary of areas of potential risk that relate to
STANFINS recommendations and safeguards that can be
applied to reduce risks and vulnerabilities exploitable by threat
sources.
Control Activity:
AC-1.2 Owners have classified resources.
DFAS
DFAS has documented and communicated Service-wide and             • Inquired of TSO and STANFINS PMO                •   No exceptions noted.
STANFINS-related policies, procedures, and guidance                 management and inspected documentation to
addressing resource classification and associated security          determine whether system owners had
requirements as a part of the STANFINS SSAA. The SSAA               classified resources based on criteria and
identifies STANFINS as a MAC III system and documents the           whether the classification was in accordance
resources required to preserve the confidentiality, reliability,    with the specific risk assessment.
and availability of STANFINS data. Additionally, the SSAA
contains an evaluation of existing policies and procedures,       • Inspected the risk assessment for STANFINS
vulnerabilities, weaknesses and data flows. It also provides a      and the applicable GSS to determine whether
summary of areas of potential risk that relate to STANFINS, as      a risk assessment was conducted based on
well as recommendations and safeguards that can be applied to       NIST 800-30 and DoD Instruction 8500.2.
reduce risks and vulnerabilities.
Control Activity:
AC-2.1 Resource owners have identified authorized users and their access authorized.



                                                                              46
Control Description                                                 Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
DISA
The DISA Computing Services Security Handbook details               •   Inspected policies and procedures for         •   No exceptions noted.
granting access to system resources.                                    granting and monitoring access to
                                                                        STANFINS IT resources.
Users at the DISA DECC-St. Louis have access to STANFINS
application production files and data as necessary to support       •   Inquired of DISA DECC-St. Louis Security      •   No exceptions noted.
system operation and respond to customer requests. DECC                 Division Branch Chief to determine the
users also have access to the mainframe GSS where the                   process for granting access to STANFINS.
application resides. The DECC is responsible for creating and
maintaining DECC user accounts, as well as DFAS ISSO and
                                                                    •   Inspected access control procedures to        •   No exceptions noted.
TASO accounts at customer sites. The local ISSO/TASO is
                                                                        determine whether the process for granting,
responsible for creating and maintaining user accounts at
                                                                        monitoring, and removing access to
customer sites.
                                                                        STANFINS followed Federal (NIST SP 800-
                                                                        26 – Logical Access) and DoD guidance
Users at the DECC (the majority of which are system software
                                                                        (DoD Instruction 8500.2 – Remote Access,
maintenance personnel) requiring access to the mainframe
                                                                        Access Procedures, Access Control Policies,
environment complete a form DD 2875 “System Authorization
                                                                        Contractor and Foreign Nationals Access,
Access Request,” used for initial access requests, as well as for
                                                                        Comprehensive Account Management, Least
changes to an account. An authorized supervisor must sign this
                                                                        Privilege Procedures, Classified Data
form indicating approval of the access. Users must possess a
                                                                        Protection).
security clearance commensurate with the classification level
of the system in order to obtain access. Passwords are
communicated to users via secure means, either in person or         •   Inspected access forms for a random sample    •   At DISA DECC-St. Louis, we selected 42
via e-mail using separate e-mails to transmit user ID and               of users of STANFINS (at the application          users out of 1441 and requested their user
password.                                                               and network level) to determine whether           access request form packets. Out of the
                                                                        management authorized access.                     sample of 42 packets:
The Remote Access Service (RAS) server connections provide                                                                • One user did not have a completed
direct dial-in access to the network. DECC users requesting                                                                   access request form;
remote access must submit an approved access request form                                                                 • Three individuals had at least one
(Form DD 2875). Remote access is granted to users with a                                                                      access request form without a Security
valid need, which must be approved by a supervisor, to access                                                                 representative’s signature certifying
the network remotely. Typically, users are granted remote                                                                     that the individual’s background
access in order to respond quickly to emergency situations and                                                                checks/security clearances were
resolve problems when not at the DECC facility. After                                                                         appropriate;
receiving an approved remote access request, the Security                                                                 • Six individuals had at least one access
Division staff adds the user to the RAS server.                                                                               request form where the user
                                                                                                                              acknowledgement portion was not
                                                                                                                              signed.



                                                                                 47
Control Description                                              Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness

                                                                 •   Inquired of DISA DECC-St. Louis Security
                                                                     Division Branch Chief regarding policies and   •   DISA DECC-St. Louis did not have a
                                                                     procedures for recertifying users access in        process for recertifying user access to
                                                                     STANFINS.                                          STANFINS.

                                                                 •   Obtained and inspected the access control
                                                                     listing (ACL) for STANFINS to determine        •   Two separated employees retained access
                                                                     whether terminated employees had access.           to one or more of the domains where
                                                                                                                        STANFINS resides.
                                                                 •   Inspected ACL to determine whether
                                                                     duplicate accounts existed.
                                                                                                                    •   No duplicate accounts were identified.
                                                                 •   Inspected an ACL of remote users to                However, three accounts on the Far East
                                                                     determine whether management limited,              domain had no user name associated with
                                                                     documented, and approved access.                   the ACF2 ID (ACID).

                                                                                                                    •   Remote access to the DISA DECC-St.
                                                                                                                        Louis mainframes via telnet was not
                                                                                                                        restricted and not secured via encryption.
DFAS
The Procedures for ASIMS Access Controls details policies on     •   Inspected DFAS policies and procedures to      •   Of the four DFAS sites tested, DFAS-
security access responsibilities and the process to grant user       determine whether guidance was established         Indianapolis (PMO and TSO), DFAS-
access to STANFINS. DFAS uses user access forms to                   to outline ELAN administrator security             Pacific, DFAS-Japan and DFAS-Rome
document the establishment, modification, deletion, or               responsibilities.                                  stated that there was no DFAS service-
suspension of access to STANFINS IT resources, including the                                                            wide policy or guidance document
STANFINS application and the ELAN that DFAS                                                                             outlining local ELAN administrator
administrative and field sites use to gain access to STANFINS.                                                          security responsibilities versus those of
                                                                                                                        centralized groups responsible for the
The ELAN administrator, prior to establishing a network user                                                            administration/ monitoring of DFAS-wide
ID and password, must approve and sign the access request                                                               network security.
form. For some sites, a separate security group approves the
form via signature.

Users must have a TAPS account in order to access the            •   Inspected access control procedures to         •   DFAS field sites did not have the technical
STANFINS application. The local TASO/ISSO is responsible             determine whether the process for granting,        knowledge to generate STANFINS and
for security administration, including the assignment of TAPS        monitoring, and removing access to                 TAPS user access lists directly from the
accounts. The ISSO creates user accounts for                         STANFINS and GSS followed Federal                  security system. As a result, of the ten
TAPS/STANFINS through a tool called VASS. For the                    (NIST SP 800-26 – Logical Access) and DoD          DFAS field sites, DFAS-Rome, DFAS-


                                                                              48
Control Description                                              Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
majority of DFAS field sites, Microsoft Excel spreadsheet,           guidance (DoD Instruction 8500.2 – Remote        Denver, DFAS-San Antonio, DFAS-
Access database, or other manual means of tracking are used to       Access, Access Procedures, Access Control        Lawton, DFAS-Columbus, DFAS-
identify STANFINS/TAPS users, TAPS mode profiles, and                Policies, Contractor and Foreign Nationals       Indianapolis and DFAS-Pacific, DFAS-
assigned TAPS modes. At DFAS-Orlando and DFAS-Japan,                 Access, Comprehensive Account                    Seaside DFAS field sites could not:
TASOs/ISSOs generate ACF2-native listings to identify and            Management, Least Privilege Procedures,          • Identify all TAPS modes (access
track who has access to TAPS and STANFINS.                           Classified Data Protection).                         privileges) assigned to users;
                                                                                                                      • Determine whether users had
The DFAS Information System Security Plan (ISSP) provides                                                                 inappropriate access to TAPS modes,
guidance in conducting monthly recertifications of STANFINS                                                               based on job responsibilities; and
and ELAN accounts. The ISSO is responsible for providing
                                                                                                                      • Determine whether manually derived
each supervisor with a STANFINS user access list. The
                                                                                                                          and maintained access control lists
supervisor is responsible for validating and authorizing user
                                                                                                                          accurately reflected the user
access.
                                                                                                                          population.
Remote network access is granted to users with a valid need,
which must be approved by a supervisor, to access the network                                                     •   Of the ten DFAS field sites, nine field sites
remotely via Defense Internet Service Provider (DISP)                                                                 (DFAS-Rome, DFAS-Denver, DFAS-
accounts.                                                                                                             Lawton, DFAS-San Antonio, DFAS-
                                                                                                                      Columbus, DFAS-Seaside, DFAS-
                                                                                                                      Indianapolis, DFAS-Pacific and DFAS-
                                                                                                                      Japan) either used locally developed or had
                                                                                                                      not documented procedures for granting,
                                                                                                                      approving, monitoring, recertifying, and
                                                                                                                      removing user access to STANFINS and
                                                                                                                      the ELAN.

                                                                 •   Inspected access forms for a random sample   •   Six of ten DFAS user sites did not have
                                                                     of users of STANFINS (at the application         complete or existing authorizations for
                                                                     and network level) to determine whether          STANFINS users:
                                                                     management authorized access.                    DFAS-Denver:
                                                                                                                      • 18 STANFINS user access forms did
                                                                                                                          not have an ELAN Account Request
                                                                                                                          Form on file.
                                                                                                                      DFAS-Pacific:
                                                                                                                      • Justification for STANFINS user
                                                                                                                          access was pre-populated on user
                                                                                                                          access forms by the TASOs and may
                                                                                                                          not support actual needs.



                                                                              49
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness

                                                             •  The functional data owner’s signature
                                                                was missing from TAPS user request
                                                                forms on two of the eight forms
                                                                inspected.
                                                             DFAS-Japan:
                                                             • Four out of 31 ELAN access request
                                                                forms that users filled out in 1998 did
                                                                not have an approval (signature).
                                                             • Two external ELAN users had not
                                                                signed user agreements.
                                                             • Seven out of 53 DD 2875/DISA 41
                                                                forms did not contain a business
                                                                reason for the access request.
                                                             • One out of 53 DD 2875/DISA 41
                                                                forms did not contain a business case
                                                                that adequately explained the
                                                                reasoning for the access request.
                                                             • One out of 26 DISP User Access
                                                                Request forms could not be found.
                                                             • Two out of 26user access forms were
                                                                not signed by the TASO.
                                                             • One out of 26 user access forms did
                                                                not contain a supervisor signature or a
                                                                business case justification.
                                                             DFAS-Rome:
                                                             • Three out of 30 user access forms did
                                                                not have authorization documentation
                                                                available.
                                                             • 11 of 29 users with DISP accounts did
                                                                not have a DISP user access request
                                                                form with the appropriate approvals
                                                                and/or justification. Two of these
                                                                users had STANFINS accounts.
                                                             DFAS-San Antonio:
                                                             • 32 out of 41 LAN user access forms
                                                                did not have an access request form on
                                                                file.


                                   50
Control Description   Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                                                           DFAS-Seaside:
                                                                           •  68 of 72 access request forms did not
                                                                              include an adequate business
                                                                              reason/justification for the access
                                                                              requested.
                                                                           • 46 of 72 access request forms had a
                                                                              pre-populated response that included
                                                                              the type of access the user needed, but
                                                                              did not justify the access.
                                                                           • Three out of 31 internal LAN users
                                                                              access forms did not have the
                                                                              functional data owner’s signature.
                                                                           • 14 of 31 internal LAN user access
                                                                              forms did not have the original user
                                                                              access request form used to create their
                                                                              account.
                                                                           • Four of 31 internal user access request
                                                                              forms were not signed by the
                                                                              information security officer.
                                                                           • There was no evidence of LAN access
                                                                              request forms or DISP user access
                                                                              request forms being used prior to
                                                                              February 10, 2005.

                      •   Inquired of DFAS field site ISSOs/TASOs to   •   DFAS field sites did not have the technical
                          determine whether DFAS periodically              knowledge to generate STANFINS and
                          recertified user access levels.                  TAPS user access lists directly from the
                                                                           security system. At eight out of ten DFAS
                                                                           field sites (DFAS-Rome, DFAS-Denver,
                                                                           DFAS-Lawton, DFAS-San Antonio,
                                                                           DFAS-Columbus, DFAS-Seaside, DFAS-
                                                                           Indianapolis and DFAS-Pacific), the
                                                                           ISSOs/TASOs could not determine
                                                                           whether manually derived and maintained
                                                                           access control lists accurately reflected the
                                                                           user population, and therefore could not
                                                                           accurately perform user recertifications.



                                   51
Control Description                                            Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness


                                                               •   Inquired of DFAS ISSOs/TASOs, as well as       •   At DFAS-Japan, DFAS-Lawton, DFAS-
                                                                   DFAS field site supervisors, and inspected         San Antonio, DFAS-Pacific, DFAS-Rome
                                                                   user access listings to TAPS/STANFINS to           and DFAS-Seaside, users had access that
                                                                   determine whether user access was                  was not required by their job
                                                                   commensurate with job responsibilities.            responsibilities.
Control Activity:
AC-2.2 Emergency and temporary access authorization is controlled.
DFAS and DISA do not have emergency or temporary access        • Inquired of DFAS field site ISSOs/TASOs to       •   No exceptions noted.
accounts. All user access requests must follow the same access   determine whether the process used to grant
approval procedures. In cases of emergency, the same access      emergency and temporary access for
forms are used and procedures followed as a normal access        STANFINS and/or the GSS was the same as
request; the only difference is that the request moves through   the process for granting regular access.
the approval process more quickly.

Control Activity:
AC-3.2 Adequate logical access controls have been implemented.
Common Controls3
DoD workstations are Common Access Card (CAC)                 • At three sites, observed use of CAC cards to      •   Observed instances of users at DFAS-
configured, which means that all employees must enter their     determine security practices.                         Indianapolis, DFAS-Orlando and DFAS-
CAC card into the CAC card slot of their workstation in order                                                         Columbus did not remove their CAC cards
to log on to their workstations. A user’s name and ID are                                                             when leaving their workstations.
associated with each CAC card. When the user exits his or her
workstation and removes the CAC card from the slot of the                                                         •   At DFAS-Indianapolis, DFAS-Orlando and
terminal, the workstation automatically locks.                                                                        DFAS-Columbus, CAC card security
                                                                                                                      settings did not require entry of a password
                                                                                                                      to “unlock” a workstation screensaver if
                                                                                                                      the CAC card was inserted and after a
                                                                                                                      period of inactivity.
DISA
The mainframe access control applications CA-ACF2 and CA-      •   Inquired of Security Division Branch Chief     •   Minimum password length on each of the
Top Secret protect the STANFINS application and the system         and Security Administrators and inspected          five ACF2 ASIMS domains and the one
software it resides on.                                            ACF2 and Top Secret security settings to           Top Secret ASIMS domain were
                                                                   determine whether the security products were       configured to six characters, while the



3   Common controls are those controls that a DoD organization other than DISA or DFAS implements, and are commonly applied across both DISA and DFAS.


                                                                            52
Control Description                                               Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
ACF2 and Top Secret mainframe security software enforce              securely configured in accordance with       OS/390 STIG required passwords to have a
discretionary access controls. Also, access to shared and            OS/390 STIG guidance to enforce              minimum of eight characters.
networked file systems outside the mainframe environment is          discretionary access controls.
controlled through discretionary access controls enforced
through network access privileges.
                                                                                                              •   Users on the Top Secret ASIMS domain
The UML (three letter userid prefix designation for DECC                                                          were not required by the system to use a
users) Standardization memo establishes user ID rules for                                                         national character (e.g., $, @, #) when
DECC users. DECC user IDs identify the user’s department, as                                                      creating new passwords, as required by the
well as employment status. Additionally, the OS/390 STIG                                                          OS/390 STIG.
requires a unique ACF2 or Top Secret user ID for every user.
                                                                                                              •   Users on the ACF2 ASIMS domains could
Passwords are not displayed as a user logs in to the mainframe.                                                   not use their previous four passwords;
After three invalid log-on attempts, ACF2 automatically                                                           users should be restricted from using their
terminates the session. For the Top Secret domains, Top Secret                                                    previous ten passwords as required by the
suspends the user’s account after two invalid log-on attempts.                                                    OS/390 STIG.
Before authentication, a warning banner is displayed that
                                                                                                              •   The Huntsville ASIMS domain had the
informs the user that the system is for authorized use only and
                                                                                                                  JOBCK setting set to NOJOBCK. This
that activity will be monitored. The terminal session
                                                                                                                  setting did not require ACF2 to verify
automatically logs the user off after 15 minutes of inactivity
                                                                                                                  whether a user submitting a batch job had
and a screen-lock appears after 15 minutes, which requires the
                                                                                                                  been granted the authority to submit batch
user to re-authenticate in order to regain access.
                                                                                                                  jobs.
Inactive accounts are suspended after 35 days of inactivity and
                                                                                                              •   An individual user was assigned to the
deleted after 90 days of inactivity.
                                                                                                                  Master Central Security Administrator
                                                                                                                  (MSCA) account on the Top Secret
                                                                                                                  ASIMS Far East domain. The MSCA
                                                                                                                  designation allows full system access and
                                                                                                                  is not required for individual users.

                                                                                                              •   26 DECC ACF2 accounts on the ASIMS
                                                                                                                  domains had passwords that did not expire
                                                                                                                  (MAXDAYS not specified). 147 DECC
                                                                                                                  Top Secret accounts on the Far East
                                                                                                                  ASIMS domains had passwords that did
                                                                                                                  not expire (Password Interval = 0).




                                                                               53
Control Description                                   Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
                                                                                                         •   DECC users had “Write” or “Allocate”
                                                                                                             access to STANFINS production
                                                                                                             application datasets on two of five ACF2
                                                                                                             ASIMS domains and the Top Secret
                                                                                                             ASIMS Far East domain.

                                                      •   Inspected the UML Standardization memo to      •   No exceptions noted.
                                                          determine whether naming conventions were
                                                          established for DECC users.

                                                      •   Inquired of Security Division Branch Chief
                                                          and system administrators to determine         •   No exceptions noted.
                                                          security procedures for logging on and using
                                                          the network. Inspected GSS (mainframe)
                                                          policies and procedures to determine whether
                                                          security procedures were documented.


                                                      •   Inquired of Security Division Branch Chief     •   451 ACF2 and 108 Top Secret DECC user
                                                          and inspected procedures to determine              accounts across the six STANFINS-related
                                                          whether inactive mainframe user accounts           ASIMS domains were inactive for over
                                                          were monitored and removed when not                180 days or had never been used.
                                                          needed. Inspected the Top Secret and ACF2
                                                          STANFINS-related domain ACLs to
                                                          determine whether inactive DECC user IDs
                                                          were present in the domains.
                                                                                                         •   No exceptions noted.
                                                      •   Observed an individual user sign on to the
                                                          mainframe to determine whether the opening
                                                          screen provided a warning banner that stated
                                                          that the system was for authorized use only
                                                          and that activity was monitored.

                                                      •   Observed a PC terminal to determine whether    •   No exceptions noted.
                                                          automatic log-off occurred after a preset
                                                          number of minutes of inactivity.
DFAS
STANFINS application password and user ID rules are


                                                                   54
Control Description                                               Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
configured within the security system software maintained by      •   Inspected DFAS policies and procedures to      •   DFAS-Indianapolis, DFAS-Pacific, DFAS-
DISA as described above.                                              determine whether guidance was established         Japan and DFAS-Rome maintained no
                                                                      to outline ELAN administrator security             DFAS service-wide policy/guidance
DFAS ELAN procedures include requirements that guide                  responsibilities.                                  document outlining local ELAN
ELAN administrators in the conduct of network security                                                                   administrator security responsibilities
administration.                                                                                                          versus those of centralized groups
                                                                                                                         responsible for the administration/
                                                                                                                         monitoring of DFAS-wide network
                                                                                                                         security.
During log-in to the ELAN, there is a banner warning users that
they are about to log on to a government workstation and that     •   Observed an individual user sign on to the     •   No exceptions noted.
their use will be monitored. This banner automatically appears        network to determine whether the opening
every time a user accesses any DFAS workstation connected to          screen provided a warning banner that stated
ELAN.                                                                 that the system was for authorized use only
                                                                      and that activity was monitored.




                                                                               55
Control Description                                                   Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
Control Activity:
AC-4.1 Audit trails are maintained.
DISA
Mainframe audit log policies are outlined in the OS/390 STIG,         •   Inquired of security administrators, inspected   •   No audit log was created for the use of
Volume 1. The OS/390 STIG requires review of the following                policy statements related to audit logging,          sensitive system utilities on the ACF2
audit entries on a daily basis: dataset access violations, resource       and compared results to audit settings of            domains; thus, DISA DECC-St. Louis
violations, and program use violations. The OS/390 STIG                   security software.                                   could not review program use violations.
requires review of the following audit entries on a
weekly/monthly basis: failed log-on attempts and security                                                                  •   Top Secret was not consistently configured
privileges (i.e., changes to special privileges or attributes).                                                                to generate audit logs for all sensitive
Security reports for the six STANFINS-related ASIMS                                                                            utilities; thus, DISA DECC-St. Louis could
domains (five ACF2 and one Top Secret domain) are available                                                                    not review program use violations.
for DISA DECC-Mechanicsburg and DISA DECC-St. Louis to
monitor.                                                              •   Inquired to determine whether all changes to     •   Log data of changes to ACF2 and Top
                                                                          security profiles by security managers were          Secret security profiles were not
                                                                          automatically logged and periodically                consistently maintained and archived on
                                                                          reviewed by management independent of the            the mainframe across the six ASIMS (one
                                                                          security function. Inquired of security              Top Secret, five ACF2) domains. As a
                                                                          administrators and inspected logs to                 result:
                                                                          determine whether unusual activity was               • No ACF2 log review evidence existed,
                                                                          investigated.                                            to include changes to ACF2 security
                                                                                                                                   profiles, or violation logs prior to
                                                                                                                                   January 3, 2005.
                                                                                                                               • No Top Secret log review evidence
                                                                                                                                   existed, to include changes to security
                                                                                                                                   profiles, or violation logs.
                                                                                                                               • Sufficient contact information did not
                                                                                                                                   exist to adequately follow-up on issues
                                                                                                                                   identified during review of the logs.
                                                                                                                                   The contacts listed on the logs were
                                                                                                                                   not the appropriate contacts.

                                                                                                                           •   DISA DECC-St. Louis and DISA DECC-
                                                                                                                               Mechanicsburg did not maintain or review
                                                                                                                               logs that detailed activities of remote user
                                                                                                                               sessions.




                                                                                   56
Control Description                                           Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness

                                                                                                              •   DISA DECC-St. Louis and DISA DECC-
                                                                                                                  Mechanicsburg did not maintain evidence
                                                                                                                  of review of ACF2 or Top Secret global
                                                                                                                  system options.

                                                              •   Inquired of systems administrators and      •   DISA DECC-St. Louis and DISA DECC-
                                                                  inspected the organizational charts to          Mechanicsburg did not segregate
                                                                  determine whether monitoring personnel          monitoring responsibilities for ACF2 and
                                                                  were independent.                               Top Secret audit and violation logs from
                                                                                                                  security administration functions.
Control Activity:
AC-4.2 Actual or attempted unauthorized, unusual, or sensitive access is monitored.
DISA
DFAS is responsible for monitoring STANFINS application-      • Inquired of security administrators and       •   No audit log was created for the use of
specific audit logs. DISA DECC-Mechanicsburg reviews audit       inspected logs to determine whether audit        sensitive system utilities on the ACF2
logs for the five STANFINS-related ACF2 ASIMS domains as         trails were regularly reviewed and whether       domains; thus, DISA DECC-St. Louis
required by the OS/390 STIG (except the program use violation    security violations were investigated and        could not review program use violations.
logs). DISA DECC-St. Louis reviews audit logs for the one        communicated to management.
STANFINS-related Top Secret ASIMS domain.                                                                     •   Top Secret was not consistently configured
                                                                                                                  to generate audit logs for all sensitive
                                                                                                                  utilities; thus, DISA DECC-St. Louis could
                                                                                                                  not review program use violations.

                                                                                                              •   Log data of changes to ACF2 and Top
                                                                                                                  Secret security profiles were not
                                                                                                                  consistently maintained and archived on
                                                                                                                  the mainframe across the six ASIMS (one
                                                                                                                  Top Secret, five ACF2) domains. As a
                                                                                                                  result:
                                                                                                                  • No ACF2 log review evidence existed,
                                                                                                                      to include changes to ACF2 security
                                                                                                                      profiles, or violation logs prior to
                                                                                                                      January 3, 2005.
                                                                                                                  • No Top Secret log review evidence
                                                                                                                      existed, to include changes to security
                                                                                                                      profiles, or violation logs.
                                                                                                                  • Sufficient contact information did not



                                                                           57
Control Description                                             Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
                                                                                                                             exist to adequately follow-up on issues
                                                                                                                             identified during review of the logs.
                                                                                                                             The contacts listed on the logs were
                                                                                                                             not the appropriate contacts.

                                                                                                                     •   DISA DECC-St. Louis and DISA DECC-
                                                                                                                         Mechanicsburg did not maintain or review
                                                                                                                         logs that detailed activities of remote user
                                                                                                                         sessions.

                                                                                                                     •   DISA DECC-St. Louis and DISA DECC-
                                                                                                                         Mechanicsburg did not maintain evidence
                                                                                                                         of review of ACF2 or Top Secret global
                                                                                                                         system options.
DFAS
If a user accumulates three unsuccessful log-ons to ELAN, the   •   Inquired of the ELAN Security Administrator      •   DFAS-Denver, DFAS-Pacific, DFAS-
user’s account is suspended, which requires reset by ELAN           regarding the configuration setting related to       Indianapolis, DFAS-Japan, DFAS-Lawton,
Administrator.                                                      account lockout based on the accumulation of         DFAS-Rome, DFAS-San Antonio and
                                                                    a predefined number of unsuccessful log-ons.         DFAS-Seaside did not maintain audit logs
                                                                                                                         for the ELAN access attempts. DFAS-
                                                                •   Inquired of DFAS field site ISSO/TASOs               Denver, DFAS-Lawton, DFAS-San
                                                                    and inspected procedures for the tracking of         Antonio and DFAS-Rome did not maintain
                                                                    unsuccessful user access log-on attempts to          documented procedures for tracking
                                                                    the ELAN.                                            unsuccessful user access log-on attempts to
                                                                                                                         the local LAN.

Control Activity:
AC-4.3 Suspicious access activity is investigated and appropriate action taken.
DISA
DISA DECC-Mechanicsburg implemented an audit log review • Inquired of management and inspected                       •   Log data of changes to ACF2 and Top
spreadsheet as of January 3, 2005, which is used to identify       documentation to determine whether security           Secret security profiles were not
activities that warrant follow-up. Audit log review                violations were summarized and reported to            consistently maintained and archived on
spreadsheets for each domain are made available to senior          senior management.                                    the mainframe across the six ASIMS (one
management via shared network folders. The Security                                                                      Top Secret, five ACF2) domains. As a
Division Branch Chief will periodically monitor these files to                                                           result:
help ensure the logs are monitored and to review trends.
                                                                                                                         •   No ACF2 log review evidence existed,
DISA DECC-Mechanicsburg relies on the automated security                                                                     to include changes to ACF2 security


                                                                             58
Control Description                                                 Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
reporting features of ACF2. ACF2 generates reports from raw                                                    profiles, or violation logs prior to
System Management Facility (SMF) records based on type of                                                      January 3, 2005.
activity (e.g., log-on ID modification, dataset access violation,                                          •   No Top Secret log review evidence
etc.). Similarly, DISA DECC-St. Louis relies on the automated                                                  existed, to include changes to security
security reporting features of Top Secret.                                                                     profiles, or violation logs.
                                                                                                           •   Sufficient contact information did not
The OS/390 STIG requires the DECC to review the ACF2 and                                                       exist to adequately follow-up on issues
Top Secret global control options at least quarterly to                                                        identified during review of the logs.
determine whether any changes were authorized and necessary.                                                   The contacts listed on the logs were
                                                                                                               not the appropriate contacts.




                                                                                 59
Access Control (AC) – Physical Security

Controls provide reasonable assurance that physical access controls are established to prevent or detect unauthorized access.

 Control Description                                             Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
 Control Activity:
 AC-3.1 Adequate physical security controls have been implemented – A. Physical safeguards have been established that are commensurate with the risks of
 physical damage or access.
 DISA
 The DISA DECC facility maintains physical access controls       • Toured the DISA DECC-St. Louis to               • No exceptions noted.
 around the compound housing the DECC facility. Exterior             determine whether the following physical
 doors to the building are secured via an electronic badge           access controls were in place:
 reader or keyed locks. Additionally, exterior doors are             • Electronic badge readers/keyed locks
 alarmed. Guards located at the entrance of the compound and              secured exterior doors;
 Federal Protective Services (FPS) monitor the exterior door
                                                                     • Exterior doors were alarmed;
 alarms.
                                                                     • Guards were located at the entrance of
 Access to the sensitive computer room areas of the DECC is               the compound;
 controlled via an electronic badge reader and as well as a          •    Electronic badge readers/scramble pads
 scramble pad. Individuals entering the sensitive areas must              secured sensitive computer room doors
 present an authorized badge at the badge reader and enter a              and the tape library;
 PIN into the scramble pad to gain access. The code to the           • Computer room and tape library were
 combination lock is restricted to a limited number of                    physically separate from administrative
 individuals in the Telecommunications Branch and Security                areas;
 Division.                                                           • Closed-circuit video cameras recorded
                                                                          footage to VHS tapes to monitor exterior
 Physical access controls at the DECC are designed to always              fence lines, as well as entrances to all
 allow an individual to exit any area of the facility. While an           sensitive computer room areas; and
 individual can exit a sensitive area without presenting a badge     • Personnel positioned computers to
 to the badge reader, any individual that does not present a              eliminate potential viewing by
 valid badge (i.e., a badge with authorized access to the                 unauthorized persons.
 sensitive areas) before exiting through a door will trigger an  • Inspected a list of individuals with access to  • At DECC St. Louis, seven individuals on
 alarm through the intrusion detection system and access             the computer room to determine whether           the computer room access list could not be
 control system. The Central Station Monitors alert these            physical access was commensurate with job        identified by the DECC Security Branch
 alarms to the Chief of Security, Federal Protective Services,       responsibilities and no terminated employees     Chief as requiring access to sensitive
 and facility guards.                                                retained access to the computer room.            computer room areas. Those individuals
                                                                                                                      were immediately removed from the access
 Closed-circuit video cameras monitor exterior fence lines of                                                         list in October 2004.
 the compound housing the DECC. General Services


                                                                            60
Control Description                                               Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Administration-contracted guards, as well as the FPS, monitor
these cameras. Within the DECC, closed-circuit video
cameras monitor the entrances of all sensitive computer room
areas. These cameras are not actively monitored; rather, the
cameras record to VHS tapes, which can be used in the event
of a security related incident.                                   •   Attempted to access the computer room           •   No exceptions noted.
                                                                      without a badge or escort to determine
An authorized identification badge and PIN code is required           whether the electronic badge system controls
to enter the computer room and tape/media library at all times.       the door locking mechanism and restricts
The computer room and tape/media library are separated from           access to unauthorized individuals.
the administrative areas, and individuals must be granted
access specifically to these areas in order to gain access.       •   For a random sample of individuals with         •   27 of 41 users sampled did not have a
                                                                      access to the computer room, inspected              corresponding access form that was signed
GSA is responsible for the issuance of physical keys to the           corresponding user access forms to determine        by an authorizing official.
DECC Security Division, and the DECC Security Division is             whether access was signed (i.e., approved) by
responsible for key control within the DECC facility.                 an authorizing official.
Personnel position computer monitors to eliminate potential
                                                                  •   Inquired of the Security Branch Chief and       •   No exceptions noted.
viewing by unauthorized persons.
                                                                      inspected the Information System Security
                                                                      SOP for Laptop Computer Systems to
The Information System Security Standard Operating
                                                                      determine whether policy established rules of
Procedures (SOP) for Laptop Computer Systems establishes
                                                                      behavior for all laptop system users and
rules of behavior for all laptop system users and outlines
                                                                      outlined security responsibilities for laptop
security responsibilities for laptop users. Laptops can be
                                                                      users.
taken home by employees or are kept in each employee’s
work area/office within the controlled access DECC facility.
Control Activity:
AC-3.1 Adequate physical security controls have been implemented – B. Visitors are controlled.
DISA
DECC facility physical access points are controlled by card       • Inspected the DISA DECC-St. Louis Facility        •   No exceptions noted.
access and intrusion detection systems at all times. Visitors to    and Building Access Procedures to determine
the compound must be on an approved visitors listing, which         whether visitor processing procedures were
identifies the arrival and expected departure dates for visitors.   documented.
The guards verify that everyone entering the compound has an
authorized form of DoD identification (i.e., CAC card, DISA       • Inquired of DECC Security Branch Chief and        •   No exceptions noted.
DECC badge, etc.). Visitors to the compound must provide a          guards and observed visitor processing
valid government-issued identification to be on an approved         procedures. Walked through the visitor
visitors listing. The Homeland Security Threat Advisory             processing procedure during entrance into
Levels determine how securely a visitor is escorted. Visitor        and exit out of the compound.


                                                                               61
Control Description                                               Tests of Operating Effectiveness                      Results of Tests of Operating Effectiveness
vehicles are inspected for hazardous materials and visitor
entry logs are present for all sensitive computer room areas at   •   Observed the entry logs for the DISA DECC-        •   No exceptions noted.
the DECC.                                                             St. Louis facility to determine whether visitor
                                                                      access was recorded.




                                                                                62
Access Control (AC) and System Software (SS) – Computer Operations

Controls provide reasonable assurance that computer processing occurs in accordance with the documented processing schedule, and schedule
deviations are identified and appropriately addressed in a timely manner.

Control Description                                            Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
Control Activity:
The production scheduling function is adequately separated from other data center functions, such as system software maintenance, logical security, and
database administration.
DISA DECC-St. Louis is responsible for the configuration and
access administration of Control-M production scheduling       • Inquired of CDOIM/DOIM IT Supervisors            • No exceptions noted.
software, as well as other data center functions. The DFAS         and IT Specialists and inspected the CDOIM
CDOIM is primarily responsible for the overall management          Operations Management Plan and
and continuance of the STANFINS batch production cycles,           organizational charts/position descriptions to
including maintenance of the production job schedule, Job          determine whether the Production Scheduling
Control Language maintenance, operations monitoring, and the       group was appropriately segregated from
resolution of unintended deviations from the STANFINS              other operations groups.
production job schedule and ABENDS. Additionally, the
decentralized DOIM organizations are primarily responsible for
the management and continuance of the STANFINS batch
production cycles related to the sites that they support. The
DOIM and CDOIM organizations fall under the TSO within
DFAS, a separate DoD component from DISA.
Control Activity:
Production scheduling software (Control-M) has been configured securely and provides adequate logical access controls.
DISA
DISA DECC-St. Louis is responsible for the configuration and   • Inspected access listings and security settings • DISA DECC-St. Louis user access to the
access administration of Control-M production scheduling           to the Control-M scheduling utility to            Job Status Screen and History Jobs files
software. Control-M has been configured to provide security        determine whether utility was configured          was excessive based on segregation of
over the ability to issue operator commands and modify jobs in     securely.                                         duties principles.
the queue and individual jobs and schedules.




                                                                            63
Control Description                                               Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
Control Activity:
Control-M operating procedures and processing schedules are documented and available to operators.
DFAS
All Control-M procedure documentation is available to any         • Inquired of the IT Supervisor and IT      •   At the DOIM site located in Denver:
member of the CDOIM/DOIMS. The Job Analyzer Utility                   Specialists and inspected manuals to        • Denver DOIM Management did not
Manual covers topics including logic, preparations, installation,     determine whether processes were                develop and implement Control-M
Job Control Language (JCL) parameters, and analyzing a single         documented and available.                       standards and procedures to aid
job. The User Manual covers topics including rule definition                                                          personnel in the use of this application.
facility, implementation considerations, job production
                                                                                                                  • The process for documenting the job
parameters, Control-M Event Manager, and the reporting
                                                                                                                      schedule changes and any issues
facility.
                                                                                                                      during processing was informal. As a
                                                                                                                      result, no documentation existed for
                                                                                                                      these processes.
                                                                                                                  • Management did not document a
                                                                                                                      description of STANFINS production
                                                                                                                      jobs; description of ABEND codes;
                                                                                                                      and escalation, recovery, and restart
                                                                                                                      procedures.
Control Activity:
Procedures for requesting, approving, and implementing changes to the production schedule are documented and in place.
DFAS
The procedures for scheduling are documented in the CDOIM      • Inspected CDOIM Operations Management          • No exceptions noted.
Operations Management Plan and DOIM SOPs. Each month,            Plan to determine whether management
the field sites e-mail the CDOIM/DOIM a monthly calendar         documented scheduling procedures.
with all scheduled releases. The CDOIM/DOIM IT Specialist
logs into Control-M using a unique user ID and password and    • Inquired of IT Supervisor and IT Specialist to • At all three CDOIM/DOIM sites visited,
accesses the calendar function within Control-M. The IT          determine how they received, documented,         documentation of schedule requests was
Specialist then manually enters each of the scheduled releases   approved, and tracked schedule change            not maintained.
on the appropriate day(s) of the month, which is determined by   requests through completion/resolution.
the calendar. Control-M then reads and releases each schedule
accordingly.




                                                                              64
Control Description                                                 Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
Audit trails of production job processing are generated and maintained.
Control-M records the date and time, user ID and disposition
code, and job execution message regarding the completion of         • Inquired of IT Supervisor and Specialist and      • At the DOIM located in Denver, personnel
production jobs to audit trails.                                        inspected the settings page to determine the       were unaware of automated logging
                                                                        settings applied for recording audit records in    features in Control-M, stating there was no
Color-coding facilitates the identification of production jobs          SysLog.                                            automated audit logging process for
that finished in a state of error. Audit trails are generated real-                                                        STANFINS job scheduling and processing.
time during the execution of the production schedule and are
available for review after-the-fact.                                                                                    • At the DOIM located in Denver, personnel
                                                                    • Inspected a screen print of the Control-M            were unaware of automated logging
Control-M produces a log that identifies that an individual has         History log to determine whether                   features in Control-M, stating there was no
made a schedule change and the user ID of the person who                management documented audit trails of              automated audit logging process for
made the change. Control-M has the ability to filter data to            production schedule/job completion.                STANFINS job scheduling and processing.
identify deleted schedules and the user who performed the
deletion.
Control Activity:
Realized production issues that cause deviations from the predefined production-processing schedule are identified, documented, and tracked to their
resolution. Procedures outline steps for recovery from production issues, and escalation listings/contact information is documented and available to
personnel.
DISA
DISA DECC-St. Louis and DISA DECC-Mechanicsburg share • Inquired with Technical Support Branch                          • No exceptions noted.
responsibility for monitoring production processing with                (TSB) personnel to determine whether a
DFAS. When an operator at DECC identifies an abnormal job               process for identifying, documenting, and
termination ABEND, he/she creates a REMEDY system ticket                tracking production schedule deviations was
to track the issue and contacts an appropriate DFAS POC for             developed.
resolution. Contact lists/escalation procedures document POCs
to be called in the event of unresolved ABEND. DISA DECC            • Inspected the listing of appropriate DFAS         • No exceptions noted.
maintains historical REMEDY tickets as a resource for                   points of contact to determine if contact
identifying and resolving production-processing problems.               information was documented.
Once the operator alerts DFAS of the issue, DFAS is
responsible for identifying a method of resolution and ensuring
                                                                    • For production issues since July 2004,
the problem is resolved.
                                                                        inspected the corresponding REMEDY              • No exceptions noted.
                                                                        tickets to determine if they were tracked to
                                                                        completion.

DFAS
DISA DECC-St. Louis and DISA DECC-Mechanicsburg share             •   Inquired with Computer/Electronic Data          •   At the DOIM site located in Denver:



                                                                                65
Control Description                                              Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
responsibility for monitoring production processing with             Processing (EDP) Specialist to determine          • Denver DOIM Management did not
DFAS.                                                                whether a process for identifying,                     develop and implement Control-M
                                                                     documenting, and tracking production                   standards and procedures to aid
Once DFAS is alerted of the issue, DFAS is responsible for           schedule deviations was developed.                     personnel in the use of this application.
identifying a method of resolution and ensuring the problem is       Inspected procedures to determine whether         • The process for documenting the job
resolved.                                                            the process was documented and whether a               schedule changes and any issues
                                                                     point of contact list was available for                during processing was informal. As a
Some DOIM sites have standard operating procedures to                reference when problem escalation was                  result, no documentation existed for
address production job ABENDS and escalation procedures.             necessary.                                             these processes.
Processing is monitored real-time and any issues are
                                                                                                                       • Management did not document a
immediately identified and addressed. When a job encounters
                                                                                                                            description of STANFINS production
an ABEND, the screen turns red and processing stops until an
                                                                                                                            jobs, description of ABEND codes,
operator corrects the error and restarts the job.
                                                                                                                            and escalation, recovery and restart
                                                                                                                            procedures.
Escalation procedures provide detailed instruction on handling
ABENDS and identify points of contact.                           •   Inspected procedures used for production
                                                                                                                    •   At the DOIM site located in Denver:
                                                                     processing and documentation used to track
In some cases, Internal Trouble Reports are created when             deviations from the predefined production-         • Denver DOIM Management did not
STANFINS processes ABENDS. When an Internal Trouble                  processing schedule.                                   develop and implement Control-M
Report is created, an approval must accompany the change                                                                    standards and procedures to aid
made to fix the processing issue.                                                                                           personnel in the use of this application.
                                                                                                                        • The process for documenting the job
                                                                                                                            schedule changes and any issues
                                                                                                                            during processing was informal. As a
                                                                                                                            result, no documentation existed for
                                                                                                                            these processes.
                                                                                                                        • Management did not document a
                                                                                                                            description of STANFINS production
                                                                                                                            jobs, description of ABEND codes,
                                                                                                                            and escalation, recovery and restart
                                                                                                                            procedures.

                                                                 •   For production issues since July 2004,         •   No exceptions noted.
                                                                     inspected the corresponding REMEDY
                                                                     tickets to determine if they were tracked to
                                                                     completion.




                                                                              66
Change Control (CC)

Controls provide reasonable assurance that program (coding) changes to the STANFINS application are authorized, documented, tested, approved,
and properly implemented.

Control Description                                        Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
CC-1.1 A system development life cycle methodology (SDLC) has been implemented.
DFAS
The Software Configuration Management Plan (SCMP) dated    • Inspected the Software Configuration Plan,        •   No exceptions noted.
March 6, 2003 outlines responsibilities, requirements, and     the TSO-Indianapolis DS Procedure, the
procedures related to application development and              DFAS STANFINS SQAP, and the OSSP to
configuration control. The TSO-Indianapolis Design             determine whether a system development life
Specification (DS) Procedure document details procedures,      cycle was developed and documented.
standards, and requirements regarding STANFINS program
design. The DFAS STANFINS Software Quality Assurance       • Inquired of change management staff to            •   No exceptions noted.
Plan (SQAP) dated August 2002, details the STANFINS            determine whether staff involved with
testing requirements, roles, and requirements. The             developing and testing software were familiar
Organization Standard Software Process (OSSP) details the      with the use of the SDLC methodology.
Software Life Cycle and the overview of OSSP Phases and
Tasks.
                                                             •   Inspected the SSAA to determine whether it    •   No exception noted.
The SSAA includes listings of the hosting GSS, hosted
                                                                 provided a structured approach consistent
Automated Information System (AIS) applications,
                                                                 with generally accepted concepts and
interconnected outsourced IT-based processes, and
                                                                 practices.
interconnected IT platforms.




                                                                          67
Control Description                                           Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
Control Activity:
CC-1.2 Authorizations for software modifications are documented and maintained.
DFAS
STANFINS software changes, with the potential exception of    • Inspected supporting authorization and        •   Documentation of testing and
changes required to accommodate interfacing systems, must be      testing documentation for STANFINS              authorizations related to the development
accompanied by a completed System Change Request (SCR)            changes applied during the examination          and implementation of STANFINS
form. The SCR must be filled out and approved by the System       period to determine whether documentation       application changes was inconsistently
Owner before the change is tested and migrated to production.     was prepared in accordance with DoD             generated and maintained. These
                                                                  Instruction 8500.2.                             inconsistencies included:
Prior to testing, each SCR requires a documented Test                                                             • SCRs were generally not created if the
Condition Requirements (TCR) form to be filled out including                                                          Change Control Board knew that the
a sign-off documenting the STANFINS PMO Functional                                                                    request would not be authorized.
group’s approval. Testing is performed using production data
                                                                                                                  • All Change Control Board meetings
in a test environment
                                                                                                                      were informal, held as needed, and
                                                                                                                      most communication regarding
Once the TCR is authorized, the PMO Functional group sends
                                                                                                                      proposed changes was discussed
an e-mail to TSO regarding the change release. A checklist is
                                                                                                                      verbally (not documented).
used to determine that all appropriate steps have been taken
prior to ship. DECC is contacted to determine that they are                                                       • Of 15 SCRs and TCRs generated
ready to receive, and have received, the release.                                                                     October 2, 2002 through October
                                                                                                                      2004, only three had e-mail
                                                                                                                      documentation to support the change.
                                                                                                                  • Of 12 FY 2004 SCRs, only three
                                                                                                                      copies of e-mails notifying the DFAS
                                                                                                                      field sites of changes were maintained.
Control Activity:
CC-2.1 Changes are controlled as programs progress through testing to final approval.
DFAS
STANFINS currently operates in a “maintenance mode,” which • Inspected supporting authorization and           •   Documentation of testing and
means that only emergency maintenance changes are applied.      testing documentation for STANFINS                authorizations related to the development
Emergency maintenance changes are those software changes        changes applied during the examination            and implementation of STANFINS
required to maintain compliance with applicable Federal         period to determine whether documentation         application changes were inconsistently
statutes and regulations.                                       was prepared in accordance with DoD               generated and maintained. These
                                                                Instruction 8500.2.                               inconsistencies included:
STANFINS software changes, with the potential exception of                                                        • SCRs were generally not created if the
changes required to accommodate interfacing systems, must be                                                          Change Control Board knew that the
accompanied by a completed SCR form. The SCR must be                                                                  request would not be authorized.
filled out and approved by the System Owner before the change
                                                                                                                  • All Change Control Board meetings
is tested and migrated to production.
                                                                                                                      were informal, held as needed, and


                                                                           68
Control Description                                              Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
                                                                                                                              most communication regarding
Prior to testing, each SCR requires a documented TCR form to                                                                  proposed changes was discussed
be filled out, including a sign-off documenting the STANFINS                                                                  verbally (not documented).
PMO Functional group’s approval. Testing is performed using                                                              • Of 15 SCRs and TCRs generated
production data in a test environment                                                                                         October 2, 2002 through October
                                                                                                                              2004, only three had e-mail
Once the TCR is authorized, the PMO Functional group sends                                                                    documentation to support the change.
an e-mail to TSO regarding the change release. A checklist is                                                            • Of 12 FY 2004 SCRs, only three
used to determine that all appropriate steps have been taken                                                                  copies of e-mails notifying the DFAS
prior to packaging the software change for DECC                                                                               field sites of changes were maintained.
implementation. DECC is contacted to determine that they are
ready to receive, and have received, the release.
                                                                                                                      •   STANFINS application changes were
                                                                 •   Performed inquiry of the PMO Accountant              manually controlled, migrated, and
                                                                     and Lead Specialist to verify the process used       released from the testing environment;
                                                                     to document and authorize changes.                   however, the documentation was not
                                                                                                                          appropriately maintained as seen in the
                                                                                                                          exception above. Specifically, there was
                                                                                                                          no automated version controls (i.e., a
                                                                                                                          program change version control system) to
                                                                                                                          track changes to STANFINS.
DISA
The TSB staff in DISA DECC-St. Louis receives final              •   Inspected the notification e-mails for a         •   No exceptions noted.
instruction to implement the changes via e-mail from the staff       selection of STANFINS changes (all
in Indianapolis.                                                     STANFINS changes applied during the
                                                                     examination period were selected) to
                                                                     determine whether such communications
                                                                     between DFAS and the DISA DECC-St.
                                                                     Louis were documented.




                                                                              69
Control Description                                          Tests of Operating Effectiveness                        Results of Tests of Operating Effectiveness
Control Activity:
CC-2.2 Emergency changes are promptly tested and approved.
DFAS
All changes are considered to be emergency changes and       • Inspected supporting authorization and                •   Documentation of testing and
undergo the process documented in Control Activity CC-2.1        testing documentation STANFINS changes                  authorizations related to the development
Changes are controlled as programs progress through testing      applied during the examination period to                and implementation of STANFINS
to final approval. STANFINS currently operates in a              determine whether documentation was                     application changes were inconsistently
“maintenance mode,” which means that only emergency              prepared in accordance with DoD Instruction             generated and maintained. These
maintenance changes are applied. Emergency maintenance           8500.2.                                                 inconsistencies included:
changes are those software changes required to maintain                                                                  • SCRs were generally not created if the
compliance with applicable Federal statutes and regulations.                                                                 Change Control Board knew that the
                                                                                                                             request would not be authorized.
STANFINS software changes, with the potential exception of
                                                                                                                         • All Change Control Board meetings
changes required to accommodate interfacing systems, must be
                                                                                                                             were informal, held as needed, and
accompanied by a completed SCR form. The SCR must be
                                                                                                                             most communication regarding
filled out and approved by the System Owner before the change
                                                                                                                             proposed changes was discussed
is tested and migrated to production.
                                                                                                                             verbally (not documented).
Prior to testing, each SCR requires a documented TCR form to                                                             • Of 15 SCRs and TCRs generated
be filled out, including a sign-off documenting the STANFINS                                                                 October 2, 2002 through October 2004
PMO Functional group’s approval. Testing is performed using                                                                  (3 in FY 2003 and 12 in FY 2004),
production data in a test environment                                                                                        only three had e-mail documentation to
                                                                                                                             support the change.
Once the TCR is authorized, the PMO Functional group sends                                                               • Of the 12 FY 2004 SCRs, only three
an e-mail to TSO regarding the change release. A checklist is                                                                copies of e-mails notifying the DFAS
used to determine that all appropriate steps have been taken                                                                 field sites of changes were maintained.
prior to packaging the software change for DECC
implementation. DECC is contacted to determine that they are    •   Performed inquiry of the PMO Accountant          •   STANFINS application changes were
ready to receive, and have received, the release.                   and Lead Specialist to verify the process used       manually controlled, migrated, and
                                                                    to document and authorize changes.                   released from the testing environment;
                                                                                                                         however, the documentation was not
                                                                                                                         appropriately maintained as seen in the
                                                                                                                         exception above. Specifically, there was
                                                                                                                         no automated version controls (i.e., a
                                                                                                                         program change version control system) to
                                                                                                                         track changes to STANFINS.




                                                                             70
Control Description                                                 Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness

Control Activity:
CC-2.3 Distribution and implementation of new or revised software is controlled.
DFAS
Once the release has been shipped, DISA DECC-St. Louis is         • Inspected procedures and inquired of an              •   No exceptions noted.
responsible for distribution and implementation.                    Accountant, IT Specialist, and Lead
                                                                    Technician to obtain an understanding of
                                                                    responsibilities for distribution and
                                                                    implementation of STANFINS application
                                                                    changes.
DISA
E-mail communication from DFAS developers denoting items          • Inspected the notification e-mails for               •   No exceptions noted.
such as the change type, implementation dates, and additional       STANFINS changes applied during the
instructions regarding changes are sent directly to the personnel   examination period to determine whether
implementing the changes in the TSB. The TSB is responsible         implementation dates for STANFINS were
for Capacity Management, Operating Systems, Database, and           communicated to personnel implementing the
Operations Support at DISA DECC.                                    changes in the TSB.

DISA DECC-St. Louis is responsible for copying all the release      •   Performed inquiry of the PMO Accountant
data to the production application library. They coordinate             and Lead Specialist to verify the process used   •   No exceptions noted.
with CDOIM/DOIM to implement the production release. The                to document and authorize changes.
CDOIM/DOIM reconciles the production application library to
validate that the DECC completely and accurately copied all
the data over to the production directory. The CDOIM/DOIM
is responsible for coordinating with all of the appropriate field
sites affected by the release.

Once a date has been agreed to between the field sites and the
CDOIM/DOIM, the CDOIM/DOIM instructs the DECC to
release the change on the specified time and date. The DECC
releases all changes as specified by the CDOIM/DOIM. Once
changes are released, a final notification is sent from the DECC
to the CDOIM/DOIM confirming the release.




                                                                                 71
Control Description                                                Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
CC-3.1 Programs are labeled and inventoried.
DFAS
STANFINS program changes are conducted manually and the            •   Inquired of the Lead Specialist regarding       •   STANFINS application changes were
IT Specialist is responsible for creating/titling each version         procedures for labeling and inventorying            manually controlled, migrated, and
change and helping to ensure that each site is using the correct       STANFINS application programs.                      released from the testing environment;
version of STANFINS.                                                                                                       however, the documentation was not
                                                                                                                           appropriately maintained. Specifically,
                                                                                                                           there was no automated version controls
                                                                                                                           (i.e., a program change version control
                                                                                                                           system) to track changes to STANFINS.

                                                                                                                       •   Inconsistencies in documentation included:
                                                                                                                           • SCRs were generally not created if the
                                                                                                                               Change Control Board knew that the
                                                                                                                               request would not be authorized.
                                                                                                                           • All Change Control Board meetings
                                                                                                                               were informal, held as needed, and
                                                                                                                               most communication regarding
                                                                                                                               proposed changes was discussed
                                                                                                                               verbally.
                                                                                                                           • Of 15 SCRs and TCRs generated
                                                                                                                               October 2, 2002 through October 2004
                                                                                                                               (3 in FY 2003 and 12 in FY 2004),
                                                                                                                               only three had e-mail documentation to
                                                                                                                               support the change.
                                                                                                                           •   Of the 12 FY 2004 SCRs, only
                                                                                                                               three copies of e-mails notifying
                                                                                                                               the DFAS field sites of changes
                                                                                                                               were maintained.
Control Activity:
CC-3.2 Access to program libraries is restricted.
DISA
DISA is responsible for administering access to STANFINS           •   Inspected policies and procedures on granting   •   No exceptions noted.
production program libraries. DISA administers access based            and monitoring access to STANFINS IT
on approved access request forms received from appropriate             resources.
DFAS points of contact. Additionally, DECC user access to
STANFINS production libraries is limited to operation support


                                                                                72
Control Description                                         Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
staff responsible for responding to customer requests and
troubleshooting.                                            •   Inquired of DISA DECC-St. Louis Security         •   No exceptions noted.
                                                                Division Branch Chief to determine the
                                                                process for granting access to STANFINS.


                                                            •   Inspected access control procedures to           •   No exceptions noted.
                                                                determine whether the process for granting,
                                                                monitoring, and removing access to
                                                                STANFINS (including the GSS) followed
                                                                DoD Instruction 8500.2 Information
                                                                Assurance Implementation guidance, which
                                                                requires procedures to address need to know
                                                                access, security awareness training for users,
                                                                and verification of a favorable background
                                                                investigation/ active security clearance.

                                                            •   Inspected access request forms for a random      •   At DISA DECC-St. Louis, we selected 42
                                                                sample of users of STANFINS (at the                  users and requested their user access
                                                                application and network level) to determine          request out of form packets. Out of the
                                                                whether management authorized access.                sample of 42 packets:
                                                                                                                     • One user did not have a completed
                                                                                                                         access request form;
                                                                                                                     • Three individuals had at least one
                                                                                                                         access request form without a Security
                                                                                                                         representative’s signature certifying
                                                                                                                         that the individual’s background
                                                                                                                         checks/security clearances were
                                                                                                                         appropriate;
                                                                                                                     • Six individuals had at least one access
                                                                                                                         request form where the user
                                                                                                                         acknowledgement portion was not
                                                                                                                         signed.

                                                                                                                 •   Two separated employees retained access
                                                            •   Obtained and inspected the ACL for
                                                                                                                     to one or more of the domains where
                                                                STANFINS to determine whether terminated
                                                                                                                     STANFINS resides.
                                                                employees had access.



                                                                         73
Control Description                                         Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
DFAS
Programmer access to production files is limited. DISA      •   Inspected DFAS policies and procedures to     •   Of the ten DFAS sites, DFAS-Indianapolis
administers access based on approved access request forms       determine whether guidance was established        (PMO and TSO), DFAS-Pacific, DFAS-
received from appropriate DFAS points of contact.               to outline ELAN administrator security            Japan and DFAS-Rome stated that there
                                                                responsibilities.                                 was no DFAS service-wide policy or
                                                                                                                  guidance document outlining local ELAN
                                                                                                                  administrator security responsibilities
                                                                                                                  versus those of centralized groups
                                                                                                                  responsible for the administration/
                                                                                                                  monitoring of DFAS-wide network
                                                                                                                  security.

                                                            •   Inspected access control procedures to        •   During testing, DFAS field sites were
                                                                determine whether the process for granting,       unable to generate STANFINS and TAPS
                                                                monitoring, and removing access to                user access lists directly from the security
                                                                STANFINS (including the GSS) followed             system. As a result, of the ten DFAS field
                                                                OMB A-130 and DoD guidance.                       sites, DFAS-Rome, DFAS-Denver, DFAS-
                                                                                                                  San Antonio, DFAS-Lawton, DFAS-
                                                                                                                  Columbus, DFAS-Indianapolis and DFAS-
                                                                                                                  Pacific, DFAS-Seaside DFAS field sites
                                                                                                                  could not:
                                                                                                                  • Identify all TAPS modes (access
                                                                                                                       privileges) assigned to users;
                                                                                                                  • Determine whether users had
                                                                                                                       inappropriate access to TAPS modes,
                                                                                                                       based on job responsibilities; and
                                                                                                                  • Determine whether manually derived
                                                                                                                       and maintained access control lists
                                                                                                                       accurately reflected the user
                                                                                                                       population.


                                                                                                              •   Of the ten DFAS field sites, nine field sites
                                                                                                                  (DFAS-Rome, DFAS-Denver, DFAS-
                                                                                                                  Lawton, DFAS-San Antonio, DFAS-
                                                                                                                  Columbus, DFAS-Seaside, DFAS-
                                                                                                                  Indianapolis, DFAS-Pacific and DFAS-
                                                                                                                  Japan) either used locally developed or had



                                                                         74
Control Description   Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                                                          not documented procedures for granting,
                                                                          approving, monitoring, recertifying, and
                                                                          removing user access to STANFINS and
                                                                          the ELAN.

                      •   Inspected access forms for a random sample   •   Six of ten DFAS user sites did not have
                          of users of STANFINS (at the application         complete or existing authorizations for
                          and network level) to determine whether          STANFINS users as follows:
                          management authorized access.                    DFAS-Denver:
                                                                           • 18 STANFINS user access forms did
                                                                               not have an ELAN Account Request
                                                                               Form on file.
                                                                           DFAS-Pacific:
                                                                           • Justification for STANFINS user
                                                                               access was pre-populated on user
                                                                               access forms by the TASOs and may
                                                                               not support actual needs.
                                                                           • The functional data owner’s signature
                                                                               was missing from TAPS user request
                                                                               forms on two of the eight forms
                                                                               inspected.
                                                                           DFAS-Japan:
                                                                           • Four out of 31 ELAN access request
                                                                               forms that users filled out in 1998 did
                                                                               not have an approval (signature).
                                                                           • Two external ELAN users had not
                                                                               signed user agreements.
                                                                           • Seven out of 53 DD 2875/DISA 41
                                                                               forms did not contain a business reason
                                                                               for the access request.
                                                                           • One out of 53 DD 2875/DISA 41
                                                                               forms did not contain a business case
                                                                               that adequately explained the reason
                                                                               for the access request.
                                                                           • One out of 26 Defense Internet Service
                                                                               Provide (DISP) User Access Request
                                                                               forms could not be found.
                                                                           • Two out of 26 user access forms were


                                   75
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
                                                                 not signed by the TASO.
                                                            • One out of 26 user access forms did
                                                                 not contain a supervisor signature or a
                                                                 business case justification.
                                                            DFAS-Rome:
                                                            • Three out of 30 user access forms did
                                                                 not have authorization documentation
                                                                 available.
                                                            • 11 of 29 users with DISP accounts did
                                                                 not have a DISP user access request
                                                                 form with the appropriate approvals
                                                                 and/or justification. Two of these
                                                                 users had STANFINS accounts.
                                                            DFAS-San Antonio:
                                                            • 32 out of 41 LAN user access forms
                                                                 did not have an access request form on
                                                                 file.
                                                            DFAS-Seaside:
                                                            • 68 of 72 access request forms did not
                                                                 include an adequate business
                                                                 reason/justification for the access
                                                                 requested.
                                                            • 46 of 72 access request forms had a
                                                                 pre-populated response that included
                                                                 the type of access the user needed, but
                                                                 did not justify the access.
                                                            • Three out of 31 internal LAN user
                                                                 access forms did not have the
                                                                 functional data owner’s signature.
                                                            • 14 of 31 internal LAN user access
                                                                 forms did not have the original user
                                                                 access request form used to create their
                                                                 account.
                                                            • Four of 31 internal users’ access
                                                                 request forms were not signed by the
                                                                 information security officer.
                                                            • There was no evidence of LAN access
                                                                 request forms or DISP user access


                                   76
Control Description                                        Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                                                                                                    request forms being used prior to
                                                                                                                    February 10, 2005.

                                                           •   Inquired of DFAS ISSOs/TASOs, as well as     •   At DFAS-Japan, DFAS-Lawton, DFAS-
                                                               DFAS field site supervisors, and inspected       San Antonio, DFAS-Pacific, DFAS-Rome
                                                               user access listings to TAPS/STANFINS to         and DFAS-Seaside, users had access that
                                                               determine whether user access was                was not required by their job
                                                               commensurate with job responsibilities.          responsibilities.

Control Activity:
CC-3.3 Movement of programs and data among libraries is controlled.
DISA
Production program changes are migrated by DISA DECC-St.    • Inquired of the TSB Chief and inspected       •   No exceptions noted.
Louis personnel. DISA DECC-St. Louis personnel receive        policies and procedures regarding movement
changes from authorized points of contact and implement       of STANFINS programs among libraries.
changes in the production environment as directed by DFAS
POCs.
DFAS
DFAS has documented a change control process and work flow • Inspected a work flow diagram regarding        •   No exceptions noted.
plan that details how each change is identified, requested,   movement of STANFINS programs among
approved, and moved along the appropriate libraries.          libraries.




                                                                        77
System Software (SS)

Controls provide reasonable assurance that the implementation of new system and vendor-supplied software and utilities and changes to existing
system and vendor-supplied software and utilities are authorized, tested, approved, properly implemented, and appropriately documented.

Control Description                                                Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
SS-1.1 Access authorizations are appropriately limited.
DISA
Policies for restricting access to systems software are detailed   •   Inspected Top Secret and Access Control         •   DECC users had “Write” or “Allocate”
in the OS/390 STIG. The document establishes guidelines for            Facility 2 (ACF2) STANFINS-related                  access to STANFINS production
restricting access to sensitive system datasets. The network           domain ACLs to determine whether access to          application datasets on two of five ACF2
device control policy is detailed in the Network Infrastructure        system software datasets and utilities was          ASIMS domains and excessive access on
STIG, which outlines access restrictions to network devices,           limited.                                            the Top Secret ASIMS Far East domain.
and also details the secure configuration of network devices.
                                                                                                                       •   Access to SYS1 datasets was assigned
The Executive Software Configuration Control Board                                                                         inconsistently across the ACF2 ASIMS
(ESCCB) uses a Web-based application, the Software Factory,                                                                domains. Additionally, access to SYS1
on software package distribution database, to receive all                                                                  datasets was not based on segregation of
software configuration change requests and then routes them to                                                             duties principles for the ACF2 and Top
the appropriate ESCCB staff and board for approval. The                                                                    Secret domains.
Software Factory does not allow access to the software unless
the individual is listed on an authorized user listing. The                                                            •   DISA DECC-St. Louis did not restrict
individual must have permissions established within Resource                                                               access to sensitive system software utilities
Access Control Facility (RACF) and must also match the                                                                     on the ACF2 domains via the Protected
authorized user listing of the Software Factory application.                                                               Program List (PPGM), as required by the
Additionally, when the individual accesses the Software                                                                    OS/390 STIG. For Top Secret, access to
Factory, the system is automatically configured to distribute e-                                                           sensitive utilities on the Top Secret
mail notifications to designated points of contact at the DISA                                                             ASIMS Far East domain was not restricted
DECC-Mechanicsburg, DISA DECC-St. Louis, and SSO-                                                                          based on segregation of duties principles.
Mechanicsburg.
                                                                   •   Inspected the listing of authorized users for   •   At the DECC-Mechanicsburg, two
                                                                       Software Factory and RACF at DISA                   individuals on the listing no longer
                                                                       DECC-Mechanicsburg and DISA DECC-St.                required access to the Software Factory.
                                                                       Louis and inquired of DISA DECC-St. Louis
                                                                       TSB Chief to determine whether user access      •   At DECC-St. Louis, users had access to
                                                                       was commensurate with job responsibilities.         sensitive datasets that were not necessary
                                                                                                                           for their job responsibilities.




                                                                                78
Control Description                                              Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
Control Activity:
SS-2.1 Policies and techniques have been implemented for using and monitoring use of system utilities.
DISA
Mainframe audit log policies are outlined in the OS/390 STIG,    • Inquired of security administrators and          •   No audit log was created for the use of
Volume 1. The OS/390 STIG requires review of dataset access          inspected policy statements related to audit       sensitive system utilities on the ACF2
violations, resource violations, and program use violations on a     logging and compared results to audit              domains; thus, DISA DECC-St. Louis
daily basis and requires review of the failed log-on attempts        settings of security software.                     could not review program use violations.
and security privileges on a weekly/monthly basis. Security
reports for the six STANFINS-related ASIMS domains (five                                                            •   Top Secret was not consistently configured
ACF2 and one Top Secret domain) are available for DISA                                                                  to generate audit logs for all sensitive
DECC-Mechanicsburg and DISA DECC-St. Louis to monitor.                                                                  utilities; thus, DISA DECC-St. Louis could
                                                                                                                        not review program use violations.
Control Activity:
SS-2.2 Inappropriate or unusual activity is investigated and appropriate actions taken.
DISA
DISA DECC-Mechanicsburg implemented an audit log review           • Inquired to determine whether all changes to    •   Log data of changes to ACF2 and Top
spreadsheet as of January 3, 2005, which is used to identify        security profiles by security managers were         Secret security profiles were not
activities that warrant follow-up. The audit log review             automatically logged and periodically               consistently maintained and archived on
spreadsheets for each domain are made available to senior           reviewed by management independent of the           the mainframe across the six ASIMS (one
management via shared network folders. The Security                 security function. Inquired of security             Top Secret, five ACF2) domains. As a
Division Branch Chief will periodically monitor these files to      administrators and inspected logs to                result:
help ensure the logs are monitored and to review trends.            determine whether unusual activity was              • No ACF2 log review evidence existed,
DISA DECC-Mechanicsburg relies on the automated security            investigated.                                           to include changes to ACF2 security
reporting features of ACF2. ACF2 generates reports from raw                                                                 profiles, or violation logs prior to
System Management Facility (SMF) records based on type of                                                                   January 3, 2005.
activity (e.g., log-on ID modification, dataset access violation,                                                       • No Top Secret log review evidence
etc.). Similarly, DISA DECC-St. Louis relies on the automated                                                               existed, to include changes to security
security reporting features of Top Secret.                                                                                  profiles, or violation logs.
The OS/390 STIG requires the DECC to review the ACF2 and                                                                • Sufficient contact information did not
Top Secret global control options at least quarterly to                                                                     exist to adequately follow-up on issues
determine whether any changes were authorized and necessary.                                                                identified during review of the logs.
                                                                                                                            The contacts listed on the logs were
                                                                                                                            not the appropriate contacts.

Control Activity:
SS-3.1 System software changes are authorized, tested, and approved before implementation.
DISA
DISA DECC-St. Louis uses change request templates for        • Inquired of the DISA DECC-St. Louis TSB              •   DISA did not develop system software


                                                                               79
Control Description                                              Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
system software changes. Configuration Control Board (CCB)           Chief regarding procedures for making           change management procedures detailing
Instructions to be Followed for Preparation of Configuration         changes to system software supporting           specific DECC roles, responsibilities, and
Change Proposal (CCP) requires the following details for             STANFINS.                                       procedures regarding identification of
changes: major project/goal, change description, scope of                                                            system software problems, testing of
change, domains affected, back-out procedures, downtime, and                                                         changes, impact analyses, approvals,
special instructions.                                                                                                implementation and verification, and
                                                                                                                     documentation requirements.
SSO Mechanicsburg is responsible for building, testing, and
distributing implementation-ready Mainframe Executive            •   Inspected system software change logs to     •   No audit log was created for the use of
Software Suites for all test and production LPARs. This              determine whether system software changes        sensitive system utilities on the ACF2
includes all software changes, releases, maintenance, and            on the STANFINS-related mainframe                domains; thus, DISA DECC-St. Louis
upgrades. The DECC and SSO technical staff participate in            domains were tracked.                            could not review program use violations.
testing of system software changes, coordinate the scheduling,
customer interfaces and administrative changes, implement the                                                     •   Top Secret was not consistently configured
revised software suites, and provide operational technical                                                            to generate audit logs for all sensitive
support.                                                                                                              utilities; thus, DISA DECC-St. Louis could
                                                                                                                      not review program use violations.
If the proposed change impacts DISA DECC-St. Louis
customers, a formal synopsis of the change is sent to the        •   Selected a random sample of changes to       •   DISA SSO and DISA DECC-St. Louis
customers affected for coordination purposes.                        STANFINS system software/DB changes to           lacked change documentation that included
                                                                     determine whether required documentation         detailed information about the change,
The REMEDY help desk ticket system tracks any identified             was present.                                     such as test results or impact analysis.
problems.

Emergency system software changes follow the same process
                                                                 •   Inspected the notification e-mails for       •   No exceptions noted.
as any other system software change, only the process is
                                                                     STANFINS changes applied during the
expedited.
                                                                     examination period to determine whether
                                                                     implementation dates for STANFINS were
SSO is responsible for the standardization and optimization of
                                                                     communicated to personnel implementing
the executive software suites for all DECCs. The Executive
                                                                     the changes in the TSB.
Support Plan documents and delegates these responsibilities to
the SSO. The support plan states that the SSO will provide
three levels of support: Standard Operating Environment          •   Inquired of STANFINS system owners and       •   DISA did not develop system software
(SOE), Centrally Supported Systems (CSS), and Consolidated           System Administrators to determine whether       change management procedures detailing
Maintenance Contract (CMC).                                          procedures were developed and documented         specific DECC roles, responsibilities, and
                                                                     for identifying and recording and tracking       procedures regarding identification of
DISA DECC-Mechanicsburg employs a change management                  STANFINS-related system software                 system software problems, testing of
process for all software changes/requests called the ESCCB.          problems.                                        changes, impact analyses, approvals,
An individual making a request for a change to or for new                                                             implementation and verification, and



                                                                              80
Control Description                                                Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
software must submit a request via a Web-based form. The                                                                  documentation requirements.
ESCCB board meets on a weekly basis to review the requests
submitted over the past week. The policies and procedures of       •   Inspected vendor support agreements to          •   No exceptions noted.
the board set forth the process for submission and approval of         determine whether they were current and
change requests.                                                       provided coverage for computer assets.

Applicable domains track system software changes.                  •   Inquired of management to determine             •   The TSB migrated tested and approved
                                                                       whether tested and approved STANFINS                system software changes; however, there
                                                                       system software migrated to the production          were no documented policies requiring
                                                                       environment was performed by an                     migration of system software changes into
                                                                       independent library control group.                  production by an independent library
                                                                                                                           control group. The same person could
                                                                                                                           develop/identify the change request, test
                                                                                                                           the proposed change, and implement the
                                                                                                                           change.

                                                                   •   Compared user listings for individuals with     •   At the DECC-Mechanicsburg, two
                                                                       access to migrate changes into the production       individuals listed as authorized users for
                                                                       environment to determine whether it was             the Software Factory no longer required
                                                                       commensurate with job responsibilities.             access.

                                                                   •   Inquired of DISA DECC-St. Louis TSB             •   No exceptions noted.
                                                                       Branch Chief and inspected documentation
                                                                       system-generated inventories to determine
                                                                       whether DISA DECC-St. Louis maintained
                                                                       an inventory of programs on STANFINS-
                                                                       related mainframe domains.
DFAS
The CDOIM/DOIM is responsible for locally identifying and          •   Inquired of the TSO and CDOIM IT                •   No exceptions noted.
tracking problems related to STANFINS. CDOIM/DOIM                      Specialists and inspected CDOIM Operations
maintains a copy of a log of all system problems. The log itself       Management Plan to determine whether
is not STANFINS specific; however, problems related to                 procedures existed for identifying and
STANFINS are on the list.                                              documenting STANFINS-related system
                                                                       software changes.
Control Activity:
SS-3.2 Installation of system software is documented and reviewed.
DISA
DISA DECC-St. Louis tests patches, upgrades, and new system • Inspected system software change logs to                 •   No audit log was created for the use of



                                                                                81
Control Description                                             Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
software depending on the nature of the change or product.          determine whether system software changes       sensitive system utilities on the ACF2
                                                                    on the STANFINS-related mainframe               domains; thus, DISA DECC-St. Louis
DISA DECC-St. Louis maintains a list of all software on their       domains were tracked.                           could not review program use violations.
systems in the Integrated Assets Configuration Management
System database.                                                                                                 •   Top Secret was not consistently configured
                                                                                                                     to generate audit logs for all sensitive
                                                                                                                     utilities; thus, DISA DECC-St. Louis could
Any request for new system software or upgrades to existing                                                          not review program use violations.
system software must be coordinated through the SSO. The
SSO packages all software for transmission to DISA DECC-St.
                                                                                                                 •   DISA SSO and DISA DECC-St. Louis
Louis.                                                          •   Selected a random sample of changes to           lacked change documentation that included
                                                                    STANFINS system software/DB changes to           detailed information about the change,
                                                                    determine whether required documentation         such as test results or impact analysis.
                                                                    was present.

                                                                                                                 •   No exceptions noted.
                                                                •   Inquired of DISA DECC-St. Louis TSB
                                                                    Branch Chief and inspected system-
                                                                    generated inventories to determine whether
                                                                    DISA DECC-St. Louis maintained an
                                                                    inventory of programs on STANFINS-related
                                                                    mainframe domains.




                                                                            82
Service Continuity (SC) – Backup and Recovery

Controls provide reasonable assurance that computer systems are backed up on a periodic basis and that procedures are employed to maintain the
integrity of media.

Control Description                                              Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
SC-2.1 Data and program backup procedures have been implemented.
DISA
Individual jobs are created to run the routine backups based on  • Inquired of the Operations Manager                •   No exceptions noted.
the domains that STANFINS resides on. A weekly backup job            regarding the backup process and inspected
for the ASIMS domain is executed between Sunday evening              the backup procedures to determine whether
and Monday morning. During the same weekly backup cycles,            a process was developed and documented.
operating system and system utility programs are also backed
up. Application and operating system/system software utility     • Inquired of Chief of the Capacity                 •   No exceptions noted.
programs are not backed up to the same piece of media or             Management Branch (CMB) and inspected
collocated during storage.                                           checklists for backing up STANFINS
                                                                     application files and programs, and key GSS
Within 1 or more of 49 StorageTek tape management silos              operating systems, configurations, and tape
located at the DISA DECC-St. Louis, backups are recorded to          library procedures to determine whether a
data tapes, which are ejected and placed into fireproof storage      process was developed and documented to
in a locked tape library until they are rotated to the off-site      regularly back up data and programs.
storage location. Tape library procedures outline tape handling
procedures and responsibilities.
                                                                 • During a tour of the computer center,             •   No exceptions noted.
                                                                     observed equipment to note whether tape
The tape management system provides for an index of backup
                                                                     management silos were used for physical
tapes, backup statuses, rotation schedules, etc. When data is
                                                                     tape management during the backup
recorded to backup tapes erroneously due to program failure or
                                                                     process.
tape media integrity issues, the tape management system
automatically detects these errors and produces reports that
identify tapes containing errors. Additionally, the integrity of • Observed a weekly COOP dump process to            •   No exceptions noted.
tape media is tested during the annual Continuity of Operations      verify that secondary tapes were created and
Plan (COOP) exercise during which backup tapes are restored,         sent to the offsite storage facility.
as well as by the tape management system immediately after
the creation of the backup.                                      • Inspected individual pickup/delivery              •   No exceptions noted.
                                                                     receipts from July 2004 to October 2004 to
Backup tapes are rotated off-site for three weeks and then           determine whether tapes were picked up for
returned to the DISA DECC-St. Louis facility for reuse. The          off-site storage and returned by the off-site
only time the tapes are deposited or removed are during the          storage vendor.



                                                                               83
Control Description                                                 Tests of Operating Effectiveness                     Results of Tests of Operating Effectiveness
weekly delivery/pickup of the off-site storage vendor. These
actions are logged through the required delivery/pickup             •   Inspected the offsite inventory listing that     •   No exceptions noted.
receipts. During transit to and from the off-site storage               accompanies the tapes to the offsite storage
location, tapes are stored in fireproof containers.                     facility that contained creation and
                                                                        expiration dates of the tapes and specific
The off-site processing facility is physically removed from the         storage/rotation requirements to determine
DISA DECC-St. Louis backup storage site; approximately 35               whether an inventory was documented.
miles separate the DECC from the backup storage site.
                                                                    •   Inquired of the Chief of the CMB and             •   No exceptions noted.
DISA has contracted with the off-site storage facility to provide       inspected COOP test results to determine
for physically secure and environmentally sound storage of              whether tapes were tested during the annual
backup tapes, which are accessible for disaster/recovery 24             COOP exercise, as well as by the tape
hours a day/ 365 days of the year.                                      management system immediately after
                                                                        creation of the backup.

                                                                    •   Inquired of Chief of the Security Division       •   No exceptions noted.
                                                                        and Chief of the CMB and inspected the
                                                                        contract with the offsite storage provider to
                                                                        determine whether the offsite storage was
                                                                        geographically removed from the DECC.

                                                                    •   Inspected the contract for storage services to   •   No exceptions noted.
                                                                        determine whether a current agreement
                                                                        existed between the offsite storage provider
                                                                        and the DISA DECC-St. Louis.




                                                                                  84
Service Continuity (SC) – Physical Computer Asset Protection

Administrative and operational controls should be established to provide reasonable assurance of the protection of physical computing assets.

Control Description                                              Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
Control Activity:
SC-2.2 Adequate environmental controls have been implemented.
DISA
DISA leases the DECC facility from the GSA. In addition to       • Inspected the contract between GSA and           •   No exceptions noted.
its capacity as leaseholder, GSA is responsible for maintaining      DISA to determine responsibilities for
environmental control devices (i.e., fire suppression systems;       maintenance of environmental protection
heating, ventilation, and air conditioning (HVAC); generators,       mechanisms.
etc.) and periodically inspects them to observe that they are
working properly. Because GSA is responsible for the             • Toured the DECC facility and observed            •   No exceptions noted.
maintenance of environmental controls, the appropriate GSA           physical environment protection
personnel undergo initial and periodic training in the operation     mechanisms to note whether the following
and support of the environmental controls.                           controls were placed into operation:
                                                                     • Smoke detectors;
Fire detection and suppression systems have been installed at
the DECC. Within the DECC’s data center there are three              • Raised flooring;
levels of smoke detection. There are smoke detectors placed          • Dry pipe sprinkler systems;
below the raised floor, mid-way up the data center walls, and        • Fire extinguishers;
on the ceiling of the data center. Each smoke detector can           • HVAC systems;
independently detect the presence of smoke. A dry pipe               • Humidity monitors and alarms;
sprinkler system is activated upon triggering of the alarm           • UPS;
system. There are also a total of 19 fire extinguishers
                                                                     • Diesel generators;
throughout the data center. Additionally, smoke detectors are
installed in the administrative/office areas of the DECC. GSA        • Emergency lighting;
performs an annual test of each smoke detector in the DISA           • Exit signs; and
DECC-St. Louis facility.                                             • Emergency power cut-off buttons.

There are four chilling units that support the HVAC system in      •   Inspected a contract regarding testing and   •   No exceptions noted.
place for the data center. Because only one unit is required to        equipment maintenance for the following
cool the entire data center, the HVAC system is redundantly            environmental protection mechanisms:
architected to provide uninterrupted cooling for the data center       • Fire suppression devices;
should units simultaneously fail.                                      • Diesel generators and engine controls;
Humidity controls are placed throughout the data center, and
                                                                       • Underground storage tank;
personnel monitor them. Automated monitors poll gauges                 • Switchgear system;


                                                                                85
Control Description                                                  Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
hourly and compare humidity levels to predefined “acceptable”            • Day tank and fuel storage/handling
thresholds. Humidity gauges are linked to an alarm in the                    system;
SMC. GSA personnel monitor and adjust the humidity controls              • Ancillary and accessories equipment
and the other environmental controls located in the SMC.                     systems;
                                                                         • Lubrication system;
DISA DECC-St. Louis’s power supply is configured to switch
automatically between the two commercial power feeds should              • HVAC;
one line fail. An Uninterruptible Power Supply (UPS)                     • Ventilation and exhaust system;
conditions electricity flowing on the feeds to eliminate spikes          • Starting batteries and charging system;
and sags. In the event that both commercial power feeds fail,                and,
the system is configured to automatically switch to battery              • Safety Shutdown & Alarm system.
power provided by the UPS while one or more of the four
backup diesel generators are started. The transition usually         •   Inquired of the Chief of the TSB and        •   No exceptions noted.
takes less than one minute. Once the diesel generators are               inspected recovery plan documents to
running, the power feed is automatically switched to the diesel          determine whether SLAs were arranged
generator(s).                                                            with IT equipment vendors to provide for
                                                                         two-hour response times.
GSA activates the generators twice a year for testing purposes
and services generators with regular and as-necessary
maintenance.

Emergency lighting during emergency exits and evacuation
routes do not provide an exact route; however, they are
adequate for providing lighting to escape the building. Exit
signs are displayed and illuminated at all times for easy
identification in an emergency.

There is a red emergency cut-off button near the two main
entrances to the DECC’s data center. The button is labeled and
protected by a clear plastic cover to prevent accidental shut-off.

DISA maintains service contracts with IT equipment vendors
that provide for two-hour response times in service level
agreements (SLAs).




                                                                                  86
Authorization (AN)

Controls provide reasonable assurance that only authorized transactions are entered into and processed by the system.


Control Description                                             Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
AN-1.1 Source documents are controlled and require authorizing signatures.
DFAS
Based on their origination point, transactions require          AVK018 Report:                                      •   Of 9 DFAS Field Sites tested, DFAS-
authorization from the appropriate Installation Representative  • Observed the entry of invalid alphanumeric            Indianapolis, DFAS-Seaside, DFAS-Japan,
(i.e., Budget Officer, Program Director) or DFAS.                   characters, incomplete fields, incorrect            DFAS-Lawton, DFAS-Rome, DFAS-
                                                                    APCs, and invalid total cards. Inspected            Columbus, DFAS-Pacific, and DFAS-San
Installation-Originating Transactions                               documentation to verify the error was               Antonio, no standard procedures were
Installations send key source documents such as Transmittal         included in the AVK018 report with                  maintained or enforced to ensure that errors
Letters (TLs), FADs, APC, Add/Change requests, or other             appropriate coding. Verified that report was        were properly reconciled, authorized,
requests to generate a transaction to DFAS via mail, e-mail,        being reviewed to correct exceptions.               corrected, and documented.
and fax. Each of the significant classes of transactions can
originate from the installation including Funding, Obligations,                                                     •   DFAS-Denver, DFAS-Pacific, DFAS-
Disbursements, Transactions by Others (TBO), Collections,                                                               Rome, DFAS-Seaside, DFAS-Indianapolis,
Reimbursables, and APC Masterfile Maintenance. The                                                                      DFAS-Columbus. DFAS-Japan, DFAS-San
authorization process is the same for each.                                                                             Antonio and DFAS-Lawton did not
                                                                                                                        maintain documented evidence/signatures or
The DFAS Accounting Technician performs a visual review to                                                              note who performed the corrections and
determine whether an appropriate individual has authorized the                                                          whether the correction was appropriate..
key source document. DFAS maintains an authorized point of       Control Cards
contact listing for each of their customers and/or signature     •  Inquired of management to determine             •   DFAS-Denver, DFAS-San Antonio, DFAS-
verification cards to aid Accounting Technicians in the             whether accounting technicians and                  Seaside, DFAS-Rome. and DFAS-Pacific of
performance of their reviews. Should DFAS obtain source             supervisors validated the data input into the       the 6 sites tested, did not maintain
documents from individuals not identified as authorized points      STANFINS daily cycle. Inspected evidence            documented standard operating procedures
of contact, DFAS will not process the request and contact the       of control was documented.                          related to the review of the control cards.
appropriate authorized point of contact for resolution.

DFAS-Originating Transactions                                                                                       •   DFAS-Orlando, DFAS-Indianapolis, DFAS-
Transactions originating within DFAS include error                                                                      Denver, DFAS-San Antonio and DFAS-
corrections, journal vouchers, and control cards.                                                                       Columbus did not perform an independent
                                                                                                                        or supervisory review of the control cards.
Error Corrections
The AVK018, Daily Preliminary Balance, is the primary report
used to identify data entry errors. Control Group or


                                                                              87
Control Description                                               Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness
Accounting Technicians use OLRV to retrieve the AVK018
report. The Accounting Technician reviews the report,
performs research, and hand marks the types of corrective
action needed on the report (generally via an update entered by
the Accounting Technician through the TAPS). The error
correction is applied upon the original block ticket number
assigned in STANFINS unless the transaction is released
(deleted) and re-input. DFAS Accounting Technicians and
Accountants have been identified as trusted agents on behalf of
the DFAS and the installation, and as such, do not obtain
additional authorization to correct transaction errors.

Control Cards
Control cards, or the files that are used to set various
parameters that control that day’s STANFINS batch processing
cycle are either manually input or set within STANFINS via a
macro program (a preprogrammed series of computer
commands). Parameters set within control cards are visually
reviewed to determine whether they were input properly. Some
DFAS sites make a notation on printouts as evidence of their
review, while others perform a visual review with no notations.
Some DFAS sites maintain the reports while others do not.
The Systems Office generates the cycles each day at a
scheduled time or upon request of the Accountant/Accounting
Technician.
Control Activity:
AN-2.1 Data entry terminals are secured and restricted to authorized users.
DISA
The DISA Computing Services Security Handbook details           • Inspected policies and procedures for         •   No exceptions noted.
granting access to system resources.                              granting and monitoring access to
                                                                  STANFINS IT resources.
Users at the DISA DECC-St. Louis have access to STANFINS
application production files and data as necessary to support   • Inquired of DISA DECC-St. Louis Security      •   No exceptions noted.
system operation and respond to customer requests. DECC           Division Branch Chief to determine the
users also have access to the mainframe GSS where the             process for granting access to STANFINS
application resides. The DECC is responsible for creating and     and the GSS.
maintaining DECC user accounts, as well as DFAS ISSO and
TASO accounts at customer sites. The local ISSO/TASO is
                                                                • Inspected access control procedures to        •   No exceptions noted.
responsible for creating and maintaining user accounts at
                                                                  determine whether the process for granting,


                                                                               88
Control Description                                                Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
customer sites.                                                        monitoring, and removing access to
                                                                       STANFINS followed Federal (NIST SP
Users at the DECC (the majority of which are system software           800-26 – Logical Access) and DoD
maintenance personnel) requiring access to the mainframe               guidance (DoD Instruction 8500.2 – Remote
environment complete a form DD (Department of Defense)                 Access, Access Procedures, Access Control
2875 System Authorization Access Request, used for initial             Policies, Contractor and Foreign Nationals
access requests, as well as for changes to an account. An              Access, Comprehensive Account
authorized supervisor must sign this form, indicating approval         Management, Least Privilege Procedures,
of the access. Users must possess a security clearance                 Classified Data Protection).
commensurate with the classification level of the system in
order to obtain access. Passwords are communicated to users
via secure means, either in person or via e-mail, using separate   •   Inspected access forms for a random sample     •   At DISA DECC-St. Louis, we selected 42
e-mails to transmit user ID and password.                              of users of STANFINS (at the application           users out of 1441 and requested their user
                                                                       and network level) to determine whether            access request form packets. Out of the
The RAS server connections provide direct dial-in access to the        management authorized access).                     sample of 42 packets:
network. DECC users requesting remote access must submit                                                                  • One user did not have a completed
an approved access request form (Form DD 2875). Remote                                                                        access request form;
access is granted to users with a valid need, which must be
                                                                                                                          • Three individuals had at least one
approved by a supervisor, to access the network remotely.
                                                                                                                              access request form without a Security
Typically, users are granted remote access in order to respond
                                                                                                                              representative’s signature certifying that
quickly to emergency situations and resolve problems when not
                                                                                                                              the individual’s background
at the DECC facility. After receiving an approved remote
                                                                                                                              checks/security clearances were
access request, the Security Division staff adds the user to the
                                                                                                                              appropriate;
RAS server.
                                                                                                                          • Six individuals had at least one access
The STANFINS application and the system software it resides                                                                   request form where the user
on are protected through the mainframe access control                                                                         acknowledgement portion was not
applications CA-ACF2 and CA-Top Secret.                                                                                       signed.
                                                                   •   Inquired of DISA DECC-St. Louis Security
                                                                                                                      •   DISA DECC-St. Louis did not have a
Discretionary access controls are enforced through ACF2 and            Division Branch Chief regarding policies
Top Secret mainframe security software. Also, access to                                                                   process for recertifying user access to
                                                                       and procedures for recertifying users access
shared and networked file systems outside the mainframe                                                                   STANFINS.
                                                                       in STANFINS.
environment is controlled through discretionary access controls
enforced through network access privileges.
                                                                   •   Obtained and inspected the ACL for
                                                                                                                      •   Two separated DISA DECC-St. Louis
                                                                       STANFINS to determine whether
The UML Standardization memo establishes user ID rules for                                                                employees retained access to one or more of
                                                                       terminated employees had access.
DECC users. DECC user IDs are configured to identify the                                                                  the domains where STANFINS resides.
user’s department, as well as employment status. Additionally,
the OS/390 STIG requires a unique ACF2 or Top Secret user



                                                                                89
Control Description                                               Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
ID for every user.
                                                                  •   Inspected ACL to determine whether           •   No duplicate accounts were identified. (No
Passwords are not displayed as a user logs in to the mainframe.       duplicate accounts existed.                      exception noted) However, three accounts
After three invalid log-on attempts, ACF2 automatically                                                                on the Far East domain had no user name
terminates the session. For the Top Secret domains, Top Secret                                                         associated with the ACID. (Exception
suspends the user’s account after two invalid log-on attempts.                                                         noted)

Before authentication, a warning banner is displayed that         •   Inspected an ACL of remote users and         •   Remote access to the DISA DECC-St. Louis
informs the user that the system is for authorized use only and       inquired of an ISSO to determine whether         mainframe via telnet was not restricted and
that activity will be monitored. The terminal session                 the access was limited, documented, and          not secured via encryption.
automatically logs the user off after 15 minutes of inactivity        approved.
and a screen-lock appears after 15 minutes, which requires the
user to re-authenticate in order to re-gain access.
                                                                  •   Inquired of Security Division Branch Chief   •   Minimum password length on each of the
Inactive accounts are suspended after 35 days of inactivity and
                                                                      and Security Administrators and inspected        five ACF2 ASIMS domains and the one Top
deleted after 90 days of inactivity.
                                                                      ACF2 and Top Secret security settings to         Secret ASIMS domain was configured to six
                                                                      determine whether the security products          characters, while the OS/390 STIG requires
                                                                      were configured in accordance with OS/390        passwords have a minimum of eight
                                                                      STIG guidance to enforce discretionary           characters.
                                                                      access controls.

                                                                                                                   •   Users on the Top Secret ASIMS domain
                                                                                                                       were not required by the system to use a
                                                                                                                       national character (e.g., $, @, #) when
                                                                                                                       creating new passwords, as required by the
                                                                                                                       OS/390 STIG.

                                                                                                                   •   Users on the ACF2 ASIMS domains were
                                                                                                                       restricted from using their previous four
                                                                                                                       passwords; users should be restricted from
                                                                                                                       using their previous ten passwords as
                                                                                                                       required by the OS/390 STIG.

                                                                                                                   •    The Huntsville ASIMS domain had the
                                                                                                                       JOBCK setting set to NOJOBCK. This
                                                                                                                       setting did not require ACF2 to verify
                                                                                                                       whether a user submitting a batch job has
                                                                                                                       been granted the authority to submit batch



                                                                               90
Control Description   Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
                                                                            jobs.

                                                                         •   An individual user was assigned to the
                                                                             Master Central Security Administrator
                                                                             (MSCA) account on the Top Secret ASIMS
                                                                             Far East domain. The MSCA designation
                                                                             allows full system access and is not required
                                                                             for individual users.

                                                                         •   26 DECC ACF2 accounts on the ASIMS
                                                                             domains had passwords that did not expire
                                                                             (MAXDAYS not specified). 147 DECC
                                                                             Top Secret accounts on the Far East ASIMS
                                                                             domains had passwords that did not expire
                                                                             (Password Interval = 0).

                                                                         •   DECC users had “Write” or “Allocate”
                                                                             access to STANFINS production
                                                                             application datasets on two of five ACF2
                                                                             ASIMS domains and the Top Secret ASIMS
                                                                             Far East domain.

                                                                         •   No exceptions noted.
                      •   Inspected the UML Standardization memo
                          to determine whether naming conventions
                          were established for DECC users.

                      •   Inquired of Security Division Branch Chief     •   No exceptions noted.
                          and system administrators to determine
                          security procedures for logging on and using
                          the network. Inspected GSS (mainframe)
                          policies and procedures to determine
                          whether security procedures were
                          documented.

                      •   Inquired of Security Division Branch Chief     •   451 ACF2 and 108 Top Secret DECC user
                          and inspected procedures to determine              accounts across the six STANFINS-related
                          whether inactive mainframe user accounts           ASIMS domains were inactive for over 180
                          were monitored and removed when not


                                   91
Control Description                                              Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
                                                                     needed. Inspected the Top Secret and ACF2        days or had never been used.
                                                                     STANFINS-related domain ACLs to
                                                                     determine whether inactive DECC user IDs
                                                                     were present in the domains.

                                                                 •   Observed an individual user sign on to the    •   No exceptions noted.
                                                                     mainframe to determine whether the
                                                                     opening screen provided a warning banner
                                                                     that stated that the system was for
                                                                     authorized use only and that activity was
                                                                     monitored.

                                                                 •   Observed a PC terminal to determine           •   No exceptions noted.
                                                                     whether automatic log-off occurred after a
                                                                     preset number of minutes of inactivity.

DFAS
The Procedures for ASIMS Access Controls details policies on     •   Inspected DFAS policies and procedures to     •   Of the ten DFAS sites, DFAS-Indianapolis
security access responsibilities and the process to grant user       determine whether guidance was established        (PMO and TSO), DFAS-Pacific, DFAS-
access to STANFINS. DFAS uses user access forms to                   to outline ELAN administrator security            Japan and DFAS-Rome stated that there was
document the establishment, modification, deletion, or               responsibilities.                                 no DFAS service-wide policy or guidance
suspension of access to STANFINS IT resources, to include the                                                          document outlining local ELAN
STANFINS application, as well as the ELAN, used by DFAS                                                                administrator security responsibilities versus
administrative and field sites gain access to STANFINS.                                                                those of centralized groups responsible for
                                                                                                                       the administration/ monitoring of DFAS-
To set up ELAN access, the ELAN administrator, prior to                                                                wide network security.
establishing a network user ID and password, must approve the
ELAN user access form via signature. For some sites, a           •   Inspected access control procedures to        •   During testing, DFAS field sites were
separate security group approves the form via signature.             determine whether the process for granting,       unable to generate STANFINS and TAPS
                                                                     monitoring, and removing access to                user access lists directly from the security
Users must have a TAPS account in order to access the                STANFINS and GSS followed Federal                 system. As a result, of the ten DFAS field
STANFINS application. The local TASO/ISSO is responsible             (NIST SP 800-26 – Logical Access) and             sites, DFAS-Rome, DFAS-Denver, DFAS-
for security administration, including the assignment of TAPS        DoD guidance (DoD Instruction 8500.2 –            San Antonio, DFAS-Lawton, DFAS-
accounts. The ISSO creates user accounts for TAPS/                   Remote Access, Access Procedures, Access          Columbus, DFAS-Indianapolis and DFAS-
STANFINS through a tool called VASS. For the majority of             Control Policies, Contractor and Foreign          Pacific, DFAS-Seaside DFAS field sites
DFAS field sites, Microsoft Excel spreadsheet, Access                Nationals Access, Comprehensive Account           could not:
database, or other manual means of tracking are used to              Management, Least Privilege Procedures,           • Identify all TAPS modes (access
identify STANFINS/TAPS users, TAPS mode profiles, and                Classified Data Protection).                           privileges) assigned to users;
assigned TAPS modes. At DFAS-Orlando and DFAS-Japan,


                                                                              92
Control Description                                                  Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
TASOs/ISSOs generate ACF2-native listings in order to                                                                    • Determine whether users had
identify and track who has access to TAPS and STANFINS.                                                                       inappropriate access to TAPS modes,
                                                                                                                              based on job responsibilities; and
The DFAS ISSP provides guidance in conducting monthly                                                                    • Determine whether manually derived
recertifications of STANFINS and ELAN accounts. The ISSO                                                                      and maintained access control lists
is responsible for providing each supervisor with a STANFINS                                                                  accurately reflected the user population.
user listing of access levels, and it is the supervisor’s
responsibility for validating and authorizing user access.
                                                                                                                      •   Of the ten DFAS field sites, nine field sites
Remote network access via the DISP accounts is granted to
                                                                                                                          (DFAS-Rome, DFAS-Denver, DFAS-
users with a valid need, which must be approved by a
                                                                                                                          Lawton, DFAS-San Antonio, DFAS-
supervisor.
                                                                                                                          Columbus, DFAS-Seaside, DFAS-
                                                                                                                          Indianapolis, DFAS-Pacific and DFAS-
STANFINS application password and user ID rules are
                                                                                                                          Japan) either used locally developed or had
configured in the security system software maintained by
                                                                                                                          not documented procedures for granting,
DISA.
                                                                                                                          approving, monitoring, recertifying, and
                                                                                                                          removing user access to STANFINS and the
DFAS ELAN procedures include requirements that guide
                                                                                                                          ELAN.
ELAN administrators in the conduct of network security
administration.                                                      •   Inspected access forms for a random sample
                                                                                                                      •   Six of ten DFAS user sites did not have
                                                                         of users of STANFINS (at the application
During log-in to the ELAN, there is a banner warning users that                                                           complete or existing authorizations for
                                                                         and network level) to determine whether
they are about to log on to a government workstation and that                                                             STANFINS users as follows:
                                                                         management authorized access.
their use will be monitored. This banner automatically appears                                                            DFAS-Denver:
every time a user accesses any DFAS workstation connected to                                                              • 18 STANFINS user access forms did
ELAN.                                                                                                                         not have an ELAN Account Request
                                                                                                                              Form on file.
ELAN workstations are CAC-configured, which means that an                                                                 DFAS-Pacific:
individual must insert a valid CAC card into a reader slot that is                                                        • Justification for STANFINS user access
connected to the workstation in order to log in to the network.                                                               was pre-populated on user access forms
When the individual leaves the workstation, he or she must                                                                    by the TASOs and may not support
remove the CAC card from the reader slot, which automatically                                                                 actual needs.
locks the workstation and prevents anyone else from accessing                                                             • The functional data owner’s signature
the workstation and LAN.                                                                                                      was missing from TAPS user request
                                                                                                                              forms on two of the eight forms
                                                                                                                              inspected.
                                                                                                                          DFAS-Japan:
                                                                                                                          • Four out of 31 ELAN access request
                                                                                                                              forms that users filled out in 1998 did



                                                                                  93
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
                                                                 not have an approval (signature).
                                                            • Two external ELAN users had not
                                                                 signed user agreements.
                                                            • Seven out of 53 DD 2875/DISA 41
                                                                 forms did not contain a business reason
                                                                 for the access request.
                                                            • One out of 53 DD 2875/DISA 41 forms
                                                                 did not contain a business case that
                                                                 adequately explained the reasoning for
                                                                 the access request.
                                                            • One out of 26 DISP User Access
                                                                 Request forms could not be found.
                                                            • Two out of 26 user access forms were
                                                                 not signed by the TASO.
                                                            • One out of 26 user access forms did not
                                                                 contain a supervisor signature or a
                                                                 business case justification.
                                                            DFAS-Rome:
                                                            • Three out of 30 user access forms did
                                                                 not have authorization documentation
                                                                 available.
                                                            • 11 of 29 users with DISP accounts did
                                                                 not have a DISP user access request
                                                                 form with the appropriate approvals
                                                                 and/or justification. Two of these users
                                                                 had STANFINS accounts.
                                                            DFAS-San Antonio:
                                                            • 32 out of 41 LAN user access forms did
                                                                 not have an access request form on file.
                                                            DFAS-Seaside:
                                                            • 68 of 72 access request forms did not
                                                                 include an adequate business
                                                                 reason/justification for the access
                                                                 requested.
                                                            • 46 of 72 access request forms had a pre-
                                                                 populated response that included the
                                                                 type of access the user needed, but did



                                   94
Control Description   Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                                                               not justify the access.
                                                                          • Three out of 31 internal LAN user
                                                                               access forms did not have the functional
                                                                               data owner’s signature.
                                                                          • 14 of 31 internal LAN user access
                                                                               forms did not have the original user
                                                                               access request form used to create their
                                                                               account.
                                                                          • Four of 31 internal users’ access request
                                                                               forms were not signed by the
                                                                               information security officer.
                                                                          • There was no evidence of LAN access
                                                                               request forms or DISP user access
                                                                               request forms being used prior to
                                                                               February 10, 2005.

                                                                       •   DFAS field sites did not have the technical
                      •   Inquired of DFAS field site ISSOs/TASOs          knowledge to generate STANFINS and
                          to determine whether DFAS periodically           TAPS user access lists directly from the
                          recertified user access levels.                  security system. At eight out of ten DFAS
                                                                           field sites (DFAS-Rome, DFAS-Denver,
                                                                           DFAS-Lawton, DFAS-San Antonio, DFAS-
                                                                           Columbus, DFAS-Seaside, DFAS-
                                                                           Indianapolis and DFAS-Pacific), the
                                                                           ISSOs/TASOs could not determine whether
                                                                           manually derived and maintained access
                                                                           control lists accurately reflected the user
                                                                           population, and therefore could not
                                                                           accurately perform user recertifications.

                      •   Inquired of DFAS ISSOs/TASOs, as well as     •   At DFAS-Columbus, DFAS-Japan, DFAS-
                          DFAS field site supervisors, and inspected       Lawton, DFAS-San Antonio, DFAS-Pacific,
                          user access listings to TAPS/STANFINS to         DFAS-Rome and DFAS-Seaside, users had
                          determine whether user access was                access that was not required by their job
                          commensurate with job responsibilities.          responsibilities.



                      •   Observed an individual user sign on to the


                                   95
Control Description   Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
                          network to determine whether the opening       • No exceptions noted.
                          screen provided a warning banner that stated
                          the system was for authorized use only and
                          that activity was monitored.




                                   96
Completeness (CP)

Controls provide reasonable assurance that all authorized transactions are entered into and completely processed by the computer.

Control Description                                                  Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
Control Activity:
CP-1.1 Record counts and control totals.
DFAS
STANFINS uses a batch control method, called “blocking,” to          •   Observed STANFINS batch processing to         •   No exceptions noted.
determine whether control totals equal the sum of the details.           note whether a block total entered that
During the daily production processing cycle, STANFINS                   didn’t match the detailed transactions
performs batch edits for both manually entered transactions and          caused a suspended transaction. Inspected
transactions received through automated file loads.                      documentation to verify that these
                                                                         suspended transactions were recorded in the
Manual Input                                                             AVK018 report..
Transactions manually entered through TAPS are subject to
edits applied to automated transactions submitted for processing
during the batch processing cycle.

Automated File Load
Transaction files may also be loaded via FTP. Similar to the
TAPS edits, batch edits within STANFINS include the block
totals. If a block total is not included in the FTP file,
STANFINS will generate a block and then require a user to
“accept” the block total within TAPS. The newly generated
block will be reported on the Daily Preliminary Balance Report
(AVK018).

Transaction blocks identified as exceptions by batch edits are
suspended and reported on the Daily Preliminary Balance
Report (AVK018). Accounting Technicians review the
AVK018 and clear erred transactions from the suspense file by
submitting a correcting transaction, called a correction card, via
TAPS. Items remain in suspense (and on the AVK018) until
corrected. Blocks that do pass STANFINS batch edits are
reported at a summary level by block in the AVK018.

Control Activity:
CP-1.3 Computer matching of transaction data.
DFAS


                                                                                  97
Control Description                                                  Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
During the daily production processing cycle, STANFINS               AVK018 Report:
performs batch edits for both manually entered transactions and      • Observed the entry of invalid alphanumeric      •   Of 9 DFAS Field Sites tested, DFAS-
transactions received through automated file loads.                      characters, incomplete fields, incorrect          Indianapolis, DFAS-Seaside, DFAS-Japan,
                                                                         APCs, and invalid total cards. Inspected          DFAS-Lawton, DFAS-Rome, DFAS-
Manual Input                                                             documentation to determine whether errors         Columbus, DFAS-Pacific, and DFAS-San
Transactions manually entered through TAPS are subject to                were included in the AVK018 report with           Antonio, no standard procedures were
edits applied to automated transactions submitted for processing         appropriate coding and the report was being       maintained or enforced to ensure that errors
during the batch processing cycle.                                       reviewed to correct exceptions.                   were properly reconciled, authorized,
                                                                                                                           corrected, and documented.
Automated File Load
Similar to the TAPS edits, batch edits within STANFINS                                                                 •   DFAS-Denver, DFAS-Pacific, DFAS-
include:                                                                                                                   Rome, DFAS-Seaside, DFAS-Indianapolis,
                                                                                                                           DFAS-Columbus. DFAS-Japan, DFAS-San
• Alphanumeric checks;                                                                                                     Antonio and DFAS-Lawton did not
• Checks to determine whether required fields are populated                                                                maintain documented evidence/signatures or
   such as Obligation Data Code, APC, and Fiscal Year;                                                                     note who performed the corrections and
• Master file validations including data element relationship                                                              whether the correction was appropriate..
   edits such as APC and Fiscal Year; and
                                                                     AVK087 Report:
• Reconciliation of control totals to detail transaction totals
   (see control objective AC-10 for further information).            •  Inquired of Systems Office Support             •   The design of the control was ineffective in
                                                                        management to determine if STANFINS                that the AVK-087 report was not
Transaction blocks identified as exceptions by batch edits are          automatically identified any abnormal              cumulative. Abnormal accounting
suspended and reported on the Daily Preliminary Balance                 accounting issues, such as NULOs                   situations were reported only once;
Report (AVK018). Accounting Technicians review the                      (disbursements exceeding obligations),             therefore, after the following day, the report
AVK018 and clear erred transactions from the suspense file by           disbursements without obligations, accruals        did not identify that the abnormal
submitting a correcting transaction, called a correction card, via      without obligations, accruals exceeding            accounting situation existed. No test of
TAPS. Items remain in suspense (and on the AVK018) until                obligations, and negative obligation               operating effectiveness was performed,
corrected. Blocks that do pass STANFINS batch edits are                 amounts. Inspected the resulting exception         since the report could not be sampled.
reported at a summary level by block in the AVK018.                     report, AVK087, and determined whether
                                                                        exceptions were properly identified.
Additionally, STANFINS generates other reports to identify
accounting issues. The accounting issues include, but are not        AVK024 Report:
limited to, Negative Unliquidated Obligations (reported in the       •  Inquired with DNO management to                •   No exceptions noted.
AVK087 report), Obligations (NULOs) without an Accrual                  determine how STANFINS determines if
(AVK087), Credit Receivables (AVK024), and Over-                        credit receivables were assigned to
obligations (AVK030 and AVK051). Accounting Technicians                 customers and if over earnings (exceeding
review these reports and work with the Program Directors to             the ceiling amount set for on the Military
take corrective action, when applicable.                                Interdepartmental Purchase Request
                                                                        (MIPR)) were assigned to customers.


                                                                                  98
Control Description                                            Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness

                                                               •   Observed the processing of a credit
                                                                   receivable and an over earnings within        •   DFAS-San Antonio, DFAS-Denver and
                                                                   STANFINS to determine whether the                 DFAS-Rome of the three DFAS field sites
                                                                   AVK024 identified the transaction.                tested did not have documented procedures
                                                                                                                     for identifying and resolving credit unfilled
                                                                                                                     orders or credit receivables.

                                                                                                                 •   The 2 DFAS field sites who use the
                                                                                                                     STANFINS AVK024, DFAS-Rome and
                                                                                                                     DFAS-Denver, did not maintain evidence
                                                                                                                     that documented the authorization and
                                                                                                                     correction of each corrected credit
                                                                                                                     receivables or credit unfilled orders
                                                                                                                     transaction. .
                                                               AVK030 and AVK051 Report:
                                                                 • Observed the processing of a transaction
                                                                   that caused an over obligation. Inspected     •   No exceptions noted.
                                                                   the appropriate AVK report to determine
                                                                   whether the report correctly identified the
                                                                   accounting issue.
Control Activity:
CP-1.4 Checking reports for transaction data.
DFAS
Accounting Technicians review numerous reports to verify       AVK003 Report:
transactions and master file additions/changes processed       • Observed the entry of a new APC and             •   No exceptions noted.
successfully. Key reports identified include the AVK018 and       inspected the AVK003 to determine whether
the AVK003. Blocks that pass STANFINS batch edits are             the APC was included on the report.
reported at a summary level by block in the AVK018. The
Accounting Technicians review the block totals on the AVK018   AVK018 Report:
to ensure transactions processed accurately. The AVK003        •  Observed the entry of invalid alphanumeric     •   Of 9 DFAS Field Sites tested, DFAS-
(Master Update Listing) is reviewed to identify additions,        characters, incomplete fields, incorrect           Indianapolis, DFAS-Seaside, DFAS-Japan,
changes, and deletions to the master file.                        APCs, and invalid total cards. Inspected           DFAS-Lawton, DFAS-Rome, DFAS-
                                                                  documentation to determine whether the             Columbus, DFAS-Pacific, and DFAS-San
                                                                  error was included in the AVK018 report            Antonio, no standard procedures were
                                                                  with appropriate coding and the report was         maintained or enforced to ensure that errors
                                                                  being reviewed to correct exceptions               were properly reconciled, authorized,
                                                                                                                     corrected, and documented.



                                                                            99
Control Description                                                   Tests of Operating Effectiveness         Results of Tests of Operating Effectiveness

                                                                                                               •   DFAS-Denver, DFAS-Pacific, DFAS-
                                                                                                                   Rome, DFAS-Seaside, DFAS-Indianapolis,
                                                                                                                   DFAS-Columbus. DFAS-Japan, DFAS-San
                                                                                                                   Antonio and DFAS-Lawton did not
                                                                                                                   maintain documented evidence/signatures or
                                                                                                                   note who performed the corrections and
                                                                                                                   whether the correction was appropriate..
Control Activity:
CP-2.1 Reconciliations show the completeness of data processed at points in the processing cycle.
DFAS
DFAS uses a manual method of batching, called “blocking,” to     • Inspected BCLs to determine whether they    •   Of 5 DFAS field sites tested, DFAS-San
help ensure transactions are entered accurately. This manual       were reconciled to STANFINS batch control       Antonio and DFAS-Indianapolis did not
method involves block tickets and block control logs (BCL). A      data.                                           have documented standard procedures to
block ticket is a DFAS-generated input document. The BCL is                                                        address reconciliation of BCLs.
a manually maintained log that tracks all the blocks. Various
DFAS field site divisions/branches and individual users within a                                               •   None of the DFAS field sites tested
branch employ different procedures with respect to the block                                                       performed/maintained documentation of
tickets and BCL. In general, the control department or receiver                                                    reconciliations of summary dollar amounts
receives the transmittal letters and other source documentation                                                    and/or block totals on the block ticket to
via phone, fax, or e-mail. The receiver then creates a block                                                       summary data within STANFINS.
ticket and assigns a block number and records it on the BCL.
The Accounting Technician then inputs the transaction into
TAPS. The block ticket itself has a space for the verification
along with a date. Initialing and dating this area indicates the
input technician has visually compared the amount on the block
ticket to the block total on the screen to help ensure accuracy.

Additionally, some DFAS field site block tickets have a section
to track when the block cleared the DPBL (Daily Preliminary
Balance Report, also known as the AVK018 report). By
initialing and dating the section, the user successfully traced the
transaction from the block ticket to the AVK018 report, thus
indicating that the transaction processed successfully.




                                                                                  100
Accuracy (AY)

Controls provide reasonable assurance that transactions processed by the system maintain validity and accuracy throughout processing.

Control Description                                               Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
Control Activity:
AY-1.3 Key verification increases the accuracy of significant data fields.
DFAS
DFAS uses a manual method of batching, called “blocking,” to • Inspected BCLs to determine whether they             •   Of 5 DFAS field sites tested, DFAS-San
help ensure transactions are entered accurately. This manual          contain the appropriate data and were             Antonio and DFAS-Indianapolis did not
method involves block tickets and BCL. A block ticket is a            reconciled to STANFINS batch control data.        have documented standard procedures to
DFAS-generated input document. The BCL is a manually                                                                    address reconciliation of BCLs.
maintained log that tracks all the blocks. Various DFAS field
site divisions/branches and individual users within a branch                                                        •   None of the DFAS field sites tested
employ different procedures with respect to the block tickets                                                           performed/maintained documentation of
and BCL. In general, the control department or receiver                                                                 reconciliations of summary dollar amounts
receives the transmittal letters and other source documentation                                                         and/or block totals on the block ticket to
via phone, fax, mail, electronic file, or e-mail. The receiver                                                          summary data within STANFINS.
then creates a block ticket and assigns a block number and
records it on the BCL. The Accounting Technician then inputs
the transaction into TAPS. The block ticket itself has a space
for “input by” along with a date. Initialing and dating this area AVK087 Report:
indicates the input technician has visually compared the          • Inquired of Systems Office Support              •   The design of the control for the AVK087
amount on the block ticket to the block total on the screen to        management to determine whether                   Report was ineffective in that the report was
help ensure accuracy.                                                 STANFINS automatically identifies any             not cumulative. Abnormal accounting
                                                                      abnormal accounting issues, such as NULOs         situations are reported only once; therefore,
Depending on the user or division, there are various standards        (disbursements exceeding obligations),            after the following day, the report did not
followed and levels of detail maintained on the BCL and block         disbursements without obligations, accruals       identify that the abnormal accounting
ticket. For example, some divisions use a Microsoft Access            without obligations, accruals exceeding           situation existed. No test of operating
database to track blocks while others use a manually                  obligations, and negative obligation              effectiveness was performed, since the
maintained BCL. Some divisions/users keep evidence of their           amounts. Inspected the resulting exception        report could not be sampled.
review of the block summary indicated in the screen and others        report, AVK087, to determine whether
do not. Some divisions/users have different standards or              exceptions were properly identified.
definitions for the purpose of each of the fields on the block
ticket and BCL. In some instances, the “input by” space on the AVK024 Report:
block ticket indicates the input technician has visually                                                            •   No exceptions noted.
                                                                  • Inquired with DNO management to
compared the amount on the block ticket to the block total on
                                                                      determine how STANFINS determined if
the screen. In other instances, the “input by” space on the
                                                                      credit receivables were assigned to
block ticket only indicates the input technician entered the
                                                                      customers and if over earnings (exceeding
transaction; not that the block total matched what had been



                                                                              101
Control Description                                                   Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
expected.                                                                 the ceiling amount set for on the Military
                                                                          Interdepartmental Purchase Request
Additionally, some DFAS field site block tickets have a section           (MIPR)) were assigned to customers.
to track when the block cleared the DPBL (Daily Preliminary
Balance Report, also known as the AVK018 report). By                  •   Observed the processing of a credit          •   DFAS-San Antonio, DFAS-Denver and
initialing and dating the section, the user successfully traced the       receivable and an over earnings within           DFAS-Rome of the three DFAS field sites
transaction from the block ticket to the AVK018 report, thus              STANFINS to determine whether the                tested did not have documented procedures
indicating that the transaction processed successfully.                   AVK024 identified the transaction.               for identifying and resolving credit unfilled
                                                                                                                           orders or credit receivables.
Also, TAPS and STANFINS have additional edit checks to
help determine the accuracy of significant data.                                                                       •   The 2 DFAS field sites who use the
                                                                                                                           STANFINS AVK024, DFAS-Rome and
Manual Input                                                                                                               DFAS-Denver, did not maintain evidence
Transactions manually entered through TAPS are subject to                                                                  that documented the authorization and
edits applied to automated transactions submitted for                                                                      correction of each corrected credit
processing during the batch processing cycle.                                                                              receivables or credit unfilled orders
                                                                                                                           transaction.
Automated File Load
During the daily production processing cycle, STANFINS                AVK030 and AVK051 Report:                        •   No exceptions noted.
performs batch edits for manually entered transactions and            •  Observed the processing of a transaction
transactions received through automated file loads. Similar to           that caused an over obligation. Inspected
the TAPS edits, batch edits in STANFINS include:                         the appropriate AVK report to determine
                                                                         whether the report correctly identified the
•    Alphanumeric checks;                                                accounting issue.
•   Checks to determine whether required fields are populated
    such as Obligation Data Code, APC, and Fiscal Year;
•   Master file validations including data element relationship
    edits such as APC and Fiscal Year; and
•   Reconciliation of control totals to detail transaction totals
    (see control objective AC-10 for further information).

Transaction blocks identified as exceptions by batch edits are
suspended and reported on the Daily Preliminary Balance
Report (AVK018). Accounting Technicians review the
AVK018 and clear erred transactions from the suspense file by
submitting a correcting transaction, called a correction card, via
TAPS. Items remain in suspense within STANFINS (and on
the AVK018).



                                                                                   102
Control Description                                        Tests of Operating Effectiveness                           Results of Tests of Operating Effectiveness
Control Activity:
AY-2.1 Programmed validation and edit checks identify erroneous data.
DFAS

Manual Input                                                         AVK018 Report:
Transactions manually entered through TAPS are subject to            • Observed the entry of invalid alphanumeric     •   Of 9 DFAS Field Sites tested, DFAS-
edits applied to automated transactions submitted for                   characters, incomplete fields, incorrect          Indianapolis, DFAS-Seaside, DFAS-Japan,
processing during the batch processing cycle, as described in           APCs, and invalid total cards. Inspected          DFAS-Lawton, DFAS-Rome, DFAS-
the section below.                                                      documentation to determine whether the            Columbus, DFAS-Pacific, and DFAS-San
                                                                        errors were included in the AVK018 report         Antonio, no standard procedures were
Automated File Load                                                     with appropriate coding and the report was        maintained or enforced to ensure that errors
During the daily production processing cycle, STANFINS                  being reviewed to correct exceptions.             were properly reconciled, authorized,
performs batch edits for manually entered transactions and                                                                corrected, and documented.
transactions received through automated file loads. Similar to
the TAPS edits, batch edits in STANFINS include:                                                                      •   DFAS-Denver, DFAS-Pacific, DFAS-
                                                                                                                          Rome, DFAS-Seaside, DFAS-Indianapolis,
•    Alphanumeric checks;                                                                                                 DFAS-Columbus. DFAS-Japan, DFAS-San
•   Checks to determine whether required fields are populated                                                             Antonio and DFAS-Lawton did not
    such as Obligation Data Code, APC, and Fiscal Year;                                                                   maintain documented evidence/signatures or
•   Master file validations including data element relationship                                                           note who performed the corrections and
    edits such as APC and Fiscal Year; and                                                                                whether the correction was appropriate..
                                                                     AVK087 Report:
•   Reconciliation of control totals to detail transaction totals
    (see control objective AC-10 for further information).           •  Inquired of Systems Office Support            •   The design of the control for the AVK087
                                                                        management to determine if STANFINS               Report was ineffective in that the report was
Transaction blocks identified as exceptions by batch edits are          automatically identified any abnormal             not cumulative. Abnormal accounting
suspended and reported on the Daily Preliminary Balance                 accounting issues, such as NULOs                  situations are reported only once; therefore,
Report (AVK018). Accounting Technicians review the                      (disbursements exceeding obligations),            after the following day, the report did not
AVK018 and clear erred transactions from the suspense file by           disbursements without obligations, accruals       identify that the abnormal accounting
submitting a correcting transaction, called a correction card, via      without obligations, accruals exceeding           situation existed. No test of operating
TAPS. Items remain in suspense (and on the AVK018) until                obligations, and negative obligation              effectiveness was performed, since the
corrected. Blocks that do pass STANFINS batch edits are                 amounts. Inspected the resulting exception        report could not be sampled.
reported at a summary level by block in the AVK018.                     report, AVK087, and to determine whether
                                                                        exceptions were properly identified.
Additionally, STANFINS generates other reports to identify
accounting issues. The accounting issues include, but are not        AVK024 Report:
limited to, Negative Unliquidated Obligations (AVK087),              •  Inquired with DNO management to               •   No exceptions noted.
Obligations without an Accrual (AVK087), Credit Receivables             determine how STANFINS determines if
(AVK024), and Over-obligations (AVK030 and AVK051).                     credit receivables were assigned to
                                                                        customers and if over earnings (exceeding


                                                                                 103
Control Description                                             Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
Accounting Technicians review these reports and work with the       the ceiling amount set for on the Military
Program Directors to take corrective action, when applicable.       Interdepartmental Purchase Request
                                                                    (MIPR)) were assigned to customers.

                                                                •   Observed the processing of a credit
                                                                    receivable and an over earnings in           •   DFAS-San Antonio, DFAS-Denver and
                                                                    STANFINS to determine whether the                DFAS-Rome of the three DFAS field sites
                                                                    AVK024 identified the transaction.               tested did not have documented procedures
                                                                                                                     for identifying and resolving credit unfilled
                                                                                                                     orders or credit receivables.

                                                                                                                 •   The 2 DFAS field sites who use the
                                                                                                                     STANFINS AVK024, DFAS-Rome and
                                                                                                                     DFAS-Denver, did not maintain evidence
                                                                                                                     that documented the authorization and
                                                                                                                     correction of each corrected credit
                                                                                                                     receivables or credit unfilled orders
                                                                AVK030 and AVK051 Report:                            transaction.
                                                                • Observed the processing of a transaction
                                                                   that caused an over obligation. Inspected     •   No exceptions noted.
                                                                   the appropriate AVK report to determine
                                                                   whether the report correctly identified the
                                                                   accounting issue.




                                                                             104
Control Description                                           Tests of Operating Effectiveness                         Results of Tests of Operating Effectiveness
Control Activity:
AY-2.3 Overriding or bypassing data validation and editing is restricted.
DFAS

Manual Input                                                         AVK018 Report:
Should an Accounting Technician manually enter a transaction         • Observed the entry of invalid alphanumeric      •   Of 9 DFAS Field Sites tested, DFAS-
that TAPS edits identify as an exception, a warning message             characters, incomplete fields, incorrect           Indianapolis, DFAS-Seaside, DFAS-Japan,
appears on the screen. During the TAPS edit process, users              APCs, and invalid total cards. Inspected           DFAS-Lawton, DFAS-Rome, DFAS-
have the option to correct the transaction at this point.               documentation to verify the inclusion in the       Columbus, DFAS-Pacific, and DFAS-San
Additionally, users have the ability to bypass the warning              AVK018 report with appropriate error               Antonio, no standard procedures were
message, thus allowing the transaction to continue processing.          coding. Verified that report was being             maintained or enforced to ensure that errors
                                                                        reviewed to correct exceptions.                    were properly reconciled, authorized,
Transactions bypassed in TAPS and submitted for continued                                                                  corrected, and documented.
processing are subject to batch cycle edit checks.
                                                                                                                       •   DFAS-Denver, DFAS-Pacific, DFAS-
During the daily production processing cycle, STANFINS                                                                     Rome, DFAS-Seaside, DFAS-Indianapolis,
performs batch edits for manually entered transactions and                                                                 DFAS-Columbus. DFAS-Japan, DFAS-San
transactions received through automated file loads. Similar to                                                             Antonio and DFAS-Lawton did not
the TAPS edits, batch edits in STANFINS include:                                                                           maintain documented evidence/signatures or
                                                                                                                           note who performed the corrections and
•   Alphanumeric checks;                                                                                                   whether the correction was appropriate..
•   Checks to determine whether required fields are populated
    such as Obligation Data Code, APC, and Fiscal Year;              AVK087 Report:
•   Master file validations including data element relationship      •  Inquired of Systems Office Support             •   The design of the control was ineffective in
    edits such as APC and Fiscal Year; and                              management to determine if STANFINS                that the AVK087 Report was not cumulative.
•   Reconciliation of control totals to detail transaction totals       automatically identified any abnormal              Abnormal accounting situations were
    (see control objective AC-10 for further information).              accounting issues, such as NULOs                   reported only once; therefore, after the
                                                                        (disbursements exceeding obligations),             following day, the report did not identify
Transaction blocks identified as exceptions by batch edits are          disbursements without obligations, accruals        that the abnormal accounting situation
suspended and reported on the Daily Preliminary Balance                 without obligations, accruals exceeding            existed. No test of operating effectiveness
Report (AVK018). Accounting Technicians review the                      obligations, and negative obligation               was performed, since the report could not be
AVK018 and clear erred transactions from the suspense file by           amounts. Inspected the resulting exception         sampled.
submitting a correcting transaction, called a correction card, via      report, AVK087 to determine whether
TAPS. Items remain in suspense (and on the AVK018) until                exceptions were properly identified.
corrected. Blocks that do pass STANFINS batch edits are
reported at a summary level by block in the AVK018.
                                                                     AVK024 Report:
                                                                     • Inquiry with DNO management to                  •   No exceptions noted.
                                                                        determine how STANFINS identified that


                                                                                 105
Control Description                                           Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                                                  credit receivables were assigned to
                                                                  customers and if over earnings (exceeding
                                                                  the ceiling amount set for on the MIPR)
                                                                  were assigned to customers.

                                                              •   Observed the processing of a credit          •   DFAS-San Antonio, DFAS-Denver and
                                                                  receivable and an over earnings in               DFAS-Rome of the three DFAS field sites
                                                                  STANFINS to determine whether the                tested did not have documented procedures
                                                                  AVK024 identified the transaction.               for identifying and resolving credit unfilled
                                                                                                                   orders or credit receivables.

                                                                                                               •   The 2 DFAS field sites who use the
                                                                                                                   STANFINS AVK024, DFAS-Rome and
                                                                                                                   DFAS-Denver, did not maintain evidence
                                                                                                                   that documented the authorization and
                                                                                                                   correction of each corrected credit
                                                                                                                   receivables or credit unfilled orders
                                                                                                                   transaction.
                                                              AVK030 and AVK051 Report:
                                                              •  Observed the processing of a transaction      •   No exceptions noted.
                                                                 that caused an over obligation. Inspected
                                                                 the appropriate AVK report to determine
                                                                 whether the report correctly identified the
                                                                 accounting issue.
Control Activity:
AY-3.1 Rejected transactions are controlled with an automated error suspense file.
DFAS
STANFINS maintains a suspense file, EXGAVK. The             AVK018 Report:
program that generates the suspended transaction report,    • Observed the entry of invalid alphanumeric       •   Of 9 DFAS Field Sites tested, DFAS-
AVK018, is called PBKAVK. A control group is responsible         characters, incomplete fields, incorrect          Indianapolis, DFAS-Seaside, DFAS-Japan,
for controlling and monitoring the rejected transactions.        APCs, and invalid total cards. Inspected          DFAS-Lawton, DFAS-Rome, DFAS-
Suspended blocks remain in suspense and on the report until      documentation to determine whether errors         Columbus, DFAS-Pacific, and DFAS-San
corrected or released (deleted).                                 were included the AVK018 report with              Antonio, no standard procedures were
                                                                 appropriate coding and the report was being       maintained or enforced to ensure that errors
Additionally, the Accounting Technician responsible for the      reviewed to correct exceptions.                   were properly reconciled, authorized,
AVK018 corrections researches the error and makes the                                                              corrected, and documented.
corrections via TAPS. In most instances, the AVK018 and
related backup documentation is kept for one year.



                                                                           106
Control Description                                            Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                                                                                                • DFAS-Denver, DFAS-Pacific, DFAS-
                                                                                                                   Rome, DFAS-Seaside, DFAS-Indianapolis,
                                                                                                                   DFAS-Columbus. DFAS-Japan, DFAS-San
                                                                                                                   Antonio and DFAS-Lawton did not
                                                                                                                   maintain documented evidence/signatures or
                                                                                                                   note who performed the corrections and
                                                                                                                   whether the correction was appropriate..
Control Activity:
AY-3.2 Erroneous data are reported back to the user department for investigation and correction.
DFAS
The Accounting Technician responsible for the AVK018           AVK018 Report:                                   •   Of 9 DFAS Field Sites tested, DFAS-
corrections researches the error and makes the corrections via • Observed the entry of invalid alphanumeric         Indianapolis, DFAS-Seaside, DFAS-Japan,
TAPS. In most instances, the AVK018 and related backup            characters, incomplete fields, incorrect          DFAS-Lawton, DFAS-Rome, DFAS-
documentation is kept for one year.                               APCs, and invalid total cards. Inspected          Columbus, DFAS-Pacific, and DFAS-San
                                                                  documentation to determine whether errors         Antonio, no standard procedures were
                                                                  were included the AVK018 report with              maintained or enforced to ensure that errors
                                                                  appropriate coding and the report was being       were properly reconciled, authorized,
                                                                  reviewed to correct exceptions.                   corrected, and documented.

                                                                                                                •   DFAS-Denver, DFAS-Pacific, DFAS-
                                                                                                                    Rome, DFAS-Seaside, DFAS-Indianapolis,
                                                                                                                    DFAS-Columbus. DFAS-Japan, DFAS-San
                                                                                                                    Antonio and DFAS-Lawton did not
                                                                                                                    maintain documented evidence/signatures or
                                                                                                                    note who performed the corrections and
                                                                                                                    whether the correction was appropriate..




                                                                           107
Control Description                                              Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
Control Activity:
AY-4.2 Reports showing the results of processing are reviewed by users.
DFAS
Accounting Technicians review numerous reports to verify         AVK018 Report:                                    •   Of 9 DFAS Field Sites tested, DFAS-
processing results. Key reports identified include: AVK003,      • Observed the entry of invalid alphanumeric          Indianapolis, DFAS-Seaside, DFAS-Japan,
AVK006, and AVK018. The AVK003 (Master Update                        characters, incomplete fields, incorrect          DFAS-Lawton, DFAS-Rome, DFAS-
Listing) is reviewed to identify additions, changes, and             APCs, and invalid total cards. Inspected          Columbus, DFAS-Pacific, and DFAS-San
deletions to the master files. The AVK006 (Master Update             documentation to determine whether errors         Antonio, no standard procedures were
Error Report) is reviewed to identify lines that did not process     were included the AVK018 report with              maintained or enforced to ensure that errors
to the master files along with respective error codes. As            appropriate coding and the report was being       were properly reconciled, authorized,
documented in AY 3.1, the AVK018 (Daily Preliminary                  reviewed to correct exceptions.                   corrected, and documented.
Balance) is reviewed to ensure transactions processed
accurately.

                                                                •    Inquired of management to obtain an           •   DFAS-Denver, DFAS-Pacific, DFAS-
                                                                     understanding of the procedures to review         Rome, DFAS-Seaside, DFAS-Indianapolis,
                                                                     the AVK006 report, research the errors,           DFAS-Columbus. DFAS-Japan, DFAS-San
                                                                     make associated corrections, and document,        Antonio and DFAS-Lawton did not
                                                                     where appropriate, resolution of the error        maintain documented evidence/signatures or
                                                                     and authorizations.                               note who performed the corrections and
                                                                                                                       whether the correction was appropriate..


                                                                                                                   •   DFAS-Rome, DFAS-Japan, DFAS-
                                                                                                                       Columbus, DFAS-Denver, DFAS-Orlando
                                                                                                                       and DFAS-San Antonio maintained limited
                                                                                                                       or no evidence regarding the review, input,
                                                                                                                       and resolution of the errors.

                                                                                                                   •   DFAS-Seaside, DFAS-Japan, DFAS-
                                                                                                                       Columbus, DFAS-Denver, DFAS-Orlando,
                                                                                                                       DFAS-San Antonio did not maintain a
                                                                                                                       policy or standard operating procedure
                                                                                                                       documenting the evidence requirements
                                                                                                                       supporting the correction for errors within
                                                                                                                       the AVK006 report.




                                                                             108
Integrity (IN)

Controls provide reasonable assurance that production processing uses the current version of software and data, that transactions are secured from
unauthorized modification, and that concurrent updates of files are not allowed.

Control Description                                             Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
Control Activity:
Production scheduling is monitored for program failures due to corrupted or missing input files.
Common Controls4
Control-M records the data and time, user ID and disposition    • Inquired of IT Supervisor and Specialist and      •   At the DOIM located in Denver, personnel
code, and job execution message regarding the completion of         inspected the settings page to determine the        were unaware of automated logging features
production jobs to audit trails.                                    settings applied for recording of audit             in Control-M, stating there was no
                                                                    records in SysLog.                                  automated audit logging process for
Color-coding facilitates the identification of erred production                                                         STANFINS job scheduling and processing.
jobs. Audit trails are generated real-time during the execution • Inspected a screen print of the Control-M
of the production schedule and are available for review after-      History log to determine whether audit trails   •   At the DOIM located in Denver, the audit
the-fact.                                                           of production schedule/job completion was           trails for production job scheduling were not
                                                                    documented.                                         documented.
Control-M produces a log that identifies that a schedule change
has been made and the user ID of the individual who made the
change. Control-M has the ability to filter data to identify
deleted schedules and the user who performed the deletion.
DISA
DISA DECC-St. Louis and DISA DECC-Mechanicsburg share • Inquired with TSB personnel to determine                    •   No exceptions noted.
responsibility for monitoring of production processing with         whether a process for identifying,
DFAS. When an operator at DECC identifies an abnormal job           documenting, and tracking production
termination ABEND, he/she creates a REMEDY system ticket            schedule deviations was developed.
and contacts an appropriate DFAS point of contact (POC) for
resolution. Contact lists/escalation procedures document POCs
to be called in the event of unresolved ABEND. DISA DECC        • Inspected the listing of appropriate DFAS         •   No exceptions noted.
maintains historical REMEDY tickets as a resource for               points of contact to determine if contact
identifying and resolving production-processing problems.           information was documented.
Once DFAS is alerted of the issue, DFAS is responsible for
identifying a method of resolution and ensuring the problem is
                                                                • For production issues since July 2004,            •   No exceptions noted.
resolved.
                                                                    inspected the corresponding REMEDY
                                                                    tickets to determine if they were tracked to



4   Common controls are those controls that a DoD organization other than DISA or DFAS implements, and are commonly applied across both DISA and DFAS.


                                                                              109
Control Description                                               Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
                                                                      completion.
DFAS
DISA DECC-St. Louis and DISA DECC-Mechanicsburg share             •   Inquired with Computer/EDP Specialist to       •   At the DOIM site located in Denver,
responsibility for monitoring of production processing with           determine whether a process for identifying,       • Denver DOIM Management did not
DFAS.                                                                 documenting, and tracking production                   develop and implement Control-M
                                                                      schedule deviations was developed.                     standards and procedures to aid
Once DFAS is alerted of the issue, DFAS is responsible for            Inspected procedures to determine whether              personnel in the use of this application.
identifying a method of resolution and ensuring the problem is        the process was documented and whether a           • The process for documenting the job
resolved.                                                             point of contact list was available for                schedule changes and any issues during
                                                                      reference when problem escalation was                  processing was informal. As a result,
Some DOIM sites have standard operating procedures to                 necessary.                                             no documentation existed for these
address production job ABENDS and escalation procedures.
                                                                                                                             processes.
Processing is monitored real-time and any issues are
immediately identified and addressed. When a job encounters                                                              • A description of STANFINS production
an ABEND, the screen turns red and processing stops until it is                                                              jobs, description of ABEND codes, and
corrected and restarted by an operator.                                                                                      escalation, recovery, and restart
                                                                                                                             procedures was not documented.
Escalation procedures provide detailed instruction on handling    •   Inspected procedures used for production
                                                                                                                     •   At the DOIM site located in Denver,
ABENDS and identify points of contact.                                processing and documentation used to track
                                                                      deviations from the predefined production-         • Denver DOIM Management did not
In some cases, Internal Trouble Reports are created when              processing schedule.                                   develop and implement Control-M
STANFINS processing ABENDS. When an Internal Trouble                                                                         standards and procedures to aid
Report is created, an approval must accompany the change                                                                     personnel in the use of this application.
made to fix the processing issue.                                                                                        • The process for documenting the job
                                                                                                                             schedule changes and any issues during
                                                                                                                             processing was informal. As a result,
                                                                                                                             no documentation existed for these
                                                                                                                             processes.
                                                                                                                         • A description of STANFINS production
                                                                                                                             jobs, description of ABEND codes, and
                                                                                                                             escalation, recovery and restart
                                                                                                                             procedures was not documented.

                                                                  •   For production issues since July 2004,         •   No exceptions noted.
                                                                      inspected the corresponding REMEDY
                                                                      tickets to determine if they were tracked to
                                                                      completion
Control Activity:
A program change/confirmation management process is in place that includes testing changes prior to their introduction to the production environment.


                                                                               110
Control Description                                                Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
DISA
DISA DECC-St. Louis uses change request templates for              •   Inquired of the DISA DECC-St. Louis TSB     •   DISA did not develop system software
system software changes. The CCB Instructions to be                    Chief regarding procedures for making           change management procedures detailing
Followed for Preparation of CCP requires the following details         changes to system software supporting           specific DECC roles, responsibilities, and
for changes: major project/goal, change description, scope of          STANFINS.                                       procedures regarding identification of
change, domains affected, back-out procedures, downtime, and                                                           system software problems, testing of
special instructions.                                                                                                  changes, impact analyses, approvals,
                                                                                                                       implementation and verification, and
SSO Mechanicsburg is responsible for building, testing, and                                                            documentation requirements.
distributing implementation-ready Mainframe Executive
Software Suites for all test and production LPARs. This            •   Inspected system software change logs to    •   No audit log was created for the use of
includes all software changes, releases, maintenance, and              determine whether system software changes       sensitive system utilities on the ACF2
upgrades. The DECC and SSO technical staffs participate in             on the STANFINS-related mainframe               domains; thus, DISA DECC-St. Louis could
the testing; coordinate the scheduling, customer interfaces, and       domains were tracked.                           not review program use violations.
administrative changes; implement the revised software suites;
and provide operational technical support.
                                                                                                                   •   Top Secret was not consistently configured
                                                                                                                       to generate audit logs for all sensitive
If the proposed change impacts DISA DECC-St. Louis
                                                                                                                       utilities; thus, DISA DECC-St. Louis could
customers, a formal synopsis of the change is sent to the
                                                                                                                       not review program use violations.
customers affected for coordination purposes.
                                                                   •   Selected a random sample of changes to      •   DISA SSO and DISA DECC-St. Louis
The REMEDY help desk ticket system tracks any identified
                                                                       STANFINS system software/DB changes to          lacked change documentation that included
problems.
                                                                       determine whether required documentation        detailed information about the change, such
                                                                       was present.                                    as test results or impact analysis.
Emergency system software changes follow the same process
as any other system software change, only the process is
expedited.                                                         •   Inspected the notification e-mails for
                                                                       STANFINS changes applied during the         •   No exceptions noted.
SSO is responsible for the standardization and optimization of         examination period to determine whether
the executive software suites for all DECCs. The Executive             implementation dates for STANFINS were
Support Plan documents and delegates these responsibilities to         communicated to personnel implementing
the SSO. The support plan states that the SSO will provide             the changes in the TSB.
three levels of support: Standard Operating Environment
(SOE), Centrally Supported Systems (CSS), and Consolidated         •   Inquired of STANFINS system owners and      •   DISA did not develop system software
Maintenance Contract (CMC).                                            System Administrators to determine              change management procedures detailing
                                                                       whether procedures were developed and           specific DECC roles, responsibilities, and
DISA DECC-Mechanicsburg employs a change management                    documented for identifying and recording        procedures regarding identification of
process for all software changes/requests called the ESCCB.            and tracking STANFINS-related system            system software problems, testing of
An individual making a request for a change to or for new              software problems.                              changes, impact analyses, approvals,



                                                                               111
Control Description                                              Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
software must submit a request via a Web-based form. The                                                              implementation and verification, and
ESCCB board meets on a weekly basis to review the requests                                                            documentation requirements.
submitted over the past week. The policies and procedures of
the board set forth the process for submission and approval of   •   Inspected vendor support agreements to        •   No exceptions noted.
change requests.                                                     determine whether they were current and
                                                                     provided coverage for computer assets.
Applicable domains track system software changes.
                                                                 •   Inquired of management to determine           •   The TSB performed the migration of tested
                                                                     whether tested and approved STANFINS              and approved system software changes;
                                                                     system software migrated to the production        however, there were no documented policies
                                                                     environment was performed by an                   requiring migration of system software
                                                                     independent library control group.                changes into production by an independent
                                                                                                                       library control group. The same person
                                                                                                                       could develop/identify the change request,
                                                                                                                       test the proposed change, and implement the
                                                                                                                       change.

                                                                 •   Compared user listings for individuals with   •   At the DECC Mechanicsburg, two
                                                                     access to migrate changes into the                individuals listed as authorized users for the
                                                                     production environment to determine               Software Factory no longer required access.
                                                                     whether it was commensurate with job
                                                                     responsibilities.

                                                                 •   Inquired of DISA DECC-St. Louis TSB           •   No exceptions noted.
                                                                     Branch Chief and inspected documentation
                                                                     system-generated inventories to determine
                                                                     whether DISA DECC-St. Louis maintained
                                                                     an inventory of programs on STANFINS-
                                                                     related mainframe domains.
DFAS
STANFINS currently operates in a “maintenance mode,” which       •   Inspected supporting authorization and        •   Documentation of testing and authorizations
means that only emergency maintenance changes are applied.           testing documentation for STANFINS                related to the development and
Emergency maintenance changes are those software changes             changes applied during the examination            implementation of STANFINS application
required to maintain compliance with applicable Federal              period to determine whether documentation         changes were inconsistently generated and
statutes and regulations.                                            was prepared in accordance with DoD               maintained. These inconsistencies included:
                                                                     Instruction 8500.2.                               • SCRs were generally not created if the
A completed SCR form must accompany STANFINS software                                                                       Change Control Board knew that the
changes with the potential exception of changes required to                                                                 request would not be authorized.



                                                                             112
Control Description                                             Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
accommodate interfacing systems. The System Owner must                                                               • Change Control Board meetings were
fill out and approve the SCR before the change is tested and                                                              informal, held as needed, and most
migrated to production.                                                                                                   communication regarding proposed
                                                                                                                          changes was discussed verbally.
Prior to testing, each SCR requires a documented TCR form to                                                         • Of 15 SCRs and TCRs generated
be filled out, including a sign-off documenting the STANFINS                                                              October 2, 2002 through October 2004,
PMO Functional group’s approval. Testing is performed using                                                               only three had e-mail documentation to
production data on a test environment.                                                                                    support the change.
Once the TCR is authorized, the PMO Functional group sends
                                                                                                                  •   Of 12 FY 2004 SCRs, only three copies of
an e-mail to TSO regarding the change release. A checklist is
                                                                                                                      e-mails notifying the DFAS field sites of
used to determine that all appropriate steps have been taken
                                                                                                                      changes were maintained.
prior to ship. DECC is contacted to determine that they are
ready to receive, and have received, the release.               •   Performed inquiry of the PMO Accountant
                                                                                                                  •   STANFINS application changes were
                                                                    and Lead Specialist to verify the process
                                                                                                                      manually controlled, migrated, and released
                                                                    used to document and authorize changes.
                                                                                                                      from the testing environment; however, the
                                                                                                                      documentation was not appropriately
                                                                                                                      maintained. Specifically, there was no
                                                                                                                      automated version controls (i.e., a program
                                                                                                                      change version control system) to track
                                                                                                                      changes to STANFINS.
Control Activity:
Access controls have been placed into operation to restrict application access to authorized personnel.
DISA
The DISA Computing Services Security Handbook details          • Inspected policies and procedures on             •   No exceptions noted.
granting access to system resources.                                granting and monitoring access to
                                                                    STANFINS IT resources.
Users at the DISA DECC-St. Louis have access to STANFINS
application production files and data as necessary to support  • Inquired of DISA DECC-St. Louis Security         •   No exceptions noted.
system operation and respond to customer requests. DECC             Division Branch Chief to determine the
users also have access to the mainframe GSS where the               process for granting access to STANFINS.
application resides. The DECC is responsible for creating and
maintaining DECC user accounts, as well as DFAS ISSO and
                                                               • Inspected access control procedures to           •   No exceptions noted.
TASO accounts at customer sites. The local ISSO/TASO is
                                                                    determine whether the process for granting,
responsible for creating and maintaining user accounts at
                                                                    monitoring, and removing access to
customer sites.
                                                                    STANFINS followed Federal (NIST SP
                                                                    800-26 – Logical Access) and DoD
Users at the DECC (the majority of which are system software
                                                                    guidance (DoD Instruction 8500.2 – Remote



                                                                            113
Control Description                                                 Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness
maintenance personnel) requiring access to the mainframe                Access, Access Procedures, Access Control
environment complete a form DD 2875 “System Authorization               Policies, Contractor and Foreign Nationals
Access Request”, used for initial access requests, as well as for       Access, Comprehensive Account
changes to an account. An authorized supervisor must sign this          Management, Least Privilege Procedures,
form, indicating approval of the access. Users must possess a           Classified Data Protection).
security clearance commensurate with the classification level
of the system in order to obtain access. Passwords are              •   Inspected initial authorization                •   At DISA DECC-St. Louis, we selected 42
communicated to users via secure means, either in person or             documentation for a random sample of               users out of 1441 and requested their user
via e-mail, using separate e-mails to transmit user ID and              STANFINS users (at the application and             access request form packets. Out of the
password.                                                               network level) to determine completeness           sample of 42 packets:
                                                                        and existence.                                     • One user did not have a completed
The RAS server connections provide direct dial-in access to the                                                                access request form;
network. DECC users requesting remote access must submit
                                                                                                                           • Three individuals had at least one
an approved form DD 2875. Remote access is granted to users
                                                                                                                               access request form without a Security
with a valid need, which must be approved by a supervisor, to
                                                                                                                               representative’s signature certifying that
access the network remotely. Typically, users are granted
                                                                                                                               the individual’s background
remote access in order to respond quickly to emergency
                                                                                                                               checks/security clearances were
situations and resolve problems when not at the DECC facility.
                                                                                                                               appropriate;
After receiving an approved remote access request, the Security
Division staff adds the user to the RAS server.                                                                            • Six individuals had at least one access
                                                                                                                               request form where the user
The mainframe access control applications CA-ACF2 and CA-                                                                      acknowledgement portion was not
Top Secret protect the STANFINS application and the system                                                                     signed.
software it resides on.                                             •   Inquired of DISA DECC-St. Louis Security
                                                                                                                       •   DISA DECC-St. Louis did not have a
                                                                        Division Branch Chief regarding policies
ACF2 and Top Secret mainframe security software enforce                                                                    process for recertifying user access to
                                                                        and procedures for recertifying users access
discretionary access controls. Also, access to shared and                                                                  STANFINS.
                                                                        in STANFINS.
networked file systems outside the mainframe environment is
controlled through discretionary access controls enforced
                                                                    •   Obtained and inspected the ACL for
                                                                                                                       •   Two separated out of 11 employees retained
through network access privileges.
                                                                        STANFINS to determine whether separated
                                                                                                                           access to one or more of the domains where
                                                                        employees had access.
The UML Standardization memo establishes user ID rules for                                                                 STANFINS resided.
DECC users. DECC user IDs are configured to identify the
user’s department, as well as employment status. Additionally,
the OS/390 STIG requires a unique ACF2 or Top Secret user           •   Inspected the ACL to determine whether
                                                                                                                       •   No duplicate accounts were identified. (No
ID for every user.                                                      duplicate accounts existed.
                                                                                                                           Exception Noted.) However, three accounts
                                                                                                                           on the Far East domain had no user name
Passwords are not displayed as a user logs in to the mainframe.                                                            associated with the ACF2 ID (ACID).
After three invalid log-on attempts, ACF2 automatically                                                                    (Exception Noted)



                                                                                 114
Control Description                                               Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
terminates the session. For the Top Secret domains, Top Secret    • Inspected an ACL of remote users and
suspends the user’s account after two invalid log-on attempts.        inquired of the ISSO to determine whether     •   Remote access to the DECC mainframes via
                                                                      the access was limited, documented, and           telnet was not restricted and not secured via
Before authentication, a warning banner is displayed that             approved.                                         encryption.
informs the user that the system is for authorized use only and
that activity will be monitored. The terminal session             •   Inquired of Security Division Branch Chief    •   Minimum password length on each of the
automatically logs the user off after 15 minutes of inactivity        and Security Administrators and inspected         five ACF2 ASIMS domains and the one Top
and a screen-lock appears after 15 minutes, which requires the        ACF2 and Top Secret security settings to          Secret ASIMS domain was configured to six
user to re-authenticate in order to re-gain access.                   determine whether the security products           characters, while the OS/390 STIG required
                                                                      were securely configured in accordance with       passwords have a minimum of eight
Inactive accounts are suspended after 35 days of inactivity and       OS/390 STIG guidance to enforce                   characters.
deleted after 90 days of inactivity.                                  discretionary access controls.
                                                                                                                    •   Users on the Top Secret ASIMS domain
                                                                                                                        were not required by the system to use a
                                                                                                                        national character (e.g., $, @, #) when
                                                                                                                        creating new passwords, as required by the
                                                                                                                        OS/390 STIG.

                                                                                                                    •   Users on the ACF2 ASIMS domains were
                                                                                                                        restricted from using their previous four
                                                                                                                        passwords; users should be restricted from
                                                                                                                        using their previous ten passwords as
                                                                                                                        required by the OS/390 STIG.

                                                                                                                    •   The Huntsville ASIMS domain had the
                                                                                                                        JOBCK setting set to NOJOBCK. This
                                                                                                                        setting did not require ACF2 to verify
                                                                                                                        whether a user submitting a batch job had
                                                                                                                        been granted the authority to submit batch
                                                                                                                        jobs.


                                                                                                                    •   An individual user was assigned to the
                                                                                                                        Master Central Security Administrator
                                                                                                                        (MSCA) account on the Top Secret ASIMS
                                                                                                                        Far East domain. The MSCA designation
                                                                                                                        allows full system access and is not required
                                                                                                                        for individual users.



                                                                              115
Control Description   Tests of Operating Effectiveness                   Results of Tests of Operating Effectiveness

                                                                         •   26 DECC ACF2 accounts on the ASIMS
                                                                             domains had passwords that did not expire
                                                                             (MAXDAYS not specified). 147 DECC
                                                                             Top Secret accounts on the Far East ASIMS
                                                                             domains had passwords that did not expire
                                                                             (Password Interval = 0).

                                                                         •   DISA DECC St. Louis users had “Write” or
                                                                             “Allocate” access to STANFINS production
                                                                             application datasets on two of five ACF2
                                                                             ASIMS domains and the Top Secret ASIMS
                                                                             Far East domain.

                      •   Inspected the UML Standardization memo
                          to determine whether naming conventions        •   No exceptions noted.
                          were established for DECC users.

                      •   Inquired of Security Division Branch Chief
                          and system administrators to determine         •   No exceptions noted.
                          security procedures for logging on and using
                          the network. Inspected GSS (mainframe)
                          policies and procedures to determine
                          whether security procedures were
                          documented.

                      •   Inquired of Security Division Branch Chief
                          and inspected procedures to determine          •   542 out of 1392 user accounts across the six
                          whether inactive mainframe users’ accounts         STANFINS-related ASIMS domains were
                          were monitored and removed when not                inactive for over 180 days or had never been
                          needed. Inspected the Top Secret and ACF2          used.
                          STANFINS-related domain ACLs to
                          determine whether inactive DECC user IDs
                          were present within the domains.

                      •   Observed an individual user sign on to the
                          mainframe to determine whether the             •   No exceptions noted.
                          opening screen provided a warning banner



                                  116
Control Description                                                 Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
                                                                        that stated the system was for authorized use
                                                                        only and that activity was monitored.

                                                                    •   Observed a PC terminal to determine
                                                                        whether automatic log-off occurred after a      •   No exceptions noted.
                                                                        preset number of minutes of inactivity.



DFAS
The Procedures for ASIMS Access Controls details policies on        •   Inspected DFAS policies and procedures to       •   Of the four DFAS sites, DFAS-Indianapolis
security access responsibilities and the process to grant user          determine whether guidance was established          (PMO and TSO), DFAS-Pacific, DFAS-
access to STANFINS. DFAS uses user access forms to                      to outline ELAN administrator security              Japan and DFAS-Rome stated that there was
document the establishment, modification, deletion, or                  responsibilities.                                   no DFAS service-wide policy or guidance
suspension of access to STANFINS IT resources, to include the                                                               document outlining local ELAN
STANFINS application, as well as the ELAN, which DFAS                                                                       administrator security responsibilities versus
administrative and field sites use to gain access to STANFINS.                                                              those of centralized groups responsible for
                                                                                                                            the administration/ monitoring of DFAS-
To set up ELAN access, the ELAN administrator, prior to                                                                     wide network security.
establishing a network user ID and password, must approve the
form via signature. For some sites, a separate security group       •   Inspected access control procedures to          •   During testing, DFAS field sites were
approves the form via signature.                                        determine whether the process for granting,         unable to generate STANFINS and TAPS
                                                                        monitoring, and removing access to                  user access lists directly from the security
Users must have a TAPS account to access the STANFINS                   STANFINS and GSS followed Federal                   system. As a result, of the ten DFAS field
application. The local TASO/ISSO is responsible for security            (NIST SP 800-26 – Logical Access) and               sites, DFAS-Rome, DFAS-Denver, DFAS-
administration, including the assignment of TAPS accounts.              DoD guidance (DoD Instruction 8500.2 –              San Antonio, DFAS-Lawton, DFAS-
The ISSO creates user accounts for TAPS/STANFINS through                Remote Access, Access Procedures, Access            Columbus, DFAS-Indianapolis and DFAS-
a tool called VASS. For the majority of DFAS field sites,               Control Policies, Contractor and Foreign            Pacific and DFAS-Seaside could not:
Microsoft Excel spreadsheet, Access database, or other manual           Nationals Access, Comprehensive Account             • Identify all TAPS modes (access
means of tracking are used to identify STANFINS/TAPS users,             Management, Least Privilege Procedures,                  privileges) assigned to users;
TAPS mode profiles, and assigned TAPS modes. At DFAS-
Orlando and DFAS-Japan, TASOs/ISSOs generate ACF2-
                                                                        Classified Data Protection).                        • Determine whether users had
native listings in order to identify and track access to TAPS and                                                                inappropriate access to TAPS modes,
STANFINS.                                                                                                                        based on job responsibilities; and
                                                                                                                            • Determine whether manually derived
The DFAS ISSP provides guidance in conducting monthly                                                                            and maintained access control lists
recertifications of STANFINS and ELAN accounts. The ISSO                                                                         accurately reflected the user population.
is responsible for providing each supervisor with a STANFINS
user listing of access levels, and it is the supervisor’s



                                                                                 117
Control Description                                                  Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
responsibility to validate and authorize user access.                • Inspected access forms for a random sample     • Of the ten DFAS field sites, nine field sites
                                                                         of STANFINS access (at the application and      (DFAS-Rome, DFAS-Denver, DFAS-
Remote network access via a DISP account is granted to a user            network level) to determine whether             Lawton, DFAS-San Antonio, DFAS-
based on valid need and supervisory approval.                            management authorized access.                   Columbus, DFAS-Seaside, DFAS-
                                                                                                                         Indianapolis, DFAS-Pacific and DFAS-
STANFINS application password and user ID rules are                                                                      Japan) either used locally developed or had
configured in the security system software maintained by                                                                 not documented procedures for granting,
DISA.                                                                                                                    approving, monitoring, recertifying, and
                                                                                                                         removing user access to STANFINS and the
DFAS ELAN procedures include requirements that guide                                                                     ELAN.
ELAN administrators in the conduct of network security
administration.                                                                                                       •   Six of ten DFAS user sites did not have
                                                                                                                          complete or existing authorizations for
During log-in to the ELAN, there is a banner warning users that                                                           STANFINS users as follows:
they are about to log on to a government workstation and that                                                             DFAS-Denver:
their use will be monitored. This banner automatically appears
                                                                                                                          • 18 STANFINS user access forms did
every time a user accesses any DFAS workstation connected to
                                                                                                                              not have an ELAN Account Request
ELAN.
                                                                                                                              Form on file.
                                                                                                                          DFAS-Pacific:
ELAN workstations are CAC-configured, which means that an
individual must insert a valid CAC card into a reader slot that is                                                        • Justification for STANFINS user access
connected to the workstation to log in to the network. When                                                                   was pre-populated on user access forms
the individual leaves the workstation, he or she must remove                                                                  by the TASOs and may not support
the CAC card from the reader slot, which automatically locks                                                                  actual needs.
the workstation and prevents anyone else from accessing it.                                                               • The functional data owner’s signature
                                                                                                                              was missing from TAPS user request
                                                                                                                              forms on two of the eight forms
                                                                                                                              inspected.
                                                                                                                          DFAS-Japan:
                                                                                                                          • Four out of 31 ELAN access request
                                                                                                                              forms that users filled out in 1998 did
                                                                                                                              not have an approval (signature).
                                                                                                                          • Two external ELAN users had not
                                                                                                                              signed user agreements.
                                                                                                                          • Seven out of 53 DD 2875/DISA 41
                                                                                                                              forms did not contain a business case
                                                                                                                              for the access request.
                                                                                                                          • One out of 53 DD 2875/DISA 41 forms
                                                                                                                              did not contain a business case that


                                                                                 118
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
                                                                 adequately explained the reasoning for
                                                                 the access request.
                                                            • One out of 26 DISP User Access
                                                                 Request forms could not be found.
                                                            • Two out of 26 user access forms were
                                                                 not signed by the TASO.
                                                            • One out of 26 user access forms did not
                                                                 contain a supervisor signature or a
                                                                 business case justification.
                                                            DFAS-Rome:
                                                            • Three out of 30 user access forms did
                                                                 not have authorization documentation
                                                                 available.
                                                            • 11 of 29 users with DISP accounts did
                                                                 not have a DISP user access request
                                                                 form with the appropriate approvals
                                                                 and/or justification. Two of these users
                                                                 had STANFINS accounts.
                                                            DFAS-San Antonio:
                                                            • 32 out of 41 LAN user access forms did
                                                                 not have an access request form on file.
                                                            DFAS-Seaside:
                                                            • 68 of 72 access request forms did not
                                                                 include an adequate business
                                                                 reason/justification for the access
                                                                 requested.
                                                            • 46 of 72 access request forms had a pre-
                                                                 populated response that included the
                                                                 type of access the user needed, but did
                                                                 not justify the access.
                                                            • Three out of 31 internal LAN user
                                                                 access forms did not have the functional
                                                                 data owner’s signature.
                                                            • 14 of 31 internal LAN user access
                                                                 forms did not have the original user
                                                                 access request form used to create their
                                                                 account.



                                  119
Control Description                                            Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
                                                                                                                    • Four of 31 internal users’ access request
                                                                                                                         forms were not signed by the
                                                                                                                         information security officer.
                                                                                                                    • There was no evidence of LAN access
                                                                                                                         request forms or DISP user access
                                                                                                                         request forms being used prior to
                                                                                                                         February 10, 2005.

                                                               •   Inquired of DFAS field site ISSOs/TASOs       •   DFAS field sites did not have the technical
                                                                   to determine whether DFAS periodically            knowledge to generate STANFINS and
                                                                   recertified user access levels.                   TAPS user access lists directly from the
                                                                                                                     security system. At eight out of ten DFAS
                                                                                                                     field sites (DFAS-Rome, DFAS-Denver,
                                                                                                                     DFAS-Lawton, DFAS-San Antonio, DFAS-
                                                                                                                     Columbus, DFAS-Seaside, DFAS-
                                                                                                                     Indianapolis and DFAS-Pacific), the
                                                                                                                     ISSOs/TASOs could not determine whether
                                                                                                                     manually derived and maintained access
                                                                                                                     control lists accurately reflected the user
                                                                                                                     population, and therefore could not
                                                                                                                     accurately perform user recertifications.

                                                               •   Inquired of DFAS ISSOs/TASOs, as well as      •   At DFAS-Columbus, DFAS-Japan, DFAS-
                                                                   DFAS field site supervisors, and inspected        Lawton, DFAS-San Antonio, DFAS-Pacific,
                                                                   user access listings to TAPS/STANFINS to          DFAS-Rome and DFAS-Seaside, users had
                                                                   determine whether user access was                 access that was not required by their job
                                                                   commensurate with job responsibilities.           responsibilities.



                                                               •   Observed an individual user sign on to the    •   No exceptions noted.
                                                                   network to note whether the opening screen
                                                                   provided a warning banner that stated the
                                                                   system was for authorized use only and that
                                                                   activity was monitored.
Control Activity:
Integrity verification programs are used by applications to look for evidence of data tampering, errors, and omissions.
DFAS



                                                                           120
Control Description                                               Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
STANFINS uses a batch control method, called “blocking,” to       • Observed STANFINS batch processing to           • No exceptions noted.
determine whether control totals equal the sum of the details.        note whether a block total entered that
During the daily production processing cycle, STANFINS                didn’t match the detailed transactions
performs batch edits for manually entered transactions and            caused a suspended transaction. Inspected
transactions received through automated file loads.                   documentation to verify that these
                                                                      suspended transactions were recorded in the
Manual Input                                                          AVK018 report.
Transactions manually entered through TAPS are subject to
edits applied to automated transactions submitted for
processing during the batch processing cycle.

Automated File Load
Transaction files may also be loaded via FTP. Similar to the
TAPS edits, batch edits in STANFINS include the block totals.
If a block total is not included in the FTP file, STANFINS will
generate a block and then require a user to “accept” the block
total in TAPS. The newly generated block will be reported on
the Daily Preliminary Balance Report (AVK018).

Transaction blocks identified as exceptions by batch edits are
suspended and reported on the Daily Preliminary Balance
Report (AVK018). Accounting Technicians review the
AVK018 and clear erred transactions from the suspense file by
submitting a correcting transaction, called a correction card, via
TAPS. Items remain in suspense (and on the AVK018) until
corrected. Blocks that do pass STANFINS batch edits are
reported at a summary level by block in the AVK018.
Control Activity:
Reconciliation routines are used by applications, e.g., checksums, hash totals, record counts to promote data accuracy.
DFAS
STANFINS uses a batch control method, called “blocking,” to        • Observed STANFINS batch processing to       • No exceptions noted.
determine whether control totals equal the sum of the details.       note whether a block total entered that
During the daily production processing cycle, STANFINS               didn’t match the detailed transactions
performs batch edits for manually entered transactions and           caused a suspended transaction. Inspected
transactions received through automated file loads.                  documentation to verify that these
                                                                     suspended transactions were recorded in the
                                                                     AVK018 report.
Manual Input
Transactions manually entered through TAPS are subject to



                                                                              121
Control Description                                                  Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
edits applied to automated transactions submitted for
processing during the batch processing cycle.

Automated File Load
Transaction files may also be loaded via FTP. Similar to the
TAPS edits, batch edits in STANFINS include the block totals.
If a block total is not included in the FTP file, STANFINS will
generate a block and then require a user to “accept” the block
total in TAPS. The newly generated block will be reported on
the Daily Preliminary Balance Report (AVK018).

Transaction blocks identified as exceptions by batch edits are
suspended and reported on the Daily Preliminary Balance
Report (AVK018). Accounting Technicians review the
AVK018 and clear erred transactions from the suspense file by
submitting a correcting transaction, called a correction card, via
TAPS. Items remain in suspense (and on the AVK018) until
corrected. Blocks that do pass STANFINS batch edits are
reported at a summary level by block in the AVK018.




                                                                                 122
Section IV: Supplemental Information Provided by DFAS and DISA




                             123
124
Section IV: Supplemental Information Provided by DFAS and DISA
A. CONTINUITY OF OPERATIONS PLANNING

Continuity of Operations Plan

In a consolidated effort, DFAS and DISA developed a COOP. The COOP possessed the following key
characteristics:

•   Reflective of current conditions;
•   Approved by key affected groups including senior management, Data Center management, and
    program managers;
•   Clearly assigns responsibilities for recovery;
•   Includes detailed instructions for restoring operations (both operating systems and critical
    applications);
•   Identifies the alternate processing facility and the backup storage facility;
•   Includes procedures to follow when the DECC-St. Louis Data Center is unable to receive or transmit
    data;
•   Identifies critical data files;
•   Is detailed enough to be understood by all DFAS system managers;
•   Includes computer and telecommunications hardware compatible with the required system needs; and
•   Has been distributed to all appropriate personnel.

The COOP provided for backup personnel so that it can be implemented independent of specific
individuals. Arrangements were planned for travel and lodging of necessary personnel, if needed. All
computer room employees received training on emergency roles and responsibilities. Computer room
staff received periodic training in emergency, fire, water, and alarm incident procedures. Emergency
response procedures were also documented and periodically tested.

Contracts or interagency support agreements were established for a backup data center and other needed
facilities that:

•   Were in a state of readiness commensurate with the risk of interrupted operations;
•   Had sufficient processing capability; and
•   Were likely to be available for use.

Alternate telecommunication services were arranged in the event a disaster rendered the current
infrastructure unusable.

The contingency plan was periodically reassessed and, if appropriate, revised to reflect changes in
hardware, software, and personnel. The COOP in the STANFINS SSAA was last updated in December
2003. The DISA DECC COOP was updated to include a Lessons Learned section with results of the
latest COOP testing in March 2004. Several copies of the contingency plan were securely stored off-site
at different locations.




                                                   125
COOP Testing (DISA DECC)

The COOP was tested under conditions that simulated DISA DECC-St. Louis’s inability to process critical
applications for DFAS. Assumptions were that voice communication, data communication, and public utility
services were disabled, the building was not inhabitable, and the processing outage would continue for an
extended period of time. DFAS and DISA coordinated efforts to conduct annual disaster recovery tests.
Division representatives participated in the tests and were involved in the development of test plans for
DFAS systems. Test results were reported to systems managers in writing and the COOP updated to
include short- and long-term solutions to problems identified. Additionally, test results were analyzed,
and COOP test plans (including test scenarios and test results) were updated after each test. The COOP
was also reviewed and updated as necessary.

The most recent disaster recovery test was performed March 8 through March 26, 2004 and included the
STANFINS application and underlying GSS. The purpose of the exercise was to test the DECC-St. Louis
COOP restoration of all DFAS-Indianapolis and Kansas City critical applications to validate the transfer
and processing of data at an alternate location.

The COOP test was successful with the exception of the timeliness of backups. The March 2004 test and
full restoration took 124.25 hours versus the 72-hour requirement stated in the STANFINS management
and DISA SLA. DISA was taking action to meet the established timeframes.




                                                  126
Acronyms and Abbreviations
ABEND       Abnormal Ending
AC          Access Control
ACF2        Access Control Facility 2
ACL         Access Control Listing
AVK018      Daily Preliminary Balance Report
AVK087      STANFINS General Fund and Inquiry Report
AN          Authorization
APC         Account Processing Code
ASIMS       Army Standard Information Management System
AY          Accuracy
BCL         Block Control Log
C&A         Certification & Accreditation
CAC         Common Access Card
CC          Change Control
CDOIM       Centralized Directorate for Information Management
CICS        Customer Information Control System
COOP        Continuity of Operations Plan/Business Continuity Plan
CP          Completeness
CSOD        Computing Services Operations Division
DARPA       Defense Advanced Research Projects Agency
DARS        Databased Accounting Reconciliation System
DeCA        Defense Commissary Agency
DECC        Defense Enterprise Computing Center
DFAS        Defense Finance and Accounting Service
DISA        Defense Information Systems Agency
DISP        Defense Internet Service Provider
DITSCAP     Defense Information Technology Security Certification and Accreditation Process
DNO         Directorate for Network Operations
ELAN        Enterprise Local Area Network
ESCCB       Executive Software Configuration Control Board
FMFIA       Federal Managers’ Financial Integrity Act
FTP         File Transfer Protocol
GSS         General Support System
IA          Information Assurance
IN          Integrity
ISO         Information Services Organization
ISSM        Information Systems Security Manager
ISSO        Information Systems Security Officer
ISSP        Information System Security Plan
IT          Information Technology
LAN         local area network


                                          127
LPARs      Logical Partitions
MAC        Mission Assurance Category
NIPRNET    non-classified Internet Protocol Router Network
NIST       National Institute of Standards and Technology
NSO        Network Security Officer
NULO       Negative Unliquidated Obligation
OMB        Office of Management and Budget
PIN        Personal Identification Number
PMO        Program Management Office
RACF       Resource Access Control Facility
RAS        Remote Access Service
SAS        Statement on Auditing Standards
SC         Service Continuity
SCR        System Change Request
SP         Security Program
SRR        Security Readiness Review
SS         System Software
SSAA       System Security Authorization Agreement
SSO        System Support Office
STANFINS   Standard Finance System
STIG       Security Technical Implementation Guide
TAPS       Terminal Application Processing System
TASO       Terminal Area Security Officer
TCR        Test Condition Requirements
TSB        Technical Support Branch
TSO        Technical Services Organization




                                          128
Report Distribution

Office of the Secretary of Defense

Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army

Inspector General, Department of the Army
Army Audit Agency

Department of the Navy

Auditor General, Department of the Navy

Department of the Air Force

Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command

Inspector General, U.S. Joint Forces Command

Other Defense Organizations

Defense Finance and Accounting Service
Inspector General, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals

Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and Ranking Minority Members

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                                 129
House Subcommittee on Government Efficiency and Financial Management, Committee on Government
  Reform
House Subcommittee on National Security, Emerging Threats, and International Relations, Committee on
  Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the Census,
  Committee on Government Reform




                                                130
